<html>
<title> - GREEN TRANSPORTATION INFRASTRUCTURE: CHALLENGES TO ACCESS AND IMPLEMENTATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                  GREEN TRANSPORTATION INFRASTRUCTURE: 
                        CHALLENGES TO ACCESS AND 
                             IMPLEMENTATION 

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2007

                               __________

                           Serial No. 110-27

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science


                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

34-909 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


























                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

               Subcommittee on Technology and Innovation

                    HON. DAVID WU, Oregon, Chairman
JIM MATHESON, Utah                   PHIL GINGREY, Georgia
HARRY E. MITCHELL, Arizona           VERNON J. EHLERS, Michigan
CHARLIE A. WILSON, Ohio              JUDY BIGGERT, Illinois
BEN CHANDLER, Kentucky               JO BONNER, Alabama
MIKE ROSS, Arizona                   ADRIAN SMITH, Nebraska
MICHAEL M. HONDA, California             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 MIKE QUEAR Subcommittee Staff Director
      RACHEL JAGODA BRUNETTE Democratic Professional Staff Member
          COLIN MCCORMICK Democratic Professional Staff Member
         TIND SHEPPER RYEN Republican Professional Staff Member
           PIPER LARGENT Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant

















                            C O N T E N T S

                              May 10, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative David Wu, Chairman, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     8

Statement by Representative Phil Gingrey, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........     9
    Written Statement............................................    10

                                Panel 1:

Ms. Gloria M. Shepherd, Associate Administrator, Office of 
  Planning, Environment, and Realty, Federal Highway 
  Administration, U.S. Department of Transportation
    Oral Statement...............................................    11
    Written Statement............................................    12
    Biography....................................................    25

Mr. Benjamin H. Grumbles, Assistant Administrator for Water, U.S. 
  Environmental Protection Agency
    Oral Statement...............................................    25
    Written Statement............................................    27
    Biography....................................................    33

Discussion.......................................................    34

                                Panel 2:

Mr. Sam Adams, Commissioner of Public Utilities, City of 
  Portland, Oregon
    Oral Statement...............................................    37
    Written Statement............................................    39
    Biography....................................................    42

Mr. Daniel J. Huffman, Managing Director, National Resources, 
  National Ready Mixed Concrete Association
    Oral Statement...............................................    43
    Written Statement............................................    45
    Biography....................................................    51

Mr. Hal Kassoff, Senior Vice President for Sustainable 
  Development, Parsons Brinckerhoff
    Oral Statement...............................................    51
    Written Statement............................................    53
    Biography....................................................    54

Discussion.......................................................    55

             Appendix 1: Answers to Post-Hearing Questions

Ms. Gloria M. Shepherd, Associate Administrator, Office of 
  Planning, Environment, and Realty, Federal Highway 
  Administration, U.S. Department of Transportation..............    66

Mr. Benjamin H. Grumbles, Assistant Administrator for Water, U.S. 
  Environmental Protection Agency................................    70

Mr. Sam Adams, Commissioner of Public Utilities, City of 
  Portland, Oregon...............................................    74

Mr. Daniel J. Huffman, Managing Director, National Resources, 
  National Ready Mixed Concrete Association......................    76

Mr. Hal Kassoff, Senior Vice President for Sustainable 
  Development, Parsons Brinckerhoff..............................    80

             Appendix 2: Additional Material for the Record

Statement of the Interlocking Concrete Pavement Institute (ICPI).    84


     GREEN TRANSPORTATION INFRASTRUCTURE: CHALLENGES TO ACCESS AND 
                             IMPLEMENTATION

                              ----------                              


                         THURSDAY, MAY 10, 2007

                  House of Representatives,
         Subcommittee on Technology and Innovation,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:30 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. David Wu 
[Chairman of the Subcommittee] presiding.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                  Green Transportation Infrastructure:

                        Challenges to Access and

                             Implementation

                         thursday, may 10, 2007
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, May 10, the Subcommittee on Technology and Innovation 
of the Committee on Science and Technology will hold a hearing to 
examine options for construction technologies and materials available 
for transportation infrastructure that contribute to stormwater 
management and control of non-point source water pollution. Federal and 
local government officials and industry representatives will also 
address barriers to widespread implementation of these technologies.

2. Witnesses

Ms. Gloria Shepherd is the Associate Administrator for Planning, 
Environment, and Realty at the Federal Highway Administration (FHWA) of 
the U.S. Department of Transportation (DOT).

Mr. Benjamin Grumbles is the Assistant Administrator for the Office of 
Water at the U.S. Environmental Protection Agency (EPA).

Mr. Sam Adams is the Commissioner of Public Utilities for the City of 
Portland, Oregon. His jurisdiction includes the Bureau of Environmental 
Services and the Office of Transportation.

Mr. Dan Huffman is the Managing Director for National Resources for the 
National Ready Mixed Concrete Association (NRMCA).

Mr. Hal Kassoff is the Senior Vice President for Sustainable 
Development at Parsons Brinckerhoff, a leading infrastructure 
engineering firm.

3. Brief Overview

        <bullet>  Transportation infrastructure such as roads and 
        parking lots contribute to pollution of ground and surface 
        water because they are impervious surfaces and collect a high 
        concentration of contaminants. Stormwater washes pollutants off 
        of hard surfaces and concentrates runoff into streams, lakes, 
        and bays without filtration that could mitigate the effect of 
        the contaminants. In addition, these hard surfaces concentrate 
        rainfall during storms and empty the flow of water immediately 
        via storm sewers intro streams, rivers, and lakes, unlike the 
        slow, natural filtration when rain falls on undeveloped ground. 
        The results--flooding, increased sedimentation and erosion, and 
        pollution of ecosystems.

        <bullet>  Engineers have developed numerous technologies that 
        can be incorporated into transportation infrastructure which 
        contribute to controlling stormwater and mitigating non-point 
        source water pollution. These green infrastructure technologies 
        help absorb and filter excess runoff, rather than funneling 
        runoff into large sewer pipes that empty directly into 
        detention ponds or water treatment facilities, which can easily 
        become overwhelmed during heavy rainfall.

        <bullet>  There has not been widespread implementation of green 
        transportation infrastructure by governments or private 
        industry. There are technical, social, and regulatory barriers 
        to implementation which are being addressed to some extent by 
        the Federal Government and private non-profit organizations, 
        but additional efforts are necessary.

4. Issues and Concerns

What future research is necessary, both in the area of technology 
development and testing and evaluation? A common argument against the 
use of green transportation infrastructure by governments and private 
industry is the lack of data (or the lack of awareness of data) 
supporting the claims that these technologies control runoff and reduce 
non-point source pollution. Additional testing and evaluation as well 
as more robust public awareness campaigns could ease concerns that 
green infrastructure technologies are ineffective. Testing and 
evaluation should also cover the traditional criteria used to judge 
transportation infrastructure: safety, reliability, and cost. 
Currently, the EPA depends on outside groups for data collection, and 
as a result, data tends to be incomplete and only covers specific 
projects, not overall technology performance in a variety of settings. 
Because EPA uses performance-based standards to determine whether 
technologies effectively contribute to preventing water pollution, the 
lack of data makes it especially difficult to get approval to use new 
technology from some regional administrators.
    The American Association of State Highway and Transportation 
Officials (AASHTO) maintains a database of all proposed research 
projects proposed by State departments of transportation in the field 
of environmental protection. The proposed research is intended to meet 
specific needs of transportation officials, and covers broad topics 
such as noise, energy, wildlife protection, and water management. In 
the area of stormwater management, states have proposed over 30 
different research projects that would provide further data and 
feedback on the use of green transportation infrastructure. The results 
would be a valuable tool for helping convince State and local 
transportation officials and private industry of the effectiveness of 
these technologies. Unfortunately, research funding is limited, and 
many proposed projects are not carried out.

How should a builder determine which type of green transportation 
infrastructure technology is most appropriate for their project? How 
should that technology be integrated into the overall stormwater 
management system? One of the primary reasons builders resist 
incorporating green transportation infrastructure technologies into 
their design plans is the lack of understanding of the different 
options. Given that even EPA regional offices do not have universal 
expertise in this area, it is not surprising that builders are 
reluctant to invest time and effort in familiarizing themselves with 
green technologies. One of the most complicated aspects of planning 
designs that incorporate green infrastructure is determining the most 
appropriate technologies to use for a particular climate and built 
environment. A technology appropriate for a major urban center in the 
Northeast would likely not be effective for a more rural area in the 
desert Southwest. Additionally, these technologies do not operate 
independently, but are most effective when they are integrated into an 
overall stormwater management and sewer system. Since the technologies 
are relatively new, many builders do not have the expertise necessary 
to efficiently integrate the design into an existing water management 
system. EPA is working to educate designers and builders through the 
use of fact sheets on the various technologies, but additional efforts 
are necessary to facilitate broader implementation.

What should the Federal Government do to facilitate adoption of green 
transportation infrastructure by State and local governments and 
private companies? How can federal agencies coordinate effectively to 
maximize use of green technologies? Federal action on the issue of 
green transportation infrastructure has been generally limited to 
research and development, public awareness campaigns, and demonstration 
projects. While these efforts are laudable, the Federal Government 
could provide stronger incentives for using these types of technology. 
Federal agencies can also set a good example by using green 
infrastructure practices at their facilities around the country, thus 
demonstrating that these technologies are useful in many climates and 
settings around the country.
    There are also federal funding sources that could be used to 
provide incentives for the use of green infrastructure. In March, the 
House passed H.R. 720, the Water Quality Financing Act of 2007, which 
authorized the use of EPA grant money--which previously had been 
limited to funding traditional stormwater management infrastructure 
such as sewer pipes--for green infrastructure. Federal funding for 
green transportation infrastructure elements both provides a financial 
incentive for their use by states and municipalities and indicates 
federal recognition of the technology's effectiveness.
    Additionally, better coordination between federal agencies is 
necessary to allow new technologies into the marketplace without being 
impeded by federal regulations. Currently, some EPA regions do not 
allow the use of innovative technologies in spite of work performed by 
other federal agencies, including FHWA, that demonstrates their 
effectiveness. Improving coordination between R&D agencies and 
regulatory agencies can help ensure that technology transfer is not 
hampered by outdated regulations.

5. Background

    The information in this section is summarized from the National 
Cooperative Highway Research Program's 2006 report, Evaluation of Best 
Management Practices for Highway Runoff Control.
Environmental Problems Associated With Runoff
    Changes in the amount of land covered by surfaces that are 
impervious to water, such as roads or parking lots, can have 
significant impacts on an area's natural hydrology, potentially 
resulting in flooding, pollution, or aquatic ecosystem destruction. Due 
to their impermeable nature, roads and parking lots decrease the amount 
of rainwater that will infiltrate into the ground, leading to an 
increase in the amount of rainwater that runs over the surface of the 
ground, referred to as ``surface runoff.'' An area that is fully paved 
has on average of 15 to 20 times the amount of runoff as a completely 
undeveloped area. Thus, streams, rivers, lakes and other bodies of 
surface water receive a greater volume of runoff under developed 
conditions than they would under undeveloped conditions. They also 
receive the peak flow of this surface runoff much sooner than they 
would under natural conditions, where water would filter through 
slowly. These changes in volume and timing can degrade the physical 
characteristics of streams and rivers. Increases in erosion will widen 
channels, decrease the stability of banks, and widen flood plains. 
These changes affect the fish and other animals and plants. 
Additionally, these changes to the watershed can increase the 
possibility that a stream will experience reduced or intermittent flow 
during some times of the year, since there is less groundwater to 
recharge the stream and the flow of runoff into the stream is no longer 
gradual but instead very sharp. Thus, developed areas have a 
significant and far-ranging environmental impact.
    Runoff from highways contributes to non-point source pollution--the 
type of non-localized pollution emission that is responsible for over 
80 percent of the degradation of the Nation's surface water. Stormwater 
moves over agricultural land, lawns, urban areas, and other types of 
human land-use, washing chemicals like fertilizers, heavy metals, and 
harmful bacteria into surface water. Highway and other transportation 
installations are major contributors to this type of pollution. The 
most common contaminants in highway runoff are metals, inorganic salts, 
aromatic hydrocarbons (such as the carcinogenic chemical benzene) and 
suspended solids that accumulate on the road surface as a result of 
regular highway operations and maintenance activities.
Runoff Mitigation Methods
    To be an effective tool in countering the negative impact of 
rainfall runoff, mitigation measures must reduce the speed and volume 
of flow and treat or reduce pollutants. Mitigation techniques rely on 
structural and non-structural best management practices (BMPs) to 
address these goals. Structural measures are installations like 
infiltration basins and trenches, detention and retention ponds, 
constructed wetlands, vegetated swales and filter strips, and 
filtration systems. Generally they are above ground and rely on passive 
methods to accomplish treatment goals. Some highly urbanized areas use 
underground, proprietary systems. Non-structural measures are designed 
to control runoff and pollution problems at their source; they include 
practices such as street sweeping and reductions in fertilizer 
applications.
    Stormwater managers generally choose their treatment technique by 
evaluating the amount of land available, the cost of implementation and 
operation and maintenance of the technology, and the treatment 
objectives. Attenuation methods, or reducing the size of the peak 
runoff flow, can be accomplished by intercepting the rainfall with 
vegetation and avoiding overly efficient conveyance systems (such as 
large storm drains) and detention ponds. All of these serve the purpose 
of slowing the water as it travels to the ground or surface water. 
Reductions in stormwater volume can be accomplished with retention, 
infiltration and evapo-transpiration (the water lost through 
evaporation and plant processes).
    Low-impact development is a comprehensive design strategy intended 
to maintain the natural hydrology of an area even after roads and other 
infrastructure are installed. It embodies the principles of 
conservation, minimization of impact, and maintenance of natural 
watershed hydrologic timing. Ideally, low impact development should be 
designed to replicate pre-development conditions as much as possible.
Current Federal Programs
    While most of the decisions regarding implementation of green 
transportation infrastructure are made at the State and local level, 
there are federal programs addressing the issue of non-point source 
water pollution control in transportation infrastructure. The Green 
Highways Partnership (GHP) is the primary federal vehicle for 
encouraging the use of green transportation infrastructure by State and 
local governments and private industry. EPA and FHWA are the chief 
federal participants in the partnership, which includes an expanding 
list of State departments of transportation, trade organizations, 
municipal governments, and non-profit organizations. The Partnership's 
activities focus on planning and design, construction, and operations 
and maintenance of green transportation infrastructure, and include 
pilot projects that demonstrate cost-effective, environmentally-sound 
transportation infrastructure technologies that meet State performance 
requirements. GHP includes a specific program on watershed-driven 
stormwater management which includes the development of best practices 
and performance standards, and the collection of data and modeling 
results to better understand the benefits of green technologies.
    FHWA, through the Surface Transportation Environment and Planning 
(STEP) Cooperative Research Program, also conducts research to improve 
air quality and climate, wetlands, and water quality and ecosystems as 
part of its environmental research initiative. Stormwater-control 
related projects include basic research into the contribution of 
impervious surfaces to runoff, and development of methods to rapidly 
assess the effects of highways on adjoining ecosystems.
    Additional research projects are supported through the 
Transportation Research Board (TRB), a FHWA-funded arm of the National 
Research Council (NRC). As part of the National Cooperative Highway 
Research Program, TRB has sponsored evaluations of best management 
practices for highway runoff, long term data collections on the effect 
of highway construction on habitats, and other projects related to the 
effect of transportation infrastructure on non-point source water 
pollution. The EPA Office of Water participates in TRB committees, and 
assists in the translation of research results into usable manuals and 
guides for State and local agencies.
    The EPA Office of Water also supports the use of green 
infrastructure through the National Menu of Storm Water Best Practices, 
a web-based database of stormwater management options for local 
authorities. EPA developed this database beginning in 2000. The 
database includes information and builder specifications for a variety 
of green transportation infrastructure technologies. The Office of 
Water has also begun cooperating with environmental non-profit 
organizations to promote the use of these practices among local 
governments. They provide additional support to State and local 
governments through the development of fact sheets that specify which 
technologies are suited to various environments around the country.

6. Challenges to Implementation

    Though research has shown significant benefits in terms of 
stormwater management and control of non-point source water pollution, 
technologies such as bio-swales and pervious pavement have not been 
adopted in many jurisdictions or by private entities. There are 
numerous barriers to full adoption of green infrastructure, including 
technical problems, regulatory challenges, and general industry 
resistance to changing practices.
Technical Challenges
    The installation of green transportation infrastructure can be 
impeded by problems of high cost and availability of space for 
technologies. For measures that are installed directly on the roadway, 
unless new infrastructure is being constructed, there are high costs 
associated with removing old materials and installing new surfaces. 
Additionally, the disruption to traffic and business is extremely 
costly. In many urban areas, there is also not space on the roadside or 
around parking lots to install measures such as bio-swales, limiting 
local governments' choices of technology.
    Various climates can also present unique challenges to 
implementation. In areas where very cold weather is common, 
technologies that retain water for slow filtration are susceptible to 
freezing. Freeze/thaw cycles can shorten the lifespan of 
infrastructure, as well as limiting its ability to effectively filter 
pollutants from runoff. Further research will help develop better 
guidelines as to which technologies are most appropriate for various 
climates.
Regulatory Challenges
    Federal, State, and local government agencies have taken an active 
role in promoting the use of green transportation infrastructure, but 
paradoxically, those same entities have often erected regulatory 
barriers which prevent widespread implementation. On the federal level, 
the U.S. Environmental Protection Agency (EPA) has begun promoting the 
use of green infrastructure, including transportation infrastructure, 
through its Office of Water. In March 2007, Assistant Administrator Ben 
Grumbles released a memo to regional administrators encouraging the 
acceptance of green infrastructure to protect water quality (Appendix 
I). The EPA also recently signed an agreement with a number of 
environmental organizations to assist State and local governments in 
implementing green infrastructure projects.
    However, though the Office of Water has been a strong advocate for 
green infrastructure projects, there are regulatory barriers internal 
to the EPA that prevent those projects from moving forward. Through the 
Clean Water Act, the National Pollutant Discharge Elimination System 
(NPDES) permit program gives EPA the authority to regulate sources of 
water that release pollutants into ground and surface water. The 
program is administered on a regional level, and regional 
administrators have discretion over defining a green infrastructure 
technology as a source of water that is covered by NPDES. If 
technologies such as pervious pavement or bio-swales, which filter 
runoff before it flows into the ground or surface water, are considered 
``point sources'' that inject water directly into the ground. EPA 
regulations require permitting procedures that act as a significant 
disincentive to use these technologies.
    For example, when the City of Portland was preparing its ``Clean 
River Plan'' for the Willamette River in 2000 and 2001, the city 
planners wanted to incorporate bio-swales as part of the runoff 
management plan. However, the EPA regional administrator was not 
familiar with research results which indicated that bio-swales 
effectively filtered pollutants from runoff, and required extensive 
permitting and monitoring systems under the NPDES authority, thus 
creating a financial disincentive for the use of bio-swales. 
Conversely, in other regions, EPA regional administrators have taken a 
leadership role, reducing the bureaucratic barriers to implementing 
projects using green infrastructure. The Office of Water's initiative 
has a goal of standardizing implementation procedures across the 
various regions.
    State and local authorities can sometimes also be at fault in 
preventing implementation of green transportation infrastructure, but 
unlike federal laws that specifically disallow the use of green 
technologies without extensive permitting, State and local authorities 
tend to fail to explicitly allow their use. As a result, governments or 
private companies within the jurisdiction who propose the use of green 
transportation infrastructure are not given approval simply because the 
innovative technologies have not been previously considered by the 
regulating authority. The problem is then self-perpetuating, as these 
local governments block all potential demonstration projects, and then 
continue to deny builders on the basis that there have been no 
successful demonstration projects. Of course, many cities have acted as 
leaders in the green transportation infrastructure initiative, but the 
challenge remains to universalize its use across local jurisdictions.
Social Challenges
    Finally, there are social challenges to widespread implementation 
of green transportation infrastructure. The transportation construction 
industry is highly decentralized, and stakeholders range from State 
governments to private developers. As a whole, the industry tends to be 
risk-averse, and hence reluctant to adopt technologies that may be 
considered experimental or unproven because of concerns about high 
cost, reliability, maintenance, or simply confusion about the best 
products to use. The slow adoption of these technologies has also led 
to a shortage of trained contractors who are able to properly design 
and install integrated systems, making implementation more difficult 
and costly.
    Numerous companies, non-profits, and industry organizations have 
developed programs to specifically promote environmentally-friendly 
advances in construction techniques and technologies with varying 
levels of success. Market-driven techniques are most effective: 
demonstrating that green transportation infrastructure is attractive to 
consumers as part of a corporate citizenship initiative has been an 
effective means of encouraging implementation. For example, Turner 
Construction Company, one of the largest construction companies in the 
United States, recently worked with Wal-Mart to develop a ``green 
supercenter'' which incorporated green transportation elements such as 
bio-swales and pervious pavement as part of an overall sustainability 
initiative that was formulated to build community goodwill. The EPA and 
FHWA, through the Transportation Research Board (TRB), have also 
dedicated some resources towards training programs, but the scope of 
these programs is limited because of budgetary constraints.
    Chairman Wu. I call the Subcommittee to order. I would like 
to welcome everyone to this hearing on Green Transportation 
Infrastructure: Challenges to Access and Implementation.
    The Committee has heard a lot of testimony over the last 
five months on high-tech methods to mitigate climate change. 
Today, I want to hear about simpler methods for protecting our 
lakes, rivers, and oceans. I have invited today's witnesses 
because they each give a unique perspective in the field of 
green transportation infrastructure.
    Now, this is a term that is not necessarily well known 
outside of environmental circles. Simply put, green 
transportation infrastructure is the use of materials, methods, 
and methods for construction of roads, highways, and parking 
lots that minimize environmental impact. Today, we will hear 
about the materials and technologies that specifically 
contribute to the minimization of non-point source water 
pollution.
    Runoff is a major contributor to water pollution, 
especially from roads and parking lots, which concentrate oil, 
gasoline, heavy metals, and other pollutants, which then flow 
unimpeded into our nation's waterways. For example, a one acre 
parking lot produces 16 times the runoff of a one acre meadow. 
In recent years, local governments and companies and private 
citizens have been working to develop simple, yet innovative 
solutions that integrate control of non-point source water 
pollution into the existing infrastructure. The results, a 
common sense, low cost, low maintenance system that reduces 
pollution, prevents flooding, protects ecosystems, and 
maintains a more natural hydrological environment.
    I would like to thank our witnesses for testifying today. 
Our challenge today is not the development of new technologies. 
It is to get people to start using the technologies that we do 
have. I hope that at the end of this hearing, that we have 
learned a lot about technologies for controlling non-point 
source water pollution that can be integrated into 
transportation infrastructure. I am shortening my opening 
statement in the interests of adjusting to the flex of our 
Committee schedule and our Floor schedule, and I will submit my 
full statement into the record.
    I would like to recognize my good colleague from Georgia, 
Dr. Gingrey, the Ranking Member of this committee, for his 
opening statement.
    [The prepared statement of Chairman Wu follows:]
                Prepared Statement of Chairman David Wu
    I would like to call the Subcommittee to order.
    I want to welcome everyone to this morning's hearing on Green 
Transportation Infrastructure: Challenges to Access and Implementation. 
The Committee has heard a lot of testimony over the last five months on 
high-tech ways to mitigate climate change. Today I want to hear about 
simpler methods for protecting our lakes, rivers and oceans. I've 
invited today's witnesses because they each a unique perspective in the 
field of green transportation infrastructure. Now this is a term that 
is not necessarily well known outside of environmental circles. Simply 
put, green transportation infrastructure is the use of materials and 
methods for construction of roads, highways, and parking lots that 
minimize environmental impact. Today we will hear about the materials 
and technologies that specifically contribute to the minimization of 
non-point source water pollution.
    Runoff is a major contributor to water pollution, especially from 
roads and parking lots which concentrate oil, gasoline, heavy metals, 
and other pollutants which then flow unimpeded into our nation's water. 
For example, a one-acre parking lot produces 16 times the runoff of a 
one-acre meadow. In recent years, local governments, companies, and 
private citizens have been working to develop simple yet innovative 
solutions that integrate control of non-point source water pollution 
into the existing infrastructure. The results: a common sense, low 
cost, low maintenance system that reduces pollution, prevents flooding, 
protects ecosystems, and maintains a more natural hydrological 
environment.
    On paper, these technologies look like no-brainers. So why don't we 
see them used more often? While there are technological issues and 
research that needs to be carried out to prove their effectiveness, the 
biggest impediments are State and federal regulations. Clean water is 
regulated by the Environmental Protection Agency on a regional basis, 
and some regional administrators, including in my home district of 
Portland, are not familiar with the benefits of using green 
infrastructure for filtering runoff. Because of they have discretion to 
approve or disapprove technologies, some of these administrators tend 
to rely on standard operating procedures and steer clear of innovative 
solutions. We'll hear this afternoon from Assistant Administrator Ben 
Grumbles of the EPA's Office of Water, who is taking the lead at his 
agency to educate the EPA regional administrators across the country 
about green infrastructure technologies. I hope to be able to work with 
Assistant Administrator Grumbles to promote the implementation of green 
transportation infrastructure projects across the country.
    We also need to see better coordination among the federal agencies 
working on the R&D and regulatory aspects of green transportation 
infrastructure. Technology development must not happen in a vacuum. The 
DOT, EPA, universities, and other stakeholders must work together to 
make sure that technology fits into the current regulatory structure. 
Likewise, regulators must be flexible enough to evaluate technology 
according to its performance. In addition, the Federal Government 
should take the lead in training the private sector to insist on the 
use of green technologies for all new developments.
    Thank you again to our witnesses for testifying today. Our 
challenge today is not to development new technologies. It's to get 
people to start using the technologies we've got. I hope at the end of 
this hearing that we've learned a lot about technologies for 
controlling non-point source water pollution that can be integrated 
into transportation infrastructure. I hope we also gain a better 
understanding of how to facilitate implementation of these technologies 
in the public and private sectors to better protect our nation's 
precious water. I'd now like to recognize my colleague, Ranking Member 
Gingrey, for an opening statement.

    Mr. Gingrey. Mr. Chairman, thank you, and I thank the 
witnesses. I apologize to the witnesses. I had memorized my 18 
page opening statement, and in the interest of time, my staff 
has redacted it so much now that I am going to have to read it, 
because it is a different statement. But thank you so much, Mr. 
Chairman, for having this important hearing.
    Roads and highways let people in the smallest towns reach 
out to the largest cities. They let urban workers escape to 
more tranquil homes outside of the city, and they let mom and 
pop stores in Cedartown, Georgia, in my district, ship their 
wares easily, quickly, and affordably. In short, they form the 
fabric that keeps this country connected and competitive.
    Unfortunately, roads and highways have also left an 
indelible mark on our environment. Today, I am looking forward 
to hearing our distinguished panel discuss how we can further 
reduce, maybe even negate environmental degradation associated 
with our transportation system. From reviewing your testimony, 
it appears that green or sustainable highway technologies could 
be a win-win for everyone involved. However, it is also clear 
that we are not quite there yet.
    And I would like to close by, again, thanking you for 
coming before the Committee today to discuss this very, very 
important topic. I am looking forward to hearing your thoughts, 
and starting a dialogue with you on how we can improve our 
nation's environment and support our critical highway 
infrastructure.
    And Mr. Chairman, I will yield back the balance of my time.
    [The prepared statement of Mr. Gingrey follows:]
           Prepared Statement of Representative Phil Gingrey
    Thank you Mr. Chairman and I want to also thank our panel of 
witnesses for taking the time to be with us here today.
    Roads and highways have left an indelible mark on our nation's 
history and character, promoting an unprecedented freedom to travel, 
trade, and prosper. Indeed, the family car trip remains an icon of 
holiday festivities. . .along of course with the inevitable cries of, 
``Are we there yet?'' from the back seat.
    Our nation's transportation infrastructure not only allows the 
cross-country trek to Grandma's house, but also allows our local 
grocery stores to sell fruits and vegetables from across the state, 
across the country, and indeed also from across the world.
    Roads and highways let people in the smallest towns reach out to 
the largest cities. They let urban workers escape to more tranquil 
homes outside the city. And they let a mom and pop store in Cedartown, 
GA ship their wares easily, quickly, and affordably. In short, they 
form the fabric that keeps this country connected and competitive.
    Unfortunately, roads and highways have also left an indelible mark 
on our environment. Air and water quality can suffer from poorly 
designed or over-used roads as tailpipe emissions accumulate in the 
air--and oil, dust, and chemicals seep into the watershed. Road 
construction itself can damage ecosystems, clouding streams with dirt 
and debris or filling in wetlands that protect from flooding and 
provide precious habitat.
    Over the years, local, State, and Federal governments have acted to 
contain these harms by requiring environmentally responsible planning 
and development and investing in cleaner and greener technologies and 
construction techniques.
    Today, I'm looking forward to hearing our distinguished panel 
discuss how to further reduce, maybe even negate, environmental 
degradation associated with our transportation system. From reviewing 
your testimony, it appears that green or sustainable highway 
technologies could be a win-win for everyone involved. However, it's 
also clear that we're not quite there yet.
    There are a few key points that I hope we can discuss today. First, 
your testimony points out that measures to improve highways must be 
tailored to that particular road, taking into account the local terrain 
and weather, the broader ecosystem and watershed, and the expected use 
of the road.
    With all these variables at play, we can't just assume that 
particular green highway technologies or practices will be effective 
everywhere. So, do we currently have data that is robust enough to meet 
the needs of highway administrators and engineers in both Georgia and 
North Dakota? If not, do we have a research plan to help make these 
technologies viable?
    Second, implementing these new technologies and practices will 
require close cooperation between large groups of stakeholders; 
contractors, highway and environmental administrators at the federal, 
State, and local level, as well as community residents.
    Communicating and coordinating with a large and diverse group like 
this is challenging in any circumstance, and I'd like to hear the 
panel's thoughts on how green highway practices can be better 
disseminated across the country.
    I'd like to close by again thanking you for coming before the 
Committee today to discuss this important topic. I'm looking forward to 
hearing your thoughts and starting a dialogue with you on how we can 
improve our nation's environment and support our critical highway 
infrastructure.
    Mr. Chairman, I'll yield the balance of my time.

    Chairman Wu. Thank you very much, Dr. Gingrey. Our first 
witness is Ms. Gloria Shepherd, who is the Associate 
Administrator for Planning, Environment, and Realty at the 
Federal Highway Administration.
    Let us see. We also have Mr. Ben Grumbles, who in addition 
to being the Assistant Administrator of the Office of Water at 
the Environmental Protection Agency is an alumni of the Science 
and Technology Committee staff. Welcome back.
    I also have a special welcome for our next two witnesses, 
who both come from Oregon. City Commissioner Sam Adams was 
elected to the Portland City Council in 2005. He oversees the 
Office of Transportation and the Bureau of Environmental 
Services. He has taken the lead in developing a citywide green-
streets policy, which requires green street development for all 
newly constructed or reconstructed roadways. Welcome, Sam.
    Mr. Dan Huffman is the Managing Director for National 
Resources for the National Ready Mixed Concrete Association, 
and also comes from Portland, Oregon.
    Our final witness is Mr. Hal Kassoff, who is a Senior Vice 
President at Parsons Brinckerhoff, a leading construction firm.
    And with that, Ms. Shepherd, please proceed.

                                Panel 1:

 STATEMENT OF MS. GLORIA M. SHEPHERD, ASSOCIATE ADMINISTRATOR, 
 OFFICE OF PLANNING, ENVIRONMENT, AND REALTY, FEDERAL HIGHWAY 
       ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Shepherd. Chairman Wu, Ranking Member Gingrey, and 
Members of the Subcommittee, thank you for the opportunity to 
testify today about the Federal Highway Administration's 
efforts to advance environmentally sensitive transportation 
infrastructure.
    I am pleased to have the opportunity to testify about ways 
in which FHWA is advancing a shift in the focus of the highway 
community from simply mitigating environmental impacts to 
proactively contributing to environmental enhancements. To 
fulfill this responsibility, we work closely with our partners 
at the federal, State, and local levels to provide coordinated 
national research, and to deliver research results through 
training, and technical assistance.
    Minimizing damage from and mitigating negative impacts of 
transportation facilities on the human and natural environment 
are always significant considerations for every federal-aid 
funded highway project, from the initial planning and project 
development throughout the design, construction, operation, and 
maintenance stages. Our State partners are learning from 
experiences that introducing environmentally sound technologies 
and construction considerations early in the project 
development process can produce savings in costs and time, and 
can reduce future remediation expenses.
    As more transportation environmental research is being 
undertaken by a diverse array of organizations, there is a 
growing need for organizational approaches to make the results 
more visible. FHWA participates in a variety of research 
coordination efforts, including the Surface Transportation 
Environment and Planning Cooperative Research Program, better 
known STEPCRP, our National Highway courses, our Local and 
Tribal Technical Assistance Programs, and through development 
of case studies to show case best practice and innovative 
techniques.
    FHWA is also becoming an active participant in the Green 
Infrastructure Planning Workshops developed by a number of 
resource and regulatory agencies in cooperation with the 
Conservation Fund. We are a leading partner in the Mid-Atlantic 
Green Highway Partnership. FHWA is actively working with the 
interagency teams of the Green Highway Partnerships in the area 
of stormwater runoff management, recycling, re-use of 
industrial byproduct materials, and conservation and ecosystem 
management.
    In our efforts to promote technologies that mitigate damage 
and impacts on environment from highway construction and 
operations, we have made the issue of managing highway 
stormwater runoff a particular focus. While highway runoffs may 
be a potential threat, there are a number of highly effective 
measures, structural and nonstructural, available to treat 
runoff before it actually reached any receiving waters.
    Site-specific practices remain important treatment options, 
but we are increasingly focusing our practice and techniques 
that look at ecosystem level impacts. At selecting the most 
appropriate management practice, FHWA encourages states to 
study the amount of time, type of their highway runoff, and 
availability of land, and the physical characteristics on the 
site before designing any control strategies for a specific 
area.
    One challenge that is facing us, as we work to expand 
acceptance in the use of environmentally sensitive 
technologies, is the lack of a sufficient track record 
illustrating the costs versus the benefits of various 
technologies. The business case has to be made that new 
transportation technologies can be utilized safely in an 
environmentally sensitive manner. Context-sensitive solutions 
that fully integrate safety into the project development 
process can assure both environmental and highway safety 
benefits.
    When appropriately applied, green transportation 
technologies and practices, such as highway infrastructure to 
mitigate stormwater runoff, beneficial re-use of industrial 
byproduct materials, and context-sensitive solutions not only 
help to avoid or mitigate negative environmental impacts of 
highway constructions, but can produce safety enhancements and 
economic savings as well.
    Mr. Chairman, Members, thank you for the opportunity to 
testify. I would be pleased to answer any questions that you 
may have.
    [The prepared statement of Ms. Shepherd follows:]
                Prepared Statement of Gloria M. Shepherd
    Chairman Wu, Ranking Member Gingrey, and Members of the 
Subcommittee, thank you for the opportunity to testify today about the 
Federal Highway Administration's (FHWA) efforts to advance 
environmentally sensitive transportation infrastructure. FHWA is 
fostering a continued shift in the focus of the highway community from 
simply mitigating environmental impacts to actively contributing to 
environmental improvements. In fulfilling this responsibility, we work 
closely with our partners at the federal, State, and local levels to 
provide a coordinated national research agenda and deliver research 
results through training and technical assistance
    Following the direction provided by the National Environmental 
Policy Act (NEPA), FHWA and the State departments of transportation 
(DOTs) have become proactive partners in the environmental area. The 
Safe, Accountable, Flexible, Efficient Transportation Equity Act: A 
Legacy for Users (SAFETEA-LU) expanded the focus of environmental 
considerations from project development, construction, and operations, 
to the area of transportation planning. SAFETEA-LU also contains a 
number of provisions to improve coordination between transportation and 
resource agencies. Minimizing damage from, and mitigating negative 
impacts of, transportation facilities on the human and natural 
environments are always significant considerations for every federal-
aid funded highway project, from the initial planning and design 
stages, through development and construction, to operation and 
maintenance.
    Our State partners are learning from experience that introducing 
environmentally sound technologies and construction practices early in 
project development can produce savings in costs and in time to 
completion, and can reduce future remediation expenses. FHWA and its 
partners have made substantial contributions to the natural environment 
and to communities, through planning and programs that support context 
sensitive solutions, stormwater management, beneficial re-use of 
industrial byproducts materials, wetland banking, habitat restoration, 
historic preservation, air quality improvements, bicycle and pedestrian 
facilities, wildlife crossings, and public and tribal government 
involvement in transportation project development.
    FHWA will continue to support these programs while it also works 
with State, local, and federal partners to conduct sound environmental 
reviews in a timely way. With prompt decision-making, we routinely 
reduce project cost escalation, ease congestion, and deliver the 
transportation and safety improvements that the American public 
expects.

Research Programs for Environmentally Sound Practices and Technologies

    Working with its partners, FHWA supports a research and technology 
program that is focused on developing and implementing an 
environmentally sensitive transportation program.
    State Planning and Research (SP&R) Program. Section 505 of title 
23, United States Code, requires that states set aside two percent of 
the apportionments from the Interstate Maintenance, National Highway 
System, Surface Transportation, Highway Safety Improvement, Highway 
Bridge, Congestion Mitigation and Air Quality Improvement, and Equity 
Bonus programs for State planning and research activities. Of this 
amount, states must allocate 25 percent for research, development, and 
technology, unless the state certifies that transportation planning 
expenditures will require more than 75 percent of the amount set aside. 
In fiscal year 2006, the set aside amounted to almost $600 million and, 
thus, provided almost $150 million for the State Planning and Research 
(SP&R) Program. SP&R-funded activities involve researching new areas of 
knowledge, adapting findings to practical applications by developing 
new technologies, transferring the technologies, and training the users 
of the technologies.
    The SP&R Program is intended to solve problems identified by the 
states. State DOTs are encouraged to establish research, development, 
and training programs that anticipate and address transportation 
concerns before they become critical problems. Each state must 
implement a program that ensures effective use of available SP&R funds 
on a statewide basis, and each state is permitted to tailor its program 
to meet local needs. High priority is given to applied research on 
State or regional problems, transfer of technology from researcher to 
user, and research for setting standards and specifications. Major 
research and development areas include infrastructure renewal 
(including pavement, structures, and asset management); activities 
relating to safety, operations, and management; environmental and real 
estate planning; and policy analysis and systems monitoring.
    State DOTs have used SP&R funds for substantial research into 
regional stormwater issues and development of best management practices 
suitable for the particular issues in that locality or state. An 
example of ongoing research related to stormwater at the State level is 
an ``Investigation of Stormwater Quality Improvements Utilizing 
Permeable Pavement and/or Porous Friction Courses,'' which is being 
sponsored by the Texas DOT using SP&R funds.
    Surface Transportation Environment and Planning Cooperative 
Research Program (STEP). At the national level, FHWA currently 
administers environment and planning research funds under the STEP 
program created by SAFETEA-LU in section 5207. STEP is intended to 
improve understanding of the complex relationship between surface 
transportation, planning, and the environment. The program is 
authorized at $16.875 million per year for fiscal years 2006 through 
2009.
    Current initiatives propose research in areas related to planning, 
air quality, noise abatement, wetlands, vegetation management, wildlife 
connectivity, brownfields, and stormwater. Some specific stormwater 
initiatives are the International Storm Water Best Management Practices 
Database, Evaluation and Update of FHWA Pollutant Loadings Model for 
Highway Stormwater Runoff, and Synthesis on the Fate and Effects of 
Chloride from Road Salt Applied to Highways for Deicing. Other proposed 
research would examine tools such as Geographic Information Systems 
(GIS) and Global Positioning Systems (GPS) to better map important 
ecosystem features, including wildlife corridors and invasive plants, 
to improve our ability to recognize and address environmental concerns 
very early in the process of planning a project.
    Center for Environmental Excellence. In section 5309, SAFETEA-LU 
authorizes $1.25 million per year for fiscal years 2006 through 2009 to 
establish a Center for Environmental Excellence to provide technical 
assistance, information sharing of best practices, and training in the 
use of tools and decision-making processes that can assist states in 
planning and delivering environmentally sound surface transportation 
projects. FHWA is currently reviewing proposals from universities and 
expects to announce the establishment of the new Center for Excellence 
shortly.
    Infrastructure Research and Technology. FHWA's infrastructure 
research and technology programs also pursue initiatives with potential 
environmental benefits, including:

        <bullet>  Cantilever construction of bridges, which keeps 
        construction equipment out of the waterway.

        <bullet>  Prefabricated technologies for construction and 
        repair of infrastructure (bridges and pavements) and other 
        accelerated construction technologies which reduce 
        environmental impacts by (a) moving much of the construction 
        process to controlled environments and (b) reducing the 
        duration of damaging activities.

        <bullet>  ``Warm mix'' technology for asphalt paving which 
        reduces the temperature at which asphalt paving materials are 
        manufactured and placed, thereby reducing both emissions and 
        fuel consumption. This technology also has the potential to 
        increase the amount of recycled asphalt pavement that can be 
        effectively used in the paving mixture.

    FHWA promotes and supports the use of recycled materials in highway 
construction and, through our contractor, the Recycled Materials 
Resource Center, currently at the University of New Hampshire, we are 
making changes in the extent of use of several industrial by-product 
materials in highway construction. FHWA also has an active Recycling 
Team that works with the states, the Environmental Protection Agency 
(EPA), and industry to implement recycling technology.
    Funding for these initiatives comes from several sources, including 
the Innovative Pavement Research and Deployment Program and the 
Innovative Bridge Research and Deployment Program. The Highways for 
LIFE program will also contribute to implementation of these 
technologies.

Research Coordination, Training and Technical Assistance, and 
                    Partnerships

    Coordination. As more transportation and environmental research is 
being undertaken by a diverse array of organizations, there is a 
growing need for organized approaches that support well-crafted 
research agendas. FHWA hosts, funds, or participates in various 
research coordination efforts. FHWA's STEP program is a cooperative 
research program, and stakeholders were extensively engaged in defining 
the research agenda and identifying focus areas and projects. In 
addition to FHWA's STEP program, National and State-level research 
programs of particular interest to State DOT transportation and 
environmental practitioners include the Strategic Highway Research 
Program Two (SHRP-2) led by the Transportation Research Board (TRB); 
the National Cooperative Highway Research Program (NCHRP) research 
programs, including the 25-25 research initiative, which provides 
funding for quick turnaround research by American Association of State 
Highway and Transportation Officials' (AASHTO) Standing Committee on 
Environment; individual State DOTs' research programs, which 
increasingly include environmental components that are often conducted 
in coordination with university partners; and university research, 
particularly practitioner-oriented research conducted by University 
Transportation Centers around the Nation that receive funding 
authorized under SAFETEA-LU.
    An additional key area of investment is the AASHTO Center for 
Environmental Excellence Transportation Environmental Research Ideas 
(TERI) Database. TERI is a dynamic tool that helps practitioners keep 
track of and prioritize constantly evolving transportation and 
environmental research needs.
    Training and Technical Assistance. Important components of a 
coordinated research agenda are training and technical assistance. FHWA 
is working with our partners at all levels to share research results 
and promote environmentally sound practices.
    The FHWA's National Highway Institute (NHI) has developed courses 
addressing environmental issues associated with infrastructure 
construction, operation, and maintenance, including a number of courses 
relating to water quality and runoff. Development of courses in these 
areas is coordinated with the appropriate federal agencies--most often 
EPA, the United States Army Corps of Engineers, and the United States 
Fish and Wildlife Service (USFWS)--and with representatives of State 
DOTs. Courses include ``Design and Implementation of Erosion and 
Sediment Control,'' ``Water Quality Management of Highway Runoff, and 
``Managing Road Impacts on Stream Ecosystems: An Interdisciplinary 
Approach.'' Attached to this statement is a summary of research related 
to stormwater runoff, directly carried out, funded, or supported by 
FHWA, which provides additional information on these courses. (See 
Attachment--``Status of Current FHWA Water Quality Research.'')
    FHWA will be developing a NHI short course entitled ``Environmental 
Factors of Construction and Maintenance.'' The course is intended to 
familiarize construction teams with environmental concerns to be 
addressed as part of construction and maintenance operations. The scope 
of work for the training has been prepared, and a request for proposals 
will be issued shortly. This is the latest of several courses developed 
and offered by FHWA's NHI relating to water quality and runoff. The 
Attachment also includes additional information on this course.
    Technical assistance is also available through FHWA's Resource 
Center technical teams and through the Local Technical Assistance 
Program (LTAP) and Tribal Technical Assistance Program (TTAP). The 
latter two organizations represent 58 centers that work directly with 
local agencies to transfer technology and train practitioners at city, 
town, county, and tribal levels.
    In addition, FHWA has developed case studies to showcase best 
practices or innovative techniques. Transportation enhancement funds 
have often been used for projects that improve the quality of highway 
stormwater runoff. The Sebago Lake-Route 35 Environmental Mitigation in 
Standish, Maine; the Santa Monica Urban Runoff Recycling Facility; and 
the Rock Creek Watershed Restoration, Montgomery County, Maryland, are 
three examples of such projects showcased on our transportation 
enhancements website.
    We also showcase important water quality improvement projects or 
mitigation measures in our Environmental Excellence Awards Program and 
our Exemplary Ecosystem Initiatives. An example is the Berthoud Pass 
Mountain Access Project in Colorado. This project received the 2005 
Environmental Excellence Award for Roadside Resource Management and 
Maintenance. Prior to this project, the sediment and de-icing materials 
needed for safety considerations on U.S. Highway 40, as it passed 
through the mountains in northwest Colorado, were pushed into the 
forest floor causing streams to fill up and clogging pipes. Now, when 
Colorado DOT maintenance crews plow the highway in the winter, snow and 
sand travel through a sophisticated system of culverts and ditches to 
collect in a strategically placed concrete storage basin. Once in the 
basins, the sand is allowed to settle out and clean water is released 
into the watershed below the highway. Colorado DOT crews then recover 
the sand from sloped access ramps, and the process begins again.
    Partnerships. FHWA has actively supported a multi-agency effort to 
develop a non-prescriptive approach to making infrastructure more 
sensitive to wildlife and ecosystems through greater agency cooperative 
conservation. The collaborative ecosystem approach to transportation 
development is described in ``Eco-Logical: an Ecosystem Approach to 
Developing Infrastructure Projects.'' FHWA currently has dedicated $1 
million for grants to transportation agencies, local governments, non-
governmental organizations, and others to advance pilot projects based 
on Eco-Logical and integrated planning principles. Integrated planning 
is a process for the collection, sharing, analysis, and presentation of 
data contained in agencies' plans--conservation, watershed, historic 
preservation, transportation, and others--to more comprehensively 
address the multiple needs of an area. The solicitation for these 
grants is expected to be posted at http://www.grants.gov/ and several 
FHWA websites in the next few days.
    National Partnerships are also being promoted through workshops on 
Linking Conservation and Transportation Planning and Project 
Development. Pilot workshops were held last year in Arizona, Colorado, 
and Arkansas. The workshop content is being updated and workshops will 
be offered again in fiscal year 2008. The purposes of the workshops are 
to (1) facilitate the exchange of ideas, concepts, and methods for 
better collaboration between transportation and conservation planning 
practitioners and (2) promote the sharing of conservation and 
transportation geospatial data, methodologies, and tools to advance 
planning, environmental stewardship, and streamlining goals. The 
primary audience for the training will be conservation and 
transportation planning and project review/development staffs at the 
federal, State, regional, and local levels.
    FHWA is also becoming an active participant in the Green 
Infrastructure Planning Workshops developed by a number of resource and 
regulatory agencies in cooperation with the Conservation Fund. Green 
infrastructure relates to a strategic approach to conservation that 
promotes planning, protection, restoration, and long-term management 
that is proactive, systematic, holistic, multi-functional, and science-
based. Green Infrastructure workshops approach transportation planning 
as a way of promoting integrated planning principles. FHWA has provided 
funding support for Green Infrastructure Workshops held recently in 
Anchorage, Alaska, and Colorado Springs, Colorado.
    FHWA has been a leading partner in the Mid-Atlantic Green Highways 
Partnership (GHP). The GHP is a public-private initiative that seeks to 
revolutionize the manner in which our nation's transportation 
infrastructure is planned and constructed. The GHP promotes integrated 
planning, regulatory flexibility, and market-based rewards. The GHP 
provides State DOTs an opportunity to highlight good environmental 
practices already underway and encourages additional innovations.
    FHWA has contributed significant resources towards the partnership 
including staff time, monetary commitments, and technological 
expertise. Recently, FHWA and EPA co-founded a Green Highways 
Partnership grant for innovative watershed management projects within 
the Anacostia Watershed. The grant, announced on Earth Day 2006, 
awarded a total of $1 million to three different groups working on 
projects designed to protect and restore urban water resources through 
a holistic watershed approach to managing water quality. The grant 
supports Low Impact Development and restoration work in the Anacostia 
River watershed. This partnership represents significant leveraging of 
public, private, and non-profit resources, while playing a pivotal role 
in advancing environmental results; safe, sustainable transportation 
systems; and economic competitiveness in and around the Anacostia 
watershed in D.C. and Maryland.
    Another recent event was a GHP workshop with Maryland that reviewed 
a project in the early Environmental Impact Statement stage to discuss 
stormwater management, conservation practices, and recycle/re-use of 
industrial byproducts, with a focus on what can then be used in the 
construction plans for the project.
    In addition to work on stormwater runoff management, FHWA is 
collaborating with the multi-disciplinary, interagency teams of the GHP 
in the following areas:
    Recycling and Reuse. Recycling of industrial byproducts and their 
re-use as materials for infrastructure construction can not only reduce 
a wide range of environmental impacts (conserve landfill, reduce water/
air pollution, reduce greenhouse gases), but can also save energy, 
money, and conserve non-renewable resources. The GHP recycling and re-
use team has a number of efforts underway, primarily to overcome 
informational barriers. After identifying and evaluating existing 
environmental regulations and construction/material specifications, the 
team will develop guidance documents for State and local agencies on 
the best methods and specifications for the use of industrial byproduct 
materials in road and bridge construction. The team will also produce a 
comprehensive toolkit that provides technical information and guidance 
to help DOTs and regulatory agencies overcome barriers.
    Another GHP priority is to highlight existing State DOT projects 
that optimize the beneficial re-use of industrial byproducts. An 
example of a project that has been showcased through the GHP is the 
Tarrtown Bridge in Pennsylvania, where the Pennsylvania DOT used 
shredded tires as lightweight embankment fill on two bridge approaches. 
The project incorporated approximately 780,000 scrap tires, thereby 
easing the load on landfills.
    In West Virginia, the State DOT is using recycled blast furnace 
slag as the aggregate of choice in the western part of the state for 
the majority of the asphalt surface course pavements. The effort 
results in a safer pavement due to the aggregate's non-polishing 
properties (higher friction number). Further, recycling blast furnace 
slag, when available locally, offers an economic advantage compared 
with using virgin limestone aggregate.
    These are just two examples of the various industrial byproduct 
materials that FHWA is actively promoting for re-use in highway and 
bridge construction. As noted above, the Recycled Materials Resource 
Center mission is to conduct research to insure that the use of 
recycled materials does not have a negative impact on the environment 
and to provide technical information to State and local agencies on the 
proper re-use of the materials.
    Conservation and Ecosystem Management (principles and practices). 
The conservation and ecosystem management team within the GHP focuses 
on bringing advances in mapping and data management together with 
various initiatives in conservation and ecosystem management to achieve 
greener highways. The data and regulatory managers are working to gain 
agreement on how to develop a set of tailored, core data-sets and maps 
that can be integrated at both the transportation project and planning 
levels. The maps will facilitate information sharing at the federal, 
State, metropolitan planning organization, and local levels, and will 
facilitate the integration of conservation and ecosystem management 
practices into land-use planning. Priority areas for conservation will 
emerge from the development of a regional ecosystem framework.
    The Green Highways Partnership represents the next logical step in 
the evolution of EPA, FHWA, and Mid-Atlantic State DOT efforts in 
environmental streamlining and stewardship.

Management of Highway Stormwater Runoff

    FHWA has made the issue of managing stormwater runoff a particular 
focus in its efforts to promote technologies that mitigate damage and 
impacts to the environment from highway construction and operation.
    Highway stormwater runoff, as part of development and urbanization, 
is a potential source of a wide variety of possible pollutants to 
surrounding water bodies. Highway surfaces, along with adjoining areas, 
collect a variety of materials as a result of highway usage, 
maintenance, natural conditions, and pollution fallout. While highway 
runoff may be a potential threat to receiving waters, if handled 
properly the runoff does not have to be a serious problem.
    There are a number of highly effective measures available to treat 
the runoff before it actually reaches any receiving waters. Site-
specific practices remain important treatment options, but a changing 
management style has also embraced the practice of planning at the 
watershed and sub-basin scales. Best management practices are no longer 
driven only by water-quality criteria. We are not looking only at ``end 
of the pipe'' treatment technologies but, increasingly, are focusing on 
practices and techniques that look at ecosystem-level impacts and 
stressors, such as conserving ecosystems, maintaining natural drainage 
courses, and minimizing cleared and graded area.
    FHWA researches and showcases the various best management practices 
for managing stormwater runoff from highway projects. These best 
management practices can generally be categorized as ``structural'' or 
``non-structural.''
    Structural best management practices consist of infiltration 
technologies, detention, retention, vegetative practices, filtering 
systems, and porous pavements. Structural best management practices 
operate by physically trapping runoff until contaminants settle out or 
are filtered through the underlying soils. They work through gravity 
settling the constituents, the infiltration of soluble nutrients 
through the soil or filters, or other biological and chemical 
processes.
    Stormwater management innovations are underway throughout the mid-
Atlantic region, where urbanized areas are particularly challenging. In 
2004 in Washington, D.C., the District Department of Transportation 
installed a biocell for stormwater management at Benning Road Bridge. A 
biocell is composed of natural materials such as mulch, soil mix, and 
various types of vegetation. Rather than require an engineered 
structure like a weir or drainage pit, a biocell acts like a filtration 
trench, where the soil or natural drainage materials filter the water. 
A biocell can remove up to 90 percent of the suspended solids from 
stormwater. This project represented the first use of low-impact 
stormwater management technology by the District government.
    The non-structural best management practices deal mainly with 
source controls such as land use planning, street sweeping, fertilizer 
application controls, reduced mowing, and litter removal from roads and 
roadside areas. These methods help reduce the initial concentration and 
accumulation of contaminants in the stormwater runoff. Non-structural 
controls can reduce the need for structural controls.
    Many states, including Oregon, have implemented a requirement that 
any engineered stormwater facility, such as detention, treatment, 
pumping, or infiltration, must be accompanied by a site specific 
``Operation & Maintenance'' manual. This manual is necessary to ensure 
the agreements and assumptions made during the water resources analysis 
conducted during the NEPA environmental review process are fulfilled 
for the life of the facility. The manual is provided to the people 
responsible for the long-term maintenance of the facility.
    FHWA's promotion and technical support for more environmentally 
sensitive use of de-icing agents and chemicals, as well as abrasion use 
for winter road maintenance activities, is saving operating budgets and 
increasing roadway asset service life, with less impact on the roadside 
environment. We find a similar payoff for improvements in summer work 
managing the roadsides using improved herbicide and pesticide 
application and control.
    In selecting the most appropriate best management practice, careful 
consideration must be given to the expected amount of runoff, the type 
and amount of contaminants, the availability of land, and the physical 
characteristics of the site. Some best management practices can operate 
in any weather conditions, while others cannot. Where there is limited 
space, certain of the structural practices may not be reasonable or 
feasible, while the non-structural practices can be implemented 
effectively anywhere.
    FHWA encourages all states to study the quality of the highway 
runoff and its properties before implementing or designing any control 
treatment strategies for a specific area. Given that every watershed is 
different, a one-size fits all approach could result in spending funds 
for unnecessary or inappropriate treatment. We encourage early study by 
providing funding for mitigation of impacts associated with federal-aid 
highway projects, including stormwater control, technical assistance, 
training, and research assistance to State and local transportation 
staff.
    See the Attachment to this statement for a status report on 
research, training, and publications related to stormwater runoff, 
being carried out, funded, or supported by FHWA.

Obstacles to Implementation of Environmentally-Sensitive Technologies

    The permitting program under the Clean Water Act, regulating 
discharges to waters of the United States, addresses stormwater 
discharges associated with urban areas and certain industrial 
activities, and includes transportation facilities. Because of a lack 
of monitoring information, scientific analysis, and third-party 
evaluations, it may be difficult for new and innovative technologies to 
demonstrate significant water quality treatment to satisfy regulatory 
agencies. For example, the EPA's Environmental Technology Verification 
Program approves innovative treatment technologies through performance 
verification and dissemination of information. Some State regulatory 
agencies have similar programs. While these programs are beginning to 
test and approve innovative technologies in their region, many 
technologies are still being tested, thus the level of acceptance by 
the regulatory agency for meeting permitting requirements may be 
limited, even if the technology theoretically demonstrates the 
necessary ability to meet the requirements.
    Lack of a sound track record regarding the costs versus the 
benefits of a particular technology also can be a problem. The business 
case has to be made for why a new technology is promising for both the 
environment and transportation. Life cycle information from existing 
infrastructure construction will help inform future decisions.
    Of course safety and engineering considerations must always be 
balanced with environmental benefits. However, safety and 
environmentally sensitive technologies can be compatible. Context 
Sensitive Solutions that fully integrate safety into the project 
development process ensure that both the environment and highway safety 
benefit. For example, properly designed landscaping can ensure adequate 
sight distances for drivers, avoid deadly fixed object hazards, and 
maintain the ability of drivers and pedestrians to see each other. 
Water quality and highway safety can both be improved with gently 
sloping clear zones that allow errant motorists to regain control of 
their vehicles and reduce the risk of fixed-object crashes. These clear 
zones also allow highway runoff to be filtered or absorbed before 
entering waterways.

Conclusion

    When appropriately applied, ``green'' transportation technologies 
and practices, such as use of highway infrastructure to mitigate 
stormwater runoff, beneficial re-use of industrial byproduct materials, 
and context sensitive solutions, not only yield significant benefits 
for avoiding or mitigating negative environmental impacts of highway 
construction, but can produce safety enhancements and economic savings 
as well. Ongoing research, transfer of technologies and best practices, 
and new partnerships are providing states and tribal governments more 
knowledge and tools to address such issues as stormwater runoff 
control. A heightened focus on integrated planning should help ensure 
that potential environmental impacts are identified and addressed early 
in the project development process.
    Mr. Chairman, Members, thank you for this opportunity to testify. I 
will be pleased to answer any questions you may have.

ATTACHMENT

             Status of Current FHWA Water Quality Research

            http://www.fhwa.dot.gov/environment/natural.htm
                               5/10/2007

I. Research Projects

Project:  International Stormwater BMP Database

Contractor: Wright Water Engineers, Inc., and GeoSyntec Consultants

Purpose of Work: Water Environment Research Foundation, American 
Society of Civil Engineers-Environmental and Water Resources Institute, 
United States Environmental Protection Agency, Federal Highway 
Administration and American Public Works Association have formed a 
coalition of organizations to fund and manage the International 
Stormwater Best Management Practices (BMP) Database. The work will 
consist of entering currently available and newly developed data sets, 
keeping the web site and database up to date, providing data analysis 
and developing protocols for integrating low impact development 
techniques into the database.

Status: The work is ongoing and the database is currently accessible 
through the web site at http://www.bmpdatabase.org.

Project:  Evaluation and Update of FHWA Pollutant Loadings Model for 
Highway Stormwater Runoff

Contractor: U.S. Geological Survey, Reston, Virginia

Purpose of Work: The Federal Highway Administration and the U.S. 
Geological Survey are cooperating on a national project to evaluate the 
existing highway stormwater runoff model and update the model using new 
information and software. This work will incorporate the existing model 
in a new software platform, provide information on the probability 
distributions of: precipitation characteristics, highway-runoff-
volumes, highway-runoff concentrations, upstream flow, upstream 
receiving-water concentrations, and structural best management practice 
performance. This information will be used to estimate the probability 
of concentration and loads in receiving waters downstream of the 
highway outfall and it will estimate the probability of the outfall 
exceeding water quality standards.

Status: The model is in preparation. Information on this project can be 
found at: http://ma.water.usgs.gov/fhwa/, along with the 1990 FHWA 
Pollutant Loadings Model for Highway Stormwater Runoff.

Project:  State Transportation Agency Strategies to Address NPDES Phase 
II Requirements, NCHRP 25-25(16)

Contractor: Venner Consulting, GeoSyntec, and Parsons Brinckerhoff

Purpose of Work: The research will focus on determining how State 
transportation agencies have addressed compliance with National 
Pollutant Discharge Elimination System (NPDES) Phase II requirements. 
Research will be directed toward determining staffing and 
organizational structure throughout the entire agency to address NPDES 
Phase II compliance for construction activities as well as the 
stormwater management program as a regulated Municipal Separate Storm 
Sewer System (MS4).

Status: The final draft report was submitted in November 2006 and the 
consultant is addressing comments from the review panel. The final 
report should be published soon.

Project:  Water Quality Analyses for NEPA Documents: Selecting 
Appropriate Methodologies, NCHRP 25-25(35)

Contractor: Parsons, Brinckerhoff, Quade & Douglas, Inc.

Purpose of Work: The National Environmental Protection Act (NEPA) 
requires that sponsors of transportation projects consider the impacts 
of those projects on water quality and water resources. There are 
numerous methodologies available to perform these analyses; however, 
there is little or no guidance on selecting the most effective 
analytical tool for the particular information being presented for NEPA 
documentation. Some methods developed by the EPA and FHWA may be more 
suited for detailed project level analysis and some better suited for 
planning level studies and watershed-based analyses. The objective of 
this study is to identify those water quality analysis methodologies 
that are best suited for detailed project-level impact assessment for 
NEPA documents.

Status: The research started in December 2006, and will be concluded in 
the fall of 2007.

Project:  Quantifying the Components of Impervious Surfaces

Contractor: U.S. Geological Survey

Purpose of Work: The purpose of this research is to determine, using 
existing land use, land cover, and impervious surface data, the 
individual contribution of the various components to impervious 
surfaces, to the overall storm water runoff issue. Preliminary results 
of this report for six case studies (Washington, Virginia, Nebraska, 
Iowa, Florida) shows that the percentage of impervious cover 
contributions from road surfaces in these studies varied between 20-35 
percent. Generally roads were at 28 percent, buildings at 29 percent, 
and parking lots at 25 percent for total impervious areas in a 
watershed. As the watershed becomes more developed and the impervious 
surfaces increase, the contribution from the road surfaces decreases.

Status: Final report can be found on the web at: http://pubs.usgs.gov/
of/2007/1008/.

Project:  Guidelines for the Selection of Snow and Ice Control 
Materials to Mitigate Environmental Impacts, NCHRP Project 6-16

Contractor: Levelton Consultants, Ltd.

Purpose of Work: Every year considerable quantities of snow and ice 
control products are applied to highways. This application involves a 
balancing act of maintaining safety and applying what is needed without 
causing environmental impacts. This project is looking at a way to 
define the selection of winter maintenance materials based on their 
environmental impact. They will be looking at the most common chemical 
alternatives such as sodium chloride, magnesium chloride, calcium 
chloride, calcium magnesium acetate, potassium acetate, etc. This 
project will develop guidelines for selection of snow and ice control 
chemicals and abrasives, based on their constituents, performance, 
environmental impacts, cost, and site-specific conditions. 
Investigators will look at the environmental impacts of the effects on 
human health, aquatic life, flora and fauna, surface-water and 
groundwater quality, air quality, vehicles, and physical infrastructure 
including bridges, pavements, railway electronic signaling systems, and 
power distribution lines. In the past, transportation departments have 
focused on performance and cost under various weather conditions 
without evaluating their relative impacts on the environment.

Status: The final report is available upon request from NCHPR.

II. State Planning and Research Funds

    The Safe, Accountable, Flexible, Efficient Transportation Equity 
Act: A Legacy for Users (SAFETEA-LU) requires that states set aside two 
percent of the apportionments they receive from the Interstate 
Maintenance, National Highway System, Surface Transportation, Highway 
Safety Improvement, Highway Bridge, Congestion Mitigation and Air 
Quality Improvement, and Equity Bonus programs for State planning and 
research activities. Of this amount, states must allocate 25 percent 
for research, development, and technology (RD&T), unless the state 
certifies and the Secretary accepts the certification, that 
transportation planning expenditures will require more than 75 percent 
of the earmarked amount. These activities involve research on new areas 
of knowledge; adapting findings to practical applications by developing 
new technologies; and the transfer of these technologies, including the 
process of dissemination, demonstration, training, and adoption of 
innovations by users.
    The State Planning and Research (SP&R) Program is intended to 
address problems identified by the states. State Departments of 
Transportation are encouraged to develop, establish, and implement RD&T 
programs that anticipate and address transportation concerns before 
they become critical problems. Each state must develop, establish, and 
implement a program that ensures effective use of available SP&R funds 
for RD&T activities on a statewide basis, and each state is permitted 
to tailor its RD&T program to meet local needs. High priority is given 
to applied research on State or regional problems, transfer of 
technology from researcher to user, and research for setting standards 
and specifications. Major RD&T areas include infrastructure renewal 
(including pavement, structures, and asset management); activities 
relating to safety, operations, and management; environmental and real 
estate planning; and policy analysis and systems monitoring.

III. Available Reports and Publications:

Evaluation of Best Management Practices for Highway Runoff Control, 
2006, NCHRP Report 565, Project 25-20(1)

    This report focuses on improving the scientific and technical 
knowledge base for the selection of best management practices (BMP) 
through a better understanding of BMP performance and application. This 
report documents an extensive program of research on the 
characterization of BMPs and stormwater, and the influence of factors 
such as land use practice, hydraulic characteristics, regional factors, 
and performance evaluation. In addition to the report, a CD is affixed 
to the back cover containing three additional volumes and a spreadsheet 
model. The additional volumes are: User's Guide for BMP/LID Selection, 
Appendices to the User's Guide, and Low Impact Development Design 
Manual for Highway Runoff Control.

Great Lakes Initiative--Stormwater Workshop Report

    The Great Lakes Regional Collaboration was initiated by Executive 
Order (EO) 13340, issued in May 2004. This EO acknowledged the national 
significance of the Great Lakes and created a unique partnership of key 
members from Federal, State, and local governments, tribes and others 
for the purpose of developing a strategic plan to restore and protect 
the Great Lakes ecosystem. EO 13340 set up a Federal Interagency Task 
Force and a Regional Working Group. On December 12, 2005, the Great 
Lakes Interagency Task Force met to reinforce and demonstrate 
commitment and collaborative efforts to promote further work and 
progress in the Great Lakes area. The task force identified existing 
federal programs that will support Great Lakes ecosystem restoration 
and developed a list of action items. From this meeting in December, 
the Federal Highway Administration committed to convene a gathering of 
Great Lakes State DOTs to collaborate, share information, build 
contacts, examine issues, and develop strategies for dealing with 
stormwater runoff in the Great Lakes region. The workshop was held in 
August 2006 and report was issued on the results of this workshop. Copy 
of the report can be requested by calling 202-366-4085.

Eco-Logical (2006)

    Eco-Logical is a guide or process for a comprehensive management 
approach that federal, State, and local partners can use to get 
involved in infrastructure, planning, design, review, and the 
construction of projects to work more efficiently and effectively 
together. The process integrates infrastructure development with 
ecosystem management to advance project approvals with conservation and 
sustainable land development practices. The guide is available on-line 
at: http://environment.fhwa.dot.gov/ecological/ecological.pdf.

Environmental Stewardship Practices, Policies, and Procedures for Road 
Construction and Maintenance (2005)

    This report developed a compendium of environmental stewardship 
practices, policies, and procedures in areas of construction and 
maintenance. This manual can be downloaded at: http://
www.environment.transportation.org/center/
products<SUP> cents</SUP>programs/environmental--stewardship.aspx.

Common Native Roadside Wildflowers (2005)

    This field guide highlights 100 native forbs and grasses commonly 
found on highway rights-of-way in Western America. All are native to 
the United States and do not include plants that have been naturalized.

The Nature of Roadsides and the Tools to Work with It--2003

    This publication discusses the various tools available for right-
of-way managers. Highway corridors crisscross our nation and the 
management of these acres of land is complicated by many uses: recovery 
zone for errant vehicles, utility lines, snow storage, open space, 
wetland mitigation, wildlife corridors, greenways, signage, and 
biodiversity. This publication discusses some of the methods and tools 
available to protect and manage the beauty and value of our roadside 
biota.

The National Highway Runoff Data and Methodology Synthesis--2003

Volume I: Technical Issues for Monitoring Highway Runoff and Urban 
Stormwater

Volume II: Project Documentation with CD based bibliographic database 
of reports

Volume III: Availability and Documentation of Published Information for 
Synthesis of Regional or National Highway Runoff Quality Data

    This report evaluates the existing highway runoff quality data to 
determine if the quality and processes contributing to water quality 
constituents in highway runoff can be adequately characterized on a 
nationwide basis to fulfill the information needs of highway 
practitioners. Results are also available through the internet at: 
http://ma.water.usgs.gov/FHWA/.

Common Roadside Wildflowers (2003)

    This field guide highlights 100 native forbs and grasses commonly 
found on highway rights-of-way and other natural areas across Eastern 
America. State Departments of Transportation are encouraging their use 
for many reasons: their natural beauty, adaptation to arid 
environments, usefulness to wildlife, addition to biodiversity and land 
health, ability to slow water runoff, and slope stabilization.

Aquatic Ecology and Stream Restoration Video--Fall 2003

    This video showcases six stream restoration case studies from 
across the Nation and promotes the importance of restoring our streams 
after road construction. This project documents examples of a 
nationwide effort on stream restoration showing the appropriate designs 
and techniques for stream relocation, fish and wildlife habitat 
preservation, and methods to improve the water quality while providing 
safe, efficient roadways. The series of videos has been developed by 
North Carolina Department of Transportation for Federal Highway 
Administration and is now available and a copy can be obtained by 
calling 202-366-2054.

Keeping It Simple--Easy Ways to Help Wildlife Along Roads (2003)

    This brochure highlights more than 100 simple, successful 
activities that help make roads more wildlife friendly, from all 50 
states. These success stories are also available at our web site: 
www.fhwa.dot.gov/environment/wildlifeprotection. The web site allows 
users to search by State and by category, and it provides contact 
information for sending new ``keeping it simple'' success stories to be 
added to the site.

Assessing the Impacts of Bridge Deck Runoff Contaminants in Receiving 
Waters--2002, NCHRP Report 474, Volume 1: Final Report, Volume 2: 
Practitioner's Handbook

    This report presents guidance for assessing and, if necessary, 
mitigating the impacts of bridge deck runoff. The final report includes 
findings of the literature review and a survey of highway agency 
practices, consultation and testing of sites. The second volume or 
practitioner's handbook presents the assessment process as a result of 
the final report.

Wet Detention Pond Design for Highway Runoff Pollution Control

    The research developed a methodology for designing efficient wet 
detention ponds in the highway environment. The methodology included 
performance characteristics, design guidelines, conditions, 
limitations, and applications for use. A comparison was made between 
wet detention ponds and dry detention ponds in order to show the 
advantages and disadvantages of each system. The research is complete 
and the preliminary draft final report was submitted to the technical 
oversight panel for review. The unedited final report for NCHRP Project 
25-12 as prepared by the University of Washington is available for loan 
by contacting NCHRP at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ed0ddd6cccedef0ffedb0fbfaebb0">[email&#160;protected]</a>

Common Roadside Invasives (2002)

    This laminated field guide identifies common and showy roadside 
invasive grasses and forbs, all of which are on various State noxious 
weed lists. We provide this guide with the expectation that it will 
help roadside vegetation managers and maintenance personnel to identify 
and control invasive plants in their jurisdictions.

Wildlife Habitat Connectivity Across European Highways--August 2002

    The Federal Highway Administration, American Association of State 
Highway and Transportation Officials, and the National Cooperative 
Highway Research Program sponsored an international technology scan to 
learn what actions are being taken in Europe to address habitat and 
wildlife issues. As a result of the trip, the team formed conclusions 
and recommendations for U.S. application in the areas of policy, 
communication, guidance manuals, and research. This publication is 
available from our Office of International Programs.

Management of Runoff from Surface Transportation Facilities--Synthesis 
and Research Plan, 2001, NCHRP Web Document 37

    The final report has been posted at: http://onlinepubs.trb.org/
onlinepubs/nchrp/nchrp<INF>-</INF>w37.pdf. The objectives of this 
research on the management of the quality and quantity of runoff waters 
from surface transportation facilities, was to (1) synthesize existing 
knowledge and practice into a form usable by practitioners; (2) develop 
a strategic research plan to address gaps in existing knowledge; and 
(3) recommend a system for continued exchange of information between 
practitioners and others interested in water-quality and runoff issues.

Guidance Manual for Monitoring Highway Runoff Water Quality--June 2001

    The Federal Highway Administration contracted with URS Group, Inc., 
to conduct an evaluation of water quality monitoring equipment for 
measuring the constituents of highway stormwater runoff. Testing was 
done on the methodologies and use of these various monitoring and 
sampling equipment in the highway environment. The results are 
presented in this manual. This manual will assist State and local 
governments prepare highway stormwater monitoring programs based on 
monitoring goals. Guidance is provided to assist the user in not only 
selecting equipment, but also with highway stormwater runoff monitoring 
designs for a comprehensive plan. Recommendations and field evaluations 
are given for specific equipment and monitoring methods. The report 
provides recommendations on adaptations necessary for using available 
off-the-shelf equipment to improve the evaluation of stormwater runoff 
in the highway setting.

Wetlands Data Reporting System--Spring 2001

    The FHWA has developed the Wetlands Accounting Database for 
collecting and analyzing wetland mitigation data. The database is 
designed to accumulate data about wetlands mitigation projects. It 
collects, correlates, and presents this data as useful and meaningful 
information. The CD-based software is available upon request.

Case Histories of Wetland Restoration--December 2000

    This report highlights four wetland restoration projects from 
regionally different areas within the United States. These studies show 
that restoration can result in highly successful ecological communities 
that are similar in structure and function to the natural ones. The 
goals, objectives, and criteria for restoration should be established 
in relation to the water regime of the drainage basin and ecosystem in 
which they lie. The four projects in this publication offer some 
insight into what elements lead to a successful restoration project. 
There is no single path, but certain elements and themes emerge from 
the examination of these projects.

Environmental Impact of Construction and Repair Materials on Surface 
and Ground Waters--NCHRP 25-9--June 2000

    The CD-ROM based report presents a validated methodology for 
assessing the environmental impact of highway construction and repair 
materials on surface and ground water under six general highway 
reference environments. This methodology includes: (1) a set of 
comprehensive bioassay protocols that directly measure the toxicity of 
leachates from highway construction and repair materials on two target 
organisms, the water flea, Daphnia magna, and the freshwater algae, 
Selenastrum capricornutum, and (2) the IMPACT model that can estimate 
the fate and transport of such leachates in typical highway 
environments. The IMPACT model is based on an extensive database of 
bioassay toxicity results for materials ranging from common 
construction and repair products to waste and recycled materials 
proposed for use in highway construction.

Stormwater Management Practices in an Ultra-Urban Setting: Selection 
and Monitoring--May 2000

    This report focuses on design criteria and monitoring studies on 
stormwater best management practices (BMPs) implemented in ultra-urban 
settings. The report provides planning level review of the 
applicability and use of new and more traditional BMPs in ultra-urban 
areas. The report provides specific guidance for selecting and siting 
stormwater management technologies. Case studies are used to highlight 
various examples throughout the country that address ultra-urban 
considerations.

Critter Crossings--Linking Habitats and Reducing Roadkill--February 
2000

    This brochure describes the transportation impacts on wildlife and 
highlights projects and processes that help to reduce these impacts.

Roadside Use of Native Plants--September 1999

    This publication is for use in making site specific decisions. The 
primer provides a holistic background information for decision-making. 
It addresses basic techniques for using native plants. The State-by-
State section pulls together native, endangered, and noxious plant 
lists to aid in design and management. The manual includes definitions, 
bibliographies, and policy citations to clarify the use of native 
plants on roadsides.

Evaluation and Management of Highway Runoff Water Quality--June 1996

    This manual synthesizes the results of past documentation and 
research on highway stormwater runoff into a single-volume user's 
manual on water quality impact assessment and mitigation. It presents 
available and appropriate impact prediction and mitigation tools for 
use during highway project planning and development activities.

IV. Training Courses, Workshops, and Award Programs

Design and Implementation of Erosion and Sediment Control--NHI Course 
#142054

    This NHI course was developed as a joint effort between FHWA and 
the EPA Office of Water. The course reflects the Agencies' commitment 
to providing education and training on planning, design, 
implementation, enforcement, inspection, and maintenance strategies to 
control erosion and sediment on highway construction projects, as well 
as to ensure that regulatory issues are addressed accurately and 
uniformly. Each discipline involved in a highway construction project 
has a different set of priorities. The course offers participants 
opportunities for discussion and joint problem-solving, through which 
they will gain information about the roles and responsibilities of 
other team members.

Water Quality Management of Highway Runoff--NHI Course #142047

    This NHI course, developed with EPA Office of Water, provides an 
overview of the basic water quality parameters and processes, along 
with the requirements and guidance on best management practices the 
transportation community can use in mitigating highway runoff impacts 
and protecting water quality. This course shares approaches and 
technologies for the water quality management of highway runoff, 
including the effective maintenance, inspection and evaluation of Best 
Management Practices (BMPs).

Managing Road Impacts on Stream Ecosystems: An Interdisciplinary 
Approach--NHI Course #142048

    This NHI course will introduce and discuss the basic concepts 
related to the impacts that roadways have on streams and stream 
ecosystems. The course will be structured to first address the 
ecological and physical characteristics of stream ecosystems, discuss 
the impacts that roadways can have on those ecosystems, and then look 
at tools that the practitioner can use to help avoid and mitigate those 
effects. Through the use of case studies, discussion, and other 
techniques, the participants will be afforded an opportunity to use 
critical thinking to identify solutions and preventative measures 
related to the impacts of roads on streams and their riparian 
communities. The course will be available at the end of the fiscal year 
2007.

International Conference on Ecology and Transportation--May 20-25, 2007 
in Little Rock, Arkansas

    Multi-disciplinary, interagency event conducted biennially to 
identify and share quality research applications and best management 
practices that address wildlife, habitat, and ecosystem issues related 
to the delivery of surface transportation systems.

2007 Environmental Excellence Awards

    These awards have been designed to recognize outstanding 
transportation projects, processes, and people who incorporate 
environmental stewardship into the planning and project development 
processes using FHWA funding sources. The winners will be recognized at 
our International Conference on Ecology and Transportation in Little 
Rock, Arkansas on May 20-25, 2007.

Exemplary Ecosystem Initiatives (EEI)

    Since 2002, FHWA has designated 43 Exemplary Ecosystem Initiatives 
in 31 States. An EEI is an initiative that sustains or restores natural 
systems and their functions and values. EEIs are developed within a 
landscape context, using partnering and collaborative approaches and 
the best available science in ecosystem and habitat conservation. All 
EEIs are posted on FHWA's web site at: http://www.fhwa.dot.gov/
environment/ecosystems/index.htm.

Alternative Practices for Highway Stormwater Management (2006)

    This previously aired four-part webcast series, which can be 
accessed on the Web at any time, was presented by the Izaak Walton 
League and sponsored by FHWA. The sessions outline the latest 
techniques available to help transportation agencies save money, comply 
with water quality and water supply regulations, and improve water 
quality with context-sensitive stormwater management practices, 
including low impact development techniques. These techniques also can 
help highway department personnel manage stormwater quantity and 
quality while using existing rights of way and providing easy access 
for maintenance crews. Each session includes valuable background 
information and specific guidance on how to apply these principles for 
highway projects. The series also addresses barriers to using 
innovative stormwater management techniques and how to overcome those 
barriers. This series provides valuable information to design 
engineers, planners, regulators, students, maintenance supervisors, 
construction engineers, and consultants. To view the archived Webcast, 
go to: http://itre.ncsu.edu/cte/TechTransfer/Teleconferences/
iwla2006.asp.

Environmental Factors of Construction and Maintenance (Under 
Development)

    FHWA is developing a training course on how to mitigate 
environmental impacts during construction and maintenance projects. The 
course is intended to familiarize State and contractor construction 
personnel with environmental concerns that should be addressed as part 
of construction operations. These concerns include construction noise, 
construction dust, light pollution from nighttime operations, 
vibration, alkali runoff from concrete pour/sawcut, emissions from 
equipment exhaust, disruption of species habitat or migration/ESA 
commitments, damage to archaeological or cultural resources, Stormwater 
Pollution Prevention Plan (SWPPP)-maintenance activities, and hazardous 
materials. We expect the course to be available sometime next year.

                    Biography for Gloria M. Shepherd
    Gloria M. Shepherd is the Associate Administrator for Planning, 
Environment and Realty, U.S. Department of Transportation, Federal 
Highway Administration (FHWA). She previously held the position as 
Director of Planning for the FHWA. She joined FHWA in 1999 having 
served previously as the Staff Director for the Transportation 
Solutions Group, Maryland Department of Transportation (MDOT) and the 
Deputy Director of the Office of Planning and Preliminary Engineering 
Maryland State Highway Administration, MDOT. She was previously Chief 
of Staff for the Commissioner of the New York State's Department of 
Transportation (NYS DOT).
    She earned her Masters of Law degree from Georgetown University, 
Doctor of Jurisprudence degree from Albany Law School, and her Doctor 
of Arts from the University at Albany (SUNY).

    Chairman Wu. Thank you very much, Ms. Shepherd. Mr. 
Grumbles, welcome to the Committee.

STATEMENT OF MR. BENJAMIN H. GRUMBLES, ASSISTANT ADMINISTRATOR 
        FOR WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Grumbles. Thank you very much Mr. Chairman, Congressman 
Gingrey, Congressman Ehlers, Congressman Baird. It is great to 
be back before this committee.
    It is an honor and it is an even greater opportunity to 
discuss and to promote green infrastructure, for transportation 
and for healthier watersheds, as the wave of the future for 
this country as we look at the water and the transportation 
challenges.
    I, too, will be brief and summarize my testimony, but the 
major point here is that the U.S. EPA, in collaboration with 
other agencies, such as the Federal Highways and also 
governmental and nongovernmental partners, are advancing this 
concept of green infrastructure like never before, because we 
see, through technology, innovation, and collaboration, it is a 
sustainable way forward to also accelerate environmental 
progress.
    This is a very important part of our four pillars of 
sustainability. When it comes to infrastructure, and that 
pillar of a watershed approach, the Administrator's objective 
is to change the way America views and values infrastructure. 
The objective is to not ``just'' emphasize the critical 
importance of it but also find environmentally sensitive 
approaches. That is why we are so excited about green 
infrastructure. And in the transportation arena in particular, 
we are very enthused about the Green Highways Partnership. EPA 
Region 3 and the Federal Highways and many partners have been 
involved over the past couple years in an innovative 
collaboration. In this collaboration we pursue technologies; 
porous pavements and concrete; practical and protective 
wetlands strategies; and ways to address one of the fundamental 
challenges and concerns to watersheds across the country, and 
that is stormwater runoff, stormwater contamination. So, we are 
very enthused about green highways and green infrastructure 
transportation methods.
    I want to just emphasize that for us, as you pointed out in 
your statement, the term itself is not a rigid definition. For 
us, green infrastructure is systems or practices that use or 
mimic natural processes to focus on vegetation, infiltration, 
evapotranspiration, reclamation, and re-use of excess 
stormwater.
    In this watershed, where we are right now in the Capitol, 
in the Chesapeake Bay watershed, we know that over the last ten 
years, population has increased seven percent, and the amount 
of impervious surface has increased 41 percent. We know that 
has adverse environmental impacts. We are committed to working 
together with you and other committees, with colleagues outside 
of government, and with agencies to advance green 
infrastructure concepts.
    What I want to mention as well is that the Agency has 
entered into some significant memoranda and agreements. One of 
them, on April 9, the Administrator of EPA entered into an 
agreement with the Natural Resources Defense Council, the 
National Association of Clean Water Agencies, the Low Impact 
Development Center, and also, the Association of State and 
Interstate Water Pollution Control Administrators to advance 
green infrastructure concepts, to use rain gardens and green 
roofs, to protect wetlands, to come up with innovative 
approaches and different types of concrete that help reduce 
concerns about stormwater pollution. And we are committed to 
following through on that important effort.
    I too have also signaled to the various EPA Regions that 
green infrastructure is a priority for the National Water 
Program, and so, we are going to be taking advantage of your 
leadership in having this hearing and moving forward with 
approaches, ways to reduce barriers. Sometimes the barriers may 
be due to local regulation. Sometimes it is just due to people 
not understanding that they can have healthier watersheds and 
transportation systems by using these innovative technologies.
    One thing I did also want to point out, that a very 
important effort that has been critical to EPA's interests in 
and approach on working with others on green infrastructure is 
the NRDC rooftops to rivers report. One of the greatest 
challenges in this country, in addition to stormwater runoff 
from transportation systems, is sewer overflows and stormwater 
pollution. And so, this report provides green strategies for 
controlling stormwater and combined sewer overflows, and it 
identifies various areas in the country, including Portland, 
Oregon and other cities, that are showing leadership.
    So, Mr. Chairman, I look forward to answering questions 
that you and your colleagues have and to working with you to 
promote green infrastructure transportation and healthier 
watersheds across the country.
    [The prepared statement of Mr. Grumbles follows:]
               Prepared Statement of Benjamin H. Grumbles

I. Introduction

    Mr. Chairman and Members of the Subcommittee, I am Benjamin 
Grumbles, Assistant Administrator for Water at the United States 
Environmental Protection Agency (EPA). Thank you for inviting me to 
discuss EPA's programs and initiatives on green infrastructure, clean 
water, and healthy watersheds. I believe that there are many 
opportunities for green infrastructure practices to be applied to 
protect water quality and enhance our communities. States and thousands 
of communities and transportation agencies across the Nation face 
difficult challenges in meeting stormwater and sewer overflow 
regulatory requirements. Green infrastructure provides tools for these 
communities to meet regulatory requirements and non-regulatory needs in 
the context of broader community goals. EPA believes green 
infrastructure has great potential to advance environmental protection 
and economic prosperity through technology, innovation, and 
collaboration.

II.  What Is Green Infrastructure, and How Does It Help Protect Water 
                    Quality?

    ``Green Infrastructure'' is a relatively new and flexible term, and 
it has been used by various speakers and writers in various contexts. 
Thus, to date, there is no universally established definition of the 
term. In addition, several other terms are often used interchangeably 
with, or as aspects of, ``green infrastructure,'' such as ``low impact 
development (LID)'' and ``conservation development.'' In my remarks 
today, as well as in my March 5, 2007, memorandum [see Attachment A] 
entitled, ``Using Green Infrastructure to Protect Water Quality in 
Stormwater, CSO, Nonpoint Source and other Water Programs,'' I have 
intended the term ``green infrastructure'' to generally refer to 
systems and practices that use or mimic natural processes to 
infiltrate, evapotranspirate (the return of water to the atmosphere 
either through evaporation or by plants), or re-use stormwater on the 
site where it is generated.
    Green infrastructure encompasses a large set of specific practices. 
Typical techniques include literally green practices such as green 
roofs, rain gardens, and bio-swales. However, the term is also often 
used to include other technologies, such as permeable concrete or rain 
barrels, that similarly promote the onsite infiltration, 
evapotranspiration, or re-use of stormwater. At EPA, we promote all 
such onsite practices and technologies under the green infrastructure 
umbrella.
    Green infrastructure practices protect water quality primarily in 
two ways. First, they reduce the amount of pollutants that run off a 
site and ultimately are discharged into adjacent waterbodies. Second, 
they reduce or eliminate the water that runs off the site. Traditional 
development practices cover large areas of the ground with impervious 
surfaces such as roads, driveways, and buildings. The Center for 
Watershed Protection (``CWP'') has classified our nation's development 
patterns as ``habitat for cars, habitat for people, and habitat for 
nature.'' Once such development occurs, rainwater cannot infiltrate 
into the ground, but rather runs offsite at levels that are much higher 
than would naturally occur. The collective force of all such rainwater 
scours streams, erodes stream banks, and thereby causes large 
quantities of sediment and other entrained pollutants to enter the 
waterbody each time it rains. Green infrastructure techniques are 
designed to reduce such runoff through infiltration, evapo-
transpiration and re-use, thereby helping to protect the receiving 
streams as well as replenish ground-water supplies.
    EPA believes that green infrastructure approaches and practices can 
be a significant component of states' and cities' programs to reduce 
and control stormwater, combined sewer overflows, and nonpoint source 
pollution. They can be used by communities to help meet requirements of 
their stormwater permits under the National Pollutant Discharge 
Elimination System (``NPDES'') permit program under the Clean Water 
Act, and similarly can play a significant role in the creation and 
implementation of long-term control plans (``LTCP'') to reduce combined 
sewer overflows. Moreover, green infrastructure can play a critical 
role in the broader context of sustainable infrastructure by being 
integrated into comprehensive plans that simultaneously address 
communities' drinking water supply, wastewater management, stormwater 
management and recreational needs. The use of green infrastructure can 
help communities meet their overall water resource management goals and 
reduce the costs (or free up funding for other uses such as land 
purchases) of constructing and maintaining engineered infrastructure 
including pipes and treatment systems.
    There are many green technologies that can help protect water 
quality, and no single set of practices can be identified as the best 
for all circumstances; approaches should be tailored to fit local 
circumstances. For example, in a very heavily developed downtown area, 
where space is at a premium, the placement of green roofs on the top of 
office buildings and residential high rises may be the most economical 
way to retain stormwater on site. A recent study of green roofs in 
Portland, Oregon demonstrated that, over a period of 18 months which 
included the wettest month on record, five different configurations of 
green roof types and thickness reduced the volume of runoff leaving the 
site 65 to 94 percent. On the other hand, in a suburban setting 
characterized by many single-family homes, rain gardens might provide a 
more cost-effective means to obtain similar results. Similarly, the 
problems presented and the solutions to be prescribed will differ 
greatly between Washington, D.C., and the arid Southwest. Thus the 
determination of the most appropriate technologies will depend on a 
number of site-specific factors, such as available space, soil 
characteristics, depth of the water table, and climatic factors.

III.  To What Extent Are States and Communities Already Implementing 
                    Green Infrastructure Projects?

    In the 1990's, several communities and nonprofit groups began 
promoting and demonstrating the effectiveness of green infrastructure 
techniques. In 2000, Prince George's County, MD, authored, and EPA 
published, two companion books, ``LID Design Strategies'' and ``LID 
Hydrologic Analysis,'' which provided detailed guidance for local 
communities to install rain gardens and other LID techniques to reduce 
and control stormwater runoff. Since that time, throughout the country, 
numerous additional documents have been published, conferences and 
technical seminars held, and local ordinances modified or enacted, that 
promote the incorporation of green infrastructure into development 
practices. See, e.g., www.epa.gov/nps/lid.
    A number of cities across the Nation are already investing heavily 
in green infrastructure in order to manage their stormwater and/or 
abate their combined sewer overflows. The list includes large cities 
such as Portland (OR), Seattle (WA), Chicago (IL), and Philadelphia 
(PA), and smaller jurisdictions such as Lexana (KS), Prince George's 
County (MD), Griffith (GA), Emoryville (CA), Warsaw and Stafford 
Counties (VA), and Huntersville (NC). This list is growing as I speak, 
with recent announcements, proposed and final ordinances, and policy 
changes having been made by the cities of Boston, Washington, D.C., and 
New York City, and by states such as California and New Jersey.
    Many organizations are currently working cooperatively to improve 
our understanding of the costs and benefits of green infrastructure. 
Nonprofit groups such as the LID Center, Center for Neighborhood 
Technology, Casey Trees, CWP, and others have published studies that 
estimate the costs, cost savings, and/or water quality benefits 
associated with various LID technologies at particular sites. Detailed 
studies and demonstration projects are being implemented by leading 
universities around the country, federal agencies (e.g., the Department 
of Defense has published an LID Design Manual to be used at all DOD 
facilities and recently FHWA and EPA co-founded a Green Highways 
Partnership grant for innovative watershed management projects within 
the Anacostia Watershed) and State and local governments (e.g., through 
funding provided by EPA's Nonpoint Source Program under Section 319 of 
the Clean Water Act).

IV.  What is EPA Doing to Promote Increased Adoption of Green 
                    Infrastructure?

A.  Partnerships to Promote Green Infrastructure

    On March 7, 2007, I issued a memorandum to all of EPA's Regional 
Administrators expressing my strong support for the increased 
development and use of green infrastructure in water program 
implementation. I listed the many benefits that green infrastructure 
provides, including cleaner water, enhanced water supplies, cleaner 
air, reduced urban temperatures, increased energy efficiency, community 
benefits, and cost savings. On April 19, 2007, EPA Administrator 
Stephen L. Johnson signed a ``Green Infrastructure Statement of 
Intent'' with representatives of the National Association of Clean 
Water Agencies, Natural Resources Defense Council (``NRDC''), LID 
Center, and Association of State and Interstate Water Pollution Control 
Administrators, that formalized a collaborative effort among the 
signatory organizations to promote the benefits of using green 
infrastructure in protecting drinking water supplies and public health, 
mitigating overflows from combined and separate sewers and reducing 
stormwater pollution, and to encourage the use of green infrastructure 
by cities and wastewater treatment plants as a prominent component of 
their programs. EPA will work to include green infrastructure 
components and water quality trading and watershed projects. EPA is 
working with these and other key groups to develop a multi-pronged 
green infrastructure strategy. See www.epa.gov/npdes/
greeninfrastructure.
    At the same time, EPA has partnered with numerous organizations in 
a variety of other forums to promote and understand the benefits of 
green infrastructure approaches and practices. We are working with non-
governmental organizations and associations such as the American 
Institute of Architects to promote urban design and planning to protect 
and restore water resources. We are participating in an effort led by 
Ladybird Wildflower Center and the American Society of Landscape 
Architects to develop sustainability metrics to aid design and planning 
professionals in designing landscapes that are functional components of 
our water resource infrastructure. To promote green building, we are 
working with the U.S. Green Building Council, the Congress for the New 
Urbanism and NRDC to incorporate metrics for onsite infiltration, 
evapotranspiration and re-use into a new Leadership in Energy and 
Environmental Design for Neighborhood Development (LEED-ND) rating 
system. As another example, working with The Conservation Fund, EPA, 
and the U.S. Department of Agriculture Forest Service has sponsored 
training for diverse audiences and participated in stakeholder 
processes in the development of green infrastructure plans at different 
geographic scales. There are in fact many other cooperative 
initiatives, such as a Source Water Collaborative and a Sustainable 
Infrastructure Initiative, whereby EPA works actively with many 
partners to promote green infrastructure.
    EPA has also funded and partnered with leading engineering and 
science organizations in the United States, and the Federal Highway 
Administration (FHWA), in the development of the International 
Stormwater Best Management Practices (BMP) Database. The database, 
available online at www.bmpdatabase.org, provides a public platform for 
sharing information on best management practices to manage stormwater, 
including LID practices.

B.  Overcoming Existing Barriers to Green Infrastructure

    The future looks very bright for green infrastructure. However, we 
will need to overcome some long-standing barriers in order to expedite 
its progress. Pursuant to the April 19, 2007, agreement that 
Administrator Johnson co-signed with partnering groups, EPA and its 
partners have begun to work together to meet its objectives. These 
include components such as:

        <bullet>  Continuing research and development of green 
        infrastructure management practices performance and 
        effectiveness. This information is critical to increasing the 
        rate of implementation of green infrastructure practices.

        <bullet>  Guidance, assistance and education on selecting and 
        applying green infrastructure approaches.

        <bullet>  Regulatory guidance that provides direction to 
        promote utilization of green infrastructure approaches in lieu 
        of, or in combination with, gray infrastructure approaches. 
        Such guidance could be issued in the context of stormwater 
        permits, long-term control plans for combined sewer overflows, 
        enforcement documents, and funding programs.

        <bullet>  Documentation of the multiple benefits and relative 
        life cycle costs of green infrastructure approaches as compared 
        to more traditional technologies.

        <bullet>  Publicizing, cataloging, and recognizing successful 
        green infrastructure projects and approaches.

    Interestingly, one of the most significant barriers to implementing 
green infrastructure is local regulation. Many local ordinances, 
written a generation or two ago, require wide streets, curbs, gutters 
and underground storm sewers, and expansive ratios for paved parking 
square footage. Others require detention ponds and in some cases 
retention ponds, without giving credit for onsite practices that 
infiltrate, evapotranspirate, or re-use stormwater. Useful books have 
been written about such local codes and provided guidance on how to 
change them. An example includes ``Better Site Design: A Handbook for 
Changing Development Rules in Your Community'' (CWP, 1988, funded in 
part by EPA. EPA intends to work with its partners to continue to 
provide information to municipalities, counties, states, and others 
that explains the many economic, social, and environmental advantages 
that they can achieve by using green infrastructure alternatives in 
appropriate circumstances.

C.  EPA Research Efforts Related to Green Infrastructure

    The EPA Water Quality Research Program includes studies on the 
control of stormwater pollution, including the use of green 
infrastructure processes. Research specific to the transportation 
sector has included the ability of retention basins and constructed 
wetlands, such as are installed as part of highway drainage systems for 
flood control, to mitigate nutrients, sediment, metals, and bacteria. 
EPA has also begun an evaluation of the effectiveness of swales, 
commonly used as a drainage tool along roadways where transportation 
right-of-ways can provide space and infiltration systems.
    EPA's research program has documented and modeled the performance 
of porous surfaces in controlling stormwater runoff. The research 
program is now installing and evaluating porous pavement parking and a 
modular block system. These projects will allow evaluation of changes 
in the technology over time. Demonstrations have also been undertaken 
to examine the ability of green roofs to reduce the effect of roof-top 
impervious area with respect to hydrology and selected stressors. EPA 
will continue to evaluate these and other low impact development 
technologies in the future.
    EPA plans to publish a new study within the next few months that 
will examine about a dozen LID and green infrastructure projects. The 
vast majority of these projects have been found to cost less money than 
a more traditional hard infrastructure project would have cost. Cost 
savings often result from site design techniques such as narrower 
streets, smaller storm sewer pipes, and elimination or reduction of 
detention basins, which can more than offset the increased costs of 
adding some LID practices.
    Consideration of additional factors, such as the energy savings 
achieved by green roofs or the increased sales value of a home with a 
rain garden and reduced imperviousness, could tip the cost-benefit 
balance even more in favor of green infrastructure.

V.  Green Infrastructure and Transportation

    Transportation, ranging from super-highways to unpaved county 
roads, constitutes a significant component of our national 
infrastructure. As such, it presents similar opportunities for the 
incorporation of green infrastructure techniques, such as diverting 
flows onto medians and rights-of-way, where the flows may be 
evapotranspirated and/or infiltrated.
    EPA cooperates with federal agencies (e.g., Department of 
Transportation, U.S. Department of Agriculture Forest Service, and 
Bureau of Land Management), the National Association of County 
Engineers, the National Association of Counties, the American Public 
Works Association, and State and local governments to promote 
environmentally sound LID designs and maintenance practices for low 
volume and rural roads. Working together, we have collectively 
developed a guidance manual, a website to promote environmentally sound 
maintenance practices for dirt and gravel roads (http://www.ltapt2.org/
resources/ruralresources.php), and, through DOT's Local Transportation 
Assistance Program (LTAP), a clearinghouse and electronic discussion 
list-serve focused on environmental considerations relating to low-
volume roads. In addition, EPA staff actively participates in 
Transportation Research Board (``TRB'') committees on low volume roads, 
ecology and transportation, and environmental analysis in 
transportation, and have worked with the Federal Highway Administration 
(FHWA) to develop training courses on water quality/stormwater 
management and erosion and sediment control for highway engineers and 
public works staff.
    An essential aspect of any green infrastructure strategy is 
comprehensive planning. Watershed planning should be integrated with 
transportation planning and other local and regional community planning 
efforts. EPA participated on a workgroup chaired by FHWA that wrote 
Eco-Logical: An Ecosystem Approach to Developing Infrastructure 
Projects. Eco-Logical emphasizes integrated planning approaches. EPA 
has worked with FHWA and groups such as the National Association of 
Regional Councils to promote integrated planning to protect water 
resources. Approaches such as Context Sensitive Solutions help 
communities plan the placement and design of transportation facilities 
that are safe and meet a community's transportation needs while 
preserving scenic, aesthetic, historic and environmental resources.
A Transportation Model: The Green Highways Partnership
    EPA is very proud to be a primary sponsor of the Green Highways 
Partnership, a voluntary, public/private collaboration in the Mid-
Atlantic region with an expansive list of partners from the 
environmental, transportation and industry sectors. Green Highways, 
like Green Infrastructure, is not a defined term of art. However, some 
characteristics of green highways are that they are:

        <bullet>  built with permeable materials that provide superior 
        watershed-driven stormwater management, thus preventing metals 
        and toxins from leaching into streams and rivers;

        <bullet>  constructed with recycled materials, thereby reducing 
        landfill usage; and

        <bullet>  designed using cutting-edge technologies to protect 
        critical habitats, waterways, and ecosystems from the adverse 
        impacts and encroachment of highway infrastructure.

    The Green Highways Partnership is demonstrating the opportunities 
that exist through integration of environmental and transportation 
planning, using the green infrastructure approach. Through concepts 
such as regulatory flexibility and market-based rewards, Green Highways 
seeks to incorporate environmental streamlining and stewardship into 
all aspects of the highway lifecycle. Green Highways looks for 
opportunities to design roadways using cutting-edge technologies, like 
those which support green infrastructure, including LID practices, to 
protect critical habitats, waterways, and ecosystems from the adverse 
impacts and encroachment of highway infrastructure; build roadways with 
permeable materials that provide superior watershed-driven stormwater 
management, thus preventing metals and toxins from leaching into 
streams and rivers; and construct roadways with recycled materials, 
thereby reducing landfill usage. The outcome is sustainable 
transportation infrastructure that is ``beyond compliance'' and leaves 
the environment and communities ``better than before.''
    While examples and practices are occurring throughout the Mid-
Atlantic region, the Partnership is actively engaged in several 
demonstrations in Maryland and DC. The U.S. Highway 301 Waldorf 
Transportation Improvements project is working towards becoming the 
Nation's first truly green highway by incorporating the principles of 
the Green Highways Partnership and green infrastructure in its earliest 
planning stages.
    Through Green Highways, EPA has partnered with FHWA, State 
Departments of Transportation, and county planning organizations to map 
the natural resources in a geographic area and conduct green 
infrastructure assessments to inform and complement the comprehensive 
transportation plan. For example, the U.S. 301 Project team is working 
on updating the regional green infrastructure assessment to aid in 
decision-making at every level of the project: location, design, 
stormwater management, and mitigation. Similarly, the District of 
Columbia DOT has developed its own design standards to create an 
infrastructure to support the sustainable economic and environmental 
health of the region and the creation of livable communities. As an 
example, the District DOT has implemented a bioretention cell, which 
has reduced pollutant loads by more than 90 percent.

Conclusion

    We have made and are continuing to make major investments in the 
implementation of programs and practices to protect and restore waters 
that are impacted or may be impacted by stormwater, urban runoff, and 
combined sewer overflows. Green infrastructure can be both a cost-
effective and an environmentally preferable approach to reduce 
stormwater and other excess flows entering combined or separate sewer 
systems in combination with, or in lieu of, centralized hard 
infrastructure solutions. We will continue to work with this committee, 
our federal colleagues, and the many partners, stakeholders, and 
citizens who want to promote green infrastructure to achieve our water 
quality goals as well as to promote more livable communities. This 
concludes my prepared remarks; I would be happy to respond to any 
questions you may have.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   Biography for Benjamin H. Grumbles
    Benjamin H. Grumbles was confirmed by the United States Senate on 
November 20, 2004, as Assistant Administrator for the Office of Water 
at the U.S. Environmental Protection Agency. Prior to being appointed 
Acting Assistant Administrator in December, 2003, Mr. Grumbles served 
as Deputy Assistant Administrator for Water and Acting Associate 
Administrator for Congressional and Intergovernmental Relations.
    Before coming to EPA in 2002, Mr. Grumbles was Deputy Chief of 
Staff and Environmental Counsel for the Science Committee in the U.S. 
House of Representatives. For over fifteen years, he served in various 
capacities on the House Transportation and Infrastructure Committee 
staff, including Senior Counsel for the Water Resources and Environment 
Subcommittee, and focused on programs and activities of the EPA and the 
Army Corps of Engineers.
    From 1993 to 2004, he was an adjunct Professor of Law at the George 
Washington University Law School, teaching a course on the Clean Water 
Act, Safe Drinking Water Act, Ocean Dumping Act, and Oil Pollution Act.
    His degrees include a B.A., Wake Forest University; J.D., Emory 
University; and LL.M. in Environmental Law, from the George Washington 
University Law School.
    Ben was born and raised in Louisville, Kentucky. He currently lives 
in Arlington, Virginia, with his wife, Karen, and two children.

                               Discussion

    Chairman Wu. Thank you very much, Mr. Grumbles.
    We have just been notified of a series of, a long series of 
votes, and I understand that one or more of the government 
witnesses may have to leave at 3:30, so I am going to seek 
unanimous consent to ask the first two witnesses questions. And 
hearing no objections, so ordered. Mr. Grumbles, I am going to 
confine myself to one or two questions, and then turn it over 
to my colleague, Dr. Gingrey.
    I very much appreciate your memorandum written this March, 
supporting green streets and green efforts, and I want to ask 
you what other guidance can or does EPA Office of Water provide 
to its Regions, to communities interested in green 
transportation infrastructure development, and how does your 
Office collaborate with regional EPA offices?
    Mr. Grumbles. Thank you, Mr. Chairman.
    The National Water Program is excited about a couple 
opportunities in particular, one is what we are learning in the 
Mid-Atlantic on the Green Highways Program, this unique 
collaboration with Federal Highways and with other State and 
local government and private sector entities. We are looking to 
share with other EPA Regions through guidance or different 
materials. We are also very focused on working with our 
Enforcement and Compliance Assistance Office, as they look at 
communities that have sewer overflow challenges, or stormwater 
problems, and looking for opportunities to incorporate various 
practices that reflect a green infrastructure approach.
    It is also very important to the National Water Program 
that it becomes an important component of our overall strategy 
on wetlands protection that gaining, not simply maintaining, 
wetlands in the United States is a critically important part of 
the infrastructure. And then, of course, as this committee 
knows and has focused on, the importance of technology and 
continuing to evaluate different technologies and approaches. 
It is important to us to work with our Research Office and with 
the private sector and other agencies to advance the science 
and improve the environmental results of so many of these 
exciting green infrastructure transportation technologies.
    Chairman Wu. Well, Mr. Grumbles, if there is anything that 
this Congress, this committee, or this subcommittee can do to 
assist you in a more uniform acceptance of a green streets 
approach across the Regions, we would be delighted to do that.
    And with that, I would like to turn over time to my 
colleague, Dr. Gingrey, from Georgia.
    Mr. Gingrey. Mr. Chairman, thank you, and in the interests 
of Mr. Grumbles' time, in particular, and also, I will ask Ms. 
Shepherd a question, and then, hopefully, we will get to hear 
from the other witnesses and question them as well.
    My staff was briefing me on the hearing earlier today, and 
were telling me about some of the technologies and things that 
could be done. I have said well, gee, you know, I don't think 
that will work. And it was, Mr. Grumbles, in regard to the 
issue of regular maintenance of things like porous pavement, 
and taking care of the vegetation in the bioswales, you know.
    And so, my question is, because I am concerned, and then, 
there is a recurring criticism of some of the green 
transportation practices, is the need for this regular 
maintenance, and I mentioned the vacuuming of porous pavement, 
or attending to the vegetation in the bio-swales. When you are 
reviewing technologies like this for potential inclusion into 
the best management practices, are O&M estimated by the EPA?
    Do you look at these things and say, well, what will it 
cost to maintain it, and in fact, even if it is put in place, 
will the cooperation be there? I mean, if you have got to 
vacuum concrete once every couple of years, or dig out and 
replant the vegetation every five years, are State and local 
folks going to do that, and what is the cost to comply?
    Mr. Grumbles. Your question is just right on target, about 
what are the practical aspects and ramifications of some of 
these emerging technologies, and I would just say a couple 
things.
    One, EPA is focused on environmental results more than on 
particular technologies, and we don't, through our ETV program, 
certify particular technologies. We do evaluate them, and our 
goal is to get out the best information on various technologies 
and work with others and work at the grassroots level to give 
them the information, so that they can choose which 
technologies are the most effective and practical.
    And you are exactly right that as communities, and as EPA, 
look at the range of options, because there is no one size fits 
all, it depends on the local circumstances and climate and 
geographic factors and community needs. It is important to give 
the biggest possible list and options and then provide 
information. You are right. Sometimes, as we move towards 
greater vegetated green approaches in some areas it may not be 
as practical given the terrain or the climate. But some of the 
experts who are on the panel, who have real hands-on experience 
about some of the different technologies, are informing us and 
everyone else.
    Mr. Gingrey. Sure. Well, it is intriguing, and I have to 
say, I mean, the highway departments in the various states, and 
mine in particular, you know, they are concerned about 
repainting the lines, and making sure the shoulders are safe, 
and things like that. So, even if you put some of these things 
in place, you worry about the O&M.
    Ms. Shepherd, the training and technology transfer. In the 
end, the implementation of these technologies is going to 
require the local developers and the planning boards to accept 
their use. It is kind of in the same line of reasoning that I 
had with Mr. Grumbles.
    Ms. Shepherd, in your testimony, you mentioned two programs 
that provide training and technical assistance for individuals, 
the National Highway Institute and the Local Technical 
Assistance Program. How many individuals actually participate 
in these programs during the course of the year, and what are 
the two key differences in these programs?
    Ms. Shepherd. The NHI, the National Highway Institute, is 
the training arm of the Federal Highway Administration. That 
particular part of the organization offers and develops 
training based on the specific subject matter discipline. So, 
in this area, it would be the environment and stormwater 
management specifically, and for your question, it would be 
related to things like O&M and all the things that are 
associated with stormwater management.
    We are developing a course now on environmental 
considerations in the construction, meaning stormwater 
management, area. We work with the states to host, and the 
states are welcome to invite the local governments to 
participate in that training, so the states actually sponsor 
the training in connection with our National Highway Institute. 
And they are free, because the states are actually supporting 
the training. They are actually able to open up seats to that 
training to their local partners, their local governments 
within that state.
    In addition, there is the Local Technical Assistance 
Program (LTAP). There are 58 in the country, and that includes 
Puerto Rico. There are multiple LTAPs in a number of states. 
And there are seven LTAPs throughout the country, mostly, 
obviously, located in the western part of the country. And a 
lot of them are through the university systems and some of them 
are through the State highway administrations.
    Those programs are well attended, because what they do is 
they actually reach out to the locals, the grassroots 
organizations, the local State highway administrations and 
their transportation professionals. They find out what the 
needs of the specific areas are and try to gear training and 
technical assistance, technical deployment, based on what those 
local governments say their priorities are. So, it is very much 
a hands-on approach with the local governments.
    Mr. Gingrey. Ms. Shepherd and Mr. Grumbles, thank you. I am 
sorry, Mr. Chairman. I took way beyond my five minutes, but I 
talk slow. It wasn't their fault.
    Chairman Wu. Now, we appreciate the gentility of the 
gentleman from Georgia, and we are down to about three minutes 
before the vote, but I understand that Dr. Ehlers has a 
question, and we would like to get this done before we take a 
potentially significant break.
    Mr. Ehlers. Well, I am from Michigan. We don't talk much 
faster than Georgia, but I just very quickly want to make a 
point. I am on the Transportation Committee, too. When we did 
the last reauthorization, SAFETEA-LU, I was chairing this 
subcommittee, and we fought very, very hard to get more 
research money into the Department of Transportation. We did 
not succeed very well.
    And I am wondering, since you are involved in this area, I 
found it totally absurd that we have a multi-billion dollar 
industry, so to speak. I don't know of any other multi-billion 
dollar industry in the world that spends so little on research 
as the Department of Transportation does. Have things improved 
at all? Are you dedicating more funding to research or not?
    Ms. Shepherd. What we do is, since you acknowledge that, 
though transportation research funds were not there, as they 
were, as they have been historically, what we have done is we 
have tried to do a lot more cooperative efforts with our 
partners, like the states or AASHTO, for example, the American 
Association of State Highway Transportation Officials.
    As you know, sir, the states are required, through the 
State planning and research programs, that two percent of all 
the major categories in SAFETEA-LU are set aside for research. 
Furthermore, we passed that to the states. Of that money, the 
states have to set aside 25 percent of that money that can only 
be spent on research and development. So, what we do is we try 
to pool, albeit, our limited funding, with the states and their 
funds, to try to address their priority areas. We also try to 
work with the Transportation Research Board through their 
National Cooperative Highway Research Program and a number of 
other efforts.
    So, what we have done is, because of the limitations, we 
have learned to reach out and try to pool funding together to 
address some of these major issues, by trying to increase the 
flexibilities for moving funding around, given the limited 
amount of research revenues. So, you are right. There is a 
significant shortage of funding that is dedicated to research, 
but we try to make the best use that we can of what we have.
    Mr. Ehlers. Well, thank you for this slight bit of 
encouragement, and I am going to leave it up to you to raise 
the funds even more. Thank you very much.
    Mr. Grumbles. Could I just add something?
    Chairman Wu. Well, Mr. Grumbles, perhaps we could take your 
additional comment in the record. We are somewhat under 30 
seconds for this first of five votes, and I want to apologize 
to all the witnesses and the attendees. We will have to step 
away for however long it takes us to cast these five votes, and 
then we will reconvene.
    The Committee is in recess.
    [Whereupon, at 2:58 p.m., the Subcommittee was recessed, to 
reconvene at 3:48 p.m., the same day.]
    Chairman Wu. I want to thank the forbearance of the 
witnesses and the attendees, and at this point, I would like to 
recommence testimony, with Commissioner Sam Adams. Sam, please 
proceed.

                                Panel 2:

 STATEMENT OF MR. SAM ADAMS, COMMISSIONER OF PUBLIC UTILITIES, 
                    CITY OF PORTLAND, OREGON

    Mr. Adams. Thank you, Mr. Chair, and Ranking Member, and 
Committee Members, for the opportunity to share with you some 
of the lessons learned, and barriers that stand in the way, and 
uncertainties that stand in the way of further application in 
the City of Portland. And in talking to my colleagues in other 
cities and local governments across the United States, 
selectively, sort of the challenges that they have told me, in 
terms of greater implementation of green transportation 
technology.
    I also want to acknowledge your leadership on this issue, 
not only just here in Congress but also your willingness to go 
out with us, as Transportation Commissioner, and see the 
projects up close and personally. We are very grateful. Thank 
you for your leadership.
    The City of Portland gets 37 inches of rain annually, and 
that translates into about 17 billion gallons of 
transportation-related stormwater runoff. In Oregon, Portland 
specifically, it rains many days of the year, but the number of 
inches, and the amount of stormwater produced by the 
transportation system, is commensurate with a lot of cities 
across the United States. Sometimes, it comes in 
thundershowers, sometimes in snow, but many cities across the 
United States have the challenge or opportunity to deal with 
stormwater.
    In the City of Portland, starting in 1994, when we came 
under the jurisdiction of the State Department of Environmental 
Quality and the EPA for sewer overflow discharges into the 
Willamette River, we have been working very aggressively to do 
the research and development and the experimentation, and the 
proving of transportation-related green stormwater approaches. 
It really took a changing, not only just of technology, but 
really, of outlook, that up to that point, stormwater had 
largely been treated as a waste product or ignored. Stormwater 
was either piped directly in through the treated system, or 
directly into the river, which means if it hit the river, it 
was warm, it was dirty, and it was fast-moving. It was not the 
kind of stream inflows to the Willamette River, which is our 
major river, that we were looking for.
    Instead, sort of trying to turn things around, and doing it 
in a way that could save money to local ratepayers. Instead, 
our goal was to get stormwater to percolate into the ground as 
much as possible. Thirty percent of our main river and most of 
our watersheds come up from below, and if the water comes up 
from below, it tends to be cool, clean, and it recharges the 
river in the most beneficial way.
    A couple of examples of just pictures of the kinds of 
stormwater technologies that mimic, as you heard from Mr. 
Grumbles, that mimic the natural environment. This is a curb 
extension, all three of these examples are retrofits of the 
existing system in the City of Portland, in which we have 4,000 
miles of streets and roads. That is a curb extension in a 
residential area. This is actually a sidewalk planter. That is 
in use in downtown Portland, taking a very narrow, a narrow 
part of the sidewalk in the street, and turning it into a 
functioning swale. And then, the third one is an example of 
pervious pavers. Your next witness is going to talk about 
pervious concretes. I don't want to steal any of his thunder, 
but we use that as well. These are pervious pavers in the 
parking strip.
    In terms of what stands in the way of more application of 
these things, it has been touched upon, but it really is when, 
like me, when you are running a local government agency. In my 
case, I am responsible for transportation. As you mentioned, 
environmental services is a euphemism for the sewer agency. We 
don't have the luxury of taking risks that can come with 
unclear federal regulations. In the City of Portland, we push 
further than most, but most cities won't do that. So, some of 
the barriers that we have faced, and that I hear from my 
colleagues around the country, is a lack of alignment of 
regulatory policies, with green infrastructure initiatives 
within EPA, and with the transportation agencies on the federal 
level.
    There has been some positive forward motion, in terms of 
improving green technologies for inclusion into federally 
funded projects, but as detailed in my testimony, we feel like 
there is a long ways to go. Because there is a lack of federal 
standards, it means that a lot of the local governments simply 
will not choose to try to build the green stormwater facilities 
simply because they don't know what the rules of success are. 
Even though in the City of Portland, we are achieving between a 
20 and 60 percent reduction in green stormwater facilities, 
than if we had tried to treat that same amount of stormwater 
through a traditional drainpipe method.
    So, I appreciate the opportunity to testify. I look forward 
to questions and answers.
    [The prepared statement of Mr. Adams follows:]
                    Prepared Statement of Sam Adams
Chairman Wu, Members of the Subcommittee:

    It's an honor to discuss with you the challenges and opportunities 
of green transportation technologies.
    I am Sam Adams, a member of the City Council for the City of 
Portland, Oregon, and the Commissioner-in-Charge of Portland's Office 
of Transportation and Bureau of Environmental Services.
    Portland is a city of 563,000 residents, inhabiting 145 square 
miles, spread over five watersheds at the confluence of the Columbia 
and Willamette Rivers. The City's transportation system consists of 
4,000 miles of local streets and arterials. The sanitary sewer and 
stormwater utilities operate 2,400 miles of sanitary, stormwater and 
combined sewers, 9,000 stormwater sumps and two wastewater treatment 
plants.
    Portland receives 37 inches of precipitation per year, producing 17 
billion gallons of transportation-related stormwater runoff. 
Historically, we have treated this stormwater as a waste product: 
channeled to a sewer or piped directly to the Willamette River. This 
approach simultaneously deprived the river of clean, cool groundwater 
from below, while flooding it with warm and dirty surface runoff. We 
are committed to reverse this approach and begin to value stormwater 
runoff as an asset for watershed health. To that end, I am pleased to 
report that Portland is the first city in the Nation to adopt 
comprehensive green street policies to address the interrelated 
challenges of street design and stormwater management.
    I appear before you today to provide the following recommendations 
on the ways the Federal Government can promote the further development 
and use of green transportation infrastructure:

1.  Align Regulatory Policies with Green Initiatives.

    I would like to recognize Representatives Ehlers and Honda of this 
Subcommittee, and Ben Grumbles of the Office of Water at the 
Environmental Protection Agency (EPA) for promoting green technologies 
at the federal level.
    The Congressional Statement of Support for Green Infrastructure 
sends an important signal to Members of Congress about the need for a 
new approach to public works. And EPA's Green Infrastructure Statement 
of Intent establishes an important partnership with the National 
Association of Clean Water Agencies (NACWA) and Natural Resources 
Defense Council (NRDC) to expand the use of green technologies 
nationally.
    Now that a national policy consensus is taking shape, it is time 
for EPA and other federal agencies to align their regulatory policies 
accordingly. Existing policies and rules must be reviewed and updated 
to reflect the green revolution that is occurring in the environmental 
sciences and civil engineering.
    Portland is currently dealing with two issues where EPA's 
regulatory policies are frustrating our efforts to use green 
technologies:

        <bullet>  In 2001, Portland attempted to get regulatory 
        approval for a comprehensive plan to eliminate combined sewer 
        overflows (CSOs), advance our compliance with the Endangered 
        Species Act, and improve watershed health. Our ``Clean River 
        Plan'' called for integrated watershed planning, green 
        technologies and multi-purpose infrastructure investments 
        applied over a 20-year period. Unfortunately, our Plan failed 
        to get support from the Oregon Department of Environmental 
        Quality and EPA. In fact, EPA said our 2001 efforts were the 
        root cause of enforcement actions that Portland is dealing with 
        now six years later. Both agencies favored traditional 
        engineered solutions that assured regulatory compliance within 
        a tightly constrained timetable. Neither agency was willing to 
        provide additional time for Portland to pursue more 
        sustainable, cost effective and affordable strategies that also 
        promoted comprehensive watershed health. Had Portland spent 
        more time over the past several decades developing green 
        technologies, we would have been able to reduce the size and 
        expense of traditional technologies.

        <bullet>  Green technologies incorporate stormwater quality 
        protections to produce discharges that are an asset to 
        watershed health. These discharges more closely emulate the 
        natural water cycle and provide multiple ecosystem benefits. 
        EPA considers these treated discharges as a waste product and a 
        potential risk to groundwater. This interpretation produces 
        regulations that make it cumbersome, costly and risky to use 
        surface infiltrating green technologies by requiring green 
        technologies to be equipped with redundant filtering systems. 
        The expanded use of green technologies will be significantly 
        hindered if EPA does not revise its current policy on 
        stormwater infiltrating through sumps and drywells. 
        Municipalities and private developers will not take advantage 
        of such technologies as flow-through planters and street swales 
        that use specially designed landscaping to filter, detain and 
        reduce stormwater runoff before it is discharged to a sewer, 
        outfall or sump.

2.  Incorporate Green Technologies into Federal Transportation Policies 
and Programs.

    Federal and State highways traverse Portland, discharging about 
five billion gallons of stormwater runoff per year. These discharges 
contain heavy metals, solvents, chemicals, particulates, heat and other 
pollutants that find their way into our groundwater, rivers and 
streams. Investments in the upgrade, replacement and addition of new 
transportation infrastructure must include provisions for green 
transportation technologies. As with the EPA, we strongly recommend 
that the U.S. Department of Transportation and State transportation 
agencies adopt the use of green technologies wherever practical, and 
coordinate their stormwater management improvements with those of 
municipalities. In addition, federal and State agencies should be 
required to compensate municipalities for the costs of managing 
stormwater discharges from federal and State highways.

3. Support Research and Development of Green Technologies.

    Developing new technologies is an expensive and risky business. A 
national program of innovative design and product development will help 
jump start the use of green transportation infrastructure, and promote 
the creation of green economies throughout the country. Such a program 
should be coordinated with EPA, National Association of Clean Water 
Agencies (NACWA), Natural Resource Defense Council (NRDC), State 
environmental agencies, universities and municipalities. A national 
technology development program fits nicely into EPA's Green 
Infrastructure Statement of Intent and the Congressional Statement of 
Support for Green Infrastructure.

4.  Support Research on the Appropriate Placement and Performance of 
Green Technologies.

    Developing new green technologies is not enough. Many states and 
municipalities are trying to determine which green technologies provide 
the most benefits given specific site characteristics and watershed 
conditions. Research on the performance of green technologies needs to 
become a national priority if we are serious about their effective use. 
Coincidentally, compliance with current Clean Water Act requirements 
for the application of stormwater best management practices (BMPs) to 
the maximum extent practicable (MEP) is also reliant on a solid 
demonstration of the effectiveness of those BMPs. As with technology 
development, research on ``BMP effectiveness'' must be coordinated with 
the EPA, NACWA, NRDC, State environmental agencies, universities and 
municipalities. The research must be sensitive to the regional 
variations of hydrology, climate, plant biology, soils and other 
factors that impact the effectiveness of green technologies. The 
research should include ongoing and statistically-significant 
monitoring to determine the long-term effectiveness of green 
technologies. And the research must be transferable to and among the 
end users such as municipalities, State agencies, private developers, 
and EPA.

5.  Support Research on the Costs and Benefits of Green Technologies.

    It is difficult for policy-makers and the public to see the full 
costs of environmental degradation and the full value of green 
technologies to restore watershed health. As a society, we have not 
developed a comprehensive method of accounting for the full costs and 
benefits of stormwater management. We have not placed an economic value 
on stormwater that incorporates the full costs of old technologies and 
the full value of ecosystem benefits. If we are going to begin to make 
decisions in the best long-term interests of society and the planet, 
this must change. A national research program of economic research into 
the costs and benefits of different stormwater management technologies 
is an essential companion to research on BMP effectiveness. Solid 
economic analysis will support State and local efforts to develop fair, 
equitable and adequate funding mechanisms for public stormwater 
management, and provide the necessary basis for the development of new 
market-based initiatives.

6.  Support the Development of Information Technologies and Systems 
Modeling.

    Portland has spent more than a decade and millions of dollars 
developing geographical information systems (GIS), watershed 
characterization techniques and planning tools needed to make informed 
decisions about capital investments in stormwater and sanitary sewer 
infrastructure. Our systems are well tested and accurate at a localized 
level of planning. We developed these tools out of necessity, in 
support of our CSO response, in a watershed context. Soon we will add 
new tools to manage our capital assets and further inform our decisions 
about facilities maintenance and replacement. We have learned that such 
tools are indispensable to comprehensive and integrated watershed 
planning. Any national program to promote green technologies must 
include programs to deliver planning tools and training to 
municipalities and states.

    These recommendations are offered based on nearly two decades of 
ground-breaking work on green technologies by the City of Portland. I 
believe Portland comes by its leadership position on green 
transportation honestly. After years of experimentation, we have 
embraced green technologies as a core value to manage stormwater runoff 
from all City streets. We have designed and installed award winning 
street planters, rain gardens and swales that integrate seamlessly into 
the urban landscape. These green technologies take pressure off our 
combined sewer system, soften the streetscape and infiltrate stormwater 
to recharge our streams and rivers. When coupled with trees and native 
vegetation, our green streets increase evapotranspiration and carbon 
sequestration, reduce the urban heat island effect, provide traffic 
calming, and add landscape amenities for adjacent private property. 
These benefits are not possible with traditional approaches to street 
drainage.

Examples of Green Transportation Technologies

    Consider the following three examples of cost-effective and 
sustainable green transportation technologies:

        <bullet>  Portland has found very simple ways to turn 
        traditional streets into green streets without spending 
        substantial sums for planning, design and engineering. Simple 
        street swales capture, filter and infiltrate stormwater runoff 
        before it has a chance of getting into traditional combined or 
        separated sewers. These swale are carved out of the existing 
        street along the curb immediately upstream of a sewer inlet. 
        Abutting property owners participated in the selection of 
        native plants and help with simple maintenance.

        <bullet>  Portland has developed award-winning infiltration 
        planters that collect and infiltrate street runoff within the 
        tight dimensions of an urban streetscape. The planters are 
        sunken below the level of the sidewalk and receive stormwater 
        through grated curb cuts. Some designs allow stormwater to flow 
        in and out of multiple planters during heavy rain events. 
        Native vegetation and trees facilitate drainage and provide 
        multiple ecosystem benefits.

        <bullet>  Porous pavement and pervious pavers offer another 
        type of green technology that provides a way for stormwater to 
        filter into soils rather than flow into sewers, streams and 
        rivers. Portland uses both types of green paving depending on 
        site conditions, land uses and traffic patterns. In the case of 
        pervious pavers, Portland uses traditional asphalt paving for 
        the heavily-used traveling lanes of neighborhood streets. 
        Pervious pavers are concentrated in the parking areas where 
        runoff can be captured and filtered into the ground. Special 
        soils are used to facilitate infiltration. The project takes 
        stormwater runoff out of local combined sewers, and increases 
        groundwater recharge for the benefit of local streets. The 
        street design is very well received by local residents.

Integrating Green and Traditional Technologies

    Portland's stormwater systems reflect the evolution of science, 
engineering and regulation over the City's 156-year life. For most of 
our history, we conveyed stormwater as quickly as possible to our 
streams and rivers without much thought about the consequences. As we 
developed into an urban center, we added combined sewers, separated 
stormwater sewers, sumps, and pollution reduction facilities. Today, we 
pursue comprehensive strategies that treat stormwater as an asset for 
watershed health. We incorporate natural functions into our 
infrastructure to complement, enhance and strengthen our watersheds. 
Portland will always have a complex and overlapping system of older 
sewers and newer green technologies. Our challenge and our opportunity 
are to align and integrate the older and newer technologies in ways and 
at locations that maximize their benefit to our watersheds.

Lessons Learned

    In Portland, we have fundamentally redefined ``technology'' and 
``infrastructure'' in order to capture the full potential of green 
streets and sustainable stormwater management. To do otherwise would 
have perpetuated our reliance on traditional infrastructure that is 
ineffective, unsustainable and works in opposition to natural systems.
    Portland has moved beyond traditional transportation engineering 
principles to embrace a comprehensive and multi-disciplinary approach 
to infrastructure based on natural systems, soils, hydrologic function, 
biology, chemistry and plant sciences. We view stormwater as an asset 
rather than a liability. We look for opportunities to seamlessly 
integrate man-made structures into the urban landscape in ways that 
enhance and strengthen the natural functions of our watersheds.
    As with any new technology or innovation, our early efforts 
required additional investments in research, planning and design. 
However, after more than a decade of experience, our recent green 
street projects are increasingly cost-effective. Our most recent pre-
design for green street projects identify design and construction 
savings of 20 percent to 63 percent over traditional storm sewer 
systems. These savings are calculated without accounting for the value 
of improved air and water quality, increased natural habitat, and other 
ecosystem benefits.

In Closing

    A transition from traditional to green technologies is unavoidable. 
We must hasten the change by expanding our definition of technology and 
infrastructure to integrate built and natural environments. Green 
technologies marry together science, engineering and design to 
construct green infrastructure that is seamless, sustainable and cost 
effective. We need a partnership with federal and State agencies, 
universities and others to affect a fundamental change to green 
transportation technologies. This subcommittee can take an important 
first step by giving careful consideration to my recommendations:

        <bullet>  Redefine Technology and Infrastructure

        <bullet>  Align Regulatory Policies with Green Initiatives

        <bullet>  Incorporate Green Technologies into Federal 
        Transportation Policies and Programs

        <bullet>  Support Research and Development of Green 
        Technologies

        <bullet>  Support Research on BMP Effectiveness and Performance 
        Measures

        <bullet>  Support Research into the Economic Value of 
        Stormwater Management

        <bullet>  Support the Development of Information Technologies 
        and Systems Modeling

    Thank you for your attention and interest. I will gladly entertain 
any questions.

                        Biography for Sam Adams
    Sam Adams was elected to the Portland City Council in 2005. 
Commissioner Adams oversees the Office of Transportation and the Bureau 
of Environmental Services. Upon receiving the two assignments, he 
immediately seized upon the opportunity to develop a citywide 
greenstreets policy, which requires greenstreet development for all 
newly constructed or reconstructed roadways unless technically 
infeasible. The comprehensive greenstreets policy follows the city 
council passage of the comprehensive Watershed Management Plan, the 
Nation's first citywide urban natural resource baseline and plan for 
sustainable resource management. Still not satisfied with his 
environmental leadership, Commissioner Adams has now directed the 
Bureau of Environmental Services to development a Green City Strategy, 
which aims to manage all the city's stormwater in a sustainable manner.
    Portland's sustainable management initiatives are necessary to 
complement a federal court-mandated $1.4 billion investment in 
underground sewer infrastructure to mitigate combined sewer overflows.
    Commissioner Adams is a strong advocate for the environment and has 
used his role at the City of Portland to pursue strong policies that 
reduce our impact on the naturescape and seek alternatives to 
traditional transportation and sewer infrastructures.
    Prior to serving a City Commissioner, Sam Adams served as Chief of 
Staff to Mayor Vera Katz for 11 years. In the Mayor's office he helped 
lead projects to revitalize the Willamette River and expand light rail 
service to the Portland International Airport.
    Commissioner Adams started his political career with Representative 
Peter De Fazio, who represents the Fourth District of Oregon. Sam Adams 
earned a Bachelor of Arts in Political Science from The University of 
Oregon.

    Chairman Wu. Thank you very much. Mr. Huffman, welcome to 
the Committee.

STATEMENT OF MR. DANIEL J. HUFFMAN, MANAGING DIRECTOR, NATIONAL 
      RESOURCES, NATIONAL READY MIXED CONCRETE ASSOCIATION

    Mr. Huffman. Thank you. Good afternoon, Chairman Wu, and 
Ranking Member Gingrey, and Congressman Ehlers. Mr. Chairman, 
as a resident of your district, I am especially pleased to 
appear before you today to discuss the environmental benefits 
of pervious concrete pavements.
    My testimony will provide a brief overview of the 
properties of pervious concrete, some real world applications, 
and industry efforts to enhance its broad utilization. Pervious 
concrete is a leading edge infiltration technology. Its limited 
use in the United States in pavement began about 25 years ago, 
and primarily, in Florida.
    Pervious concrete can be a major element of low impact 
development, and could provide for substantial water 
harvesting. It already has been accepted by EPA as a 
recommended best management practice (BMP), and the U.S. Green 
Building Council's LEED Program allows the use of pervious 
concrete to contribute towards certification.
    Pervious concrete is a performance engineered structural 
material used in the constituents of conventional Portland 
cement concrete, only with little or no sand in the mixture, 
allowing for a 15 to 30 percent air void factor. Taking 
advantage of the decreased density, pervious concrete is 
incredibly permeable while still able to provide a quality 
structural pavement. The use of pervious concrete pavement 
supports the many positives of infiltration technology, 
including both groundwater recharge and attempts to control 
increasing aquifer depletion.
    Because a picture says a thousand words, I would like to 
provide some visualization. Represented on the left is a sample 
of pervious concrete, such as this one with me today. You can 
see the moisture falling onto the top of the pervious concrete, 
immediately passing through, and immediately coming out the 
bottom. The schematic on the right demonstrates how moisture 
falls onto a slab of pervious concrete, represented by the gray 
solid material on the top. The moisture is filtered, as it 
moves through the concrete, and then passes through the 
granular base reservoir, where it is temporarily stored, before 
it is percolated into the subgrade, where in addition to 
providing groundwater recharge, it also provides substantial 
moisture to the root systems of surrounding vegetation as if no 
hardscape ever existed.
    This is a Sam's Club Discount Store parking lot in Atlanta, 
Georgia. On your left, you can see moisture accumulated on the 
surface of conventional asphalt pavement immediately following 
a rain event. On the same site, the photo on the right shows 
the pervious concrete slab that was later constructed, and you 
can see the comparison at the same time. This is a parking lot 
of a Wal-Mart store in Denver, Colorado. In the background, you 
can see conventional asphalt during a rain event, with the 
expected standing water in many places, while in the foreground 
is a test section of pervious concrete, which appears to show 
no effects of moisture at all.
    The Safeway grocery store on the left has a complete 
parking lot of pervious concrete, and is shown as it looked on 
April 11, 2005, the following morning after a 12 inch snowfall 
had closed the Denver airport. The parking lot was plowed the 
night before, and as soon as the sun appeared, most of the 
remaining moisture quickly melted, and passed through the 
pervious concrete. The photo on the right was taken at the same 
time, and represents the conventional pavement immediately 
across the street, which was later turned to ice when the sun 
went down. The temperatures dropped, and the moisture standing 
on the surface refroze.
    This is the parking lot of Finley Field at the University 
of Tennessee at Chattanooga. The aerial view shows pervious 
concrete, the light stripes or strips that you see there, 
surrounded by conventional asphalt. This shows just one means 
of using pervious concrete for water harvesting, as the 
moisture trapped in the granular base system immediately 
beneath the pervious concrete is pumped over to the pinkish 
roof building on the left, which was converted into a cistern. 
From the cistern, the water is used to water all the vegetation 
of the surrounding areas of the parking lot and the nearby 
baseball field. This building was built, or the project was 
built about 12 years ago, and is still in very good condition.
    And finally, this is a pervious concrete street in 
Portland, Oregon, which demonstrates the ability to use 
pervious concrete also on roadways. I took a look at the street 
just the other night, Mr. Chairman, and to me, it looked even 
better, as shown in this picture. I can declare it as what we 
would project to be a 20 to 30 year pavement. Here you can see 
pervious concrete being poured onto a slab, where concrete, the 
moisture is expected to infiltrate at a rate in excess of 200 
inches per square foot per hour, which is typical of what we 
get with pervious concrete.
    NRMCA recognizes that sustainable development and 
environmentally friendly pavement technologies are balancing 
human needs with the Earth's capacity to meet them. Concrete 
offers a wide range of capabilities to help achieve this 
balance. In particular, pervious concrete offers a compelling 
solution to the many stormwater challenges confronted by 
communities around the Nation. NRMCA is a lead participant in 
the development of guideline specifications for the design and 
use of pervious concrete through its participation on the 
American Concrete Institute's Technical Committee focused on 
this technology. In addition, NRMCA sponsors a national program 
for the certification of concrete, pervious concrete 
contractors that is delivered regionally and locally, and 
resulting in 1,200 certifications in the last 18 months.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you or any of the Members of 
the subcommittee may have.
    [The prepared statement of Mr. Huffman follows:]
                Prepared Statement of Daniel J. Huffman
    The National Ready Mixed Concrete Association (NRMCA) appreciates 
this opportunity to share its views on green transportation 
infrastructure technologies and the challenges that exist to 
incorporating these technologies into current infrastructure projects.
    NRMCA is a national trade association representing producers of 
ready mixed concrete and those companies that provide materials, 
equipment, and support to the ready mixed concrete industry. Our 
association has been working vigorously over the past several years to 
promote the broader use of concrete materials as an environmentally 
friendly technology. These technologies exist within the realm of 
concrete materials being broadly produced today especially as it 
relates to concrete pavements. Pervious concrete pavement is just one 
of many forms of concrete that are especially beneficial for 
environmental transportation related applications. In addition, there 
is a vast range of highly significant environmental qualities that 
conventional concrete contributes to transportation and all other 
environmental applications depending upon the targeted goal (i.e., 
urban heat island mitigation, energy savings, use of re-cycled 
materials, etc.)

GREEN PAVEMENT TECHNOLOGIES

Pervious Concrete
    Material known as pervious concrete is especially compelling as a 
leading edge green building technology. It was reportedly first used in 
Europe more than 100 years ago for non-pavement applications, its 
limited use in the United States in pavement began only 20-25 years ago 
and primarily in Florida. In addition to offering the opportunity to 
deploy a major element of Low Impact Development (LID) and even 
initiate substantial Water Harvesting, pervious concrete already has 
established acceptance by the U.S. Environmental Protection Agency 
(EPA) as a recommended Best Management Practice (BMP) means of 
stormwater management on a local basis. However, it has recently 
garnered much attention due to increasingly stringent Clean Water Act 
stormwater management guidelines and particularly in response to the 
National Pollution Discharge Elimination System (NPDES) Phase II 
Stormwater Program. Among other modifications, Phase II applied 
guidelines to commercial projects sites of one acre or more and 
combined with the increasing focus on LID have greatly stimulated 
interest in infiltration technology, which is essentially what pervious 
concrete provides.
    Pervious concrete is a performance-engineered structural material 
using the usual constituents of conventional portland cement concrete, 
only with little or no sand in the mixture, allowing for a 15-30 
percent air void factor. Taking advantage of the corresponding 
decreased density, pervious concrete is incredibly permeable while 
still able to provide a quality structural pavement. Instead of 
moisture (i.e., rain/snow melt) running off the surface horizontally, 
virtually all stormwater falling onto the pavement is immediately 
infiltrated directly through the pavement and eventually into the 
subgrade. In most places in the United States, placed immediately below 
the pavement is an even more porous aggregate base layer that functions 
as a stormwater reservoir accommodating all the precipitation necessary 
for a design storm event. The depth and volume of the aggregate base 
layer is calculated relative to the percolation rate of the native 
soils along with the expected rates of moisture that need to be 
infiltrated over time. Where there are poor percolating soils or other 
hydrology challenges, outfall designs and supplementary drainage may be 
required for which perforated piping systems and other devices exist. 
Pavement design thicknesses are adjusted to meet the necessary load 
bearing capability for a broad range of applications. Properly designed 
and placed pervious concrete usually results in a pavement that can 
pass water at a rate in excess of 200 inches of rain per hour thus 
exceeding the requirements of almost any design storm event. The use of 
pervious concrete supports the many positives of infiltration 
technology including both groundwater recharge and attempts to control 
increasing aquifer depletion.
Pervious Concrete--Benefits and Costs
    Pervious concrete provides many environmental and some cost 
benefits by reducing stormwater volume, limits the amount of pollutants 
being carried away by runoff into our waterways, lakes, and oceans. 
However, in addition to improving overall water quality by reducing the 
volume of runoff, pervious concrete performs effectively as a filter of 
the moisture it infiltrates. The complex matrix of aggregate, hardened 
cementitious paste, and air voids retains at least 80 percent of the 
pollutant solids. With the aid of naturally occurring microorganisms 
also within the matrix of the pavement, a substantial level of 
treatment of the retained solids takes place which are only further 
enhanced by exposure to the elements over time (varying temperature and 
sun, etc.) It is generally accepted that what pollutants do pass 
through the pervious concrete system (including the granular base 
layer) are further converted by native soils and the total affect on 
groundwater is positive in terms of water quality and level of 
replenishment.
    Far and away the most common application of pervious concrete is 
for commercial parking lots. Also, its use in residential street 
applications is slowly growing as is that for major pedestrian areas of 
all types, and there is increasing interest even for the largest of 
retail shopping centers. Unlike so many other green building 
technologies that may come with increased cost, most major utilizations 
of pervious concrete technology, such as for commercial parking lots, 
benefit from a lowered first-cost of construction when considered on an 
overall project site basis. While hard cost data is often difficult to 
obtain, that relating to the experience of one residential housing 
developer is perhaps representative of how the optimization of pervious 
concrete can lower the first-cost of construction and also provide 
additional revenue through increased site optimization:

    In 2006, owner/developer Craig Morrison of CMI Homes in Bellevue, 
WA, completed the construction of a 20 home residential subdivision in 
Sultan, WA, called Stratford Place. 100 percent of the subdivision's 
original general hardscape was built with pervious concrete--roadway, 
driveways, and sidewalks. CMI has provided cost data supporting the 
cost savings resulting from the conversion from a site estimate using 
conventional asphalt pavement and traditional on-site stormwater 
detention to one where pervious concrete was actually used. While the 
developer is rather detailed in his calculations showing a net savings 
overall of approximately $264,000, he could also have projected 
increased net revenue relating to the development of two additional 
home sites he was able to add resulting from the elimination of the 
traditional stormwater treatment system.

    The CMI case demonstrates that progressive owners and developers 
see the use of a green technology like pervious concrete as a public 
relations opportunity and have been rewarded by some agencies in the 
permitting process for proposing and building with green technologies. 
NPDES Phase II regulations requiring the treatment of runoff prior to 
it leaving a site presents very attractive cost and site optimization 
dynamics to an owner who deploys pervious concrete. The site 
optimization dynamic is not always easy to quantify in financial terms 
but it is frequently perceived by some owners as highly valuable. The 
positive for pervious concrete in this respect is that it has the 
ability to provide a multi-functional facility that to a stormwater 
professional will function as stormwater treatment system yet to a 
facilities owner it is a parking lot.
    Moreover, traditional stormwater management devices such as 
retention/detention ponds, swales, and similar devices are greatly 
lessened and in most cases totally eliminated where pervious concrete 
is deployed on a major scale. In some cases, pressures are so great on 
major big box retailers to be responsive to stormwater regulations yet 
with the perceived increasing lack of ``good sites'' in most major 
metropolitan areas they sometimes spend millions of dollars per major 
big box store to construct underground stormwater treatment systems to 
accommodate an acceptable minimum amount of on-site parking. With the 
optimization of pervious concrete, an owner could instead eliminate the 
conventional devices (which may consume 10-20 percent of a site) and 
maintain or expand the area of his parking lot, possibly increase the 
footprint of his building, or use the increased optimization for some 
other revenue generating or aesthetic purpose. The bottom line 
economics strongly suggest that it is usually less costly to build with 
pervious concrete on an overall site basis compared to all that relates 
to traditional stormwater device utilization. Indeed, the financial 
benefits of increased site optimization are potentially highly 
significant and for a high volume big box retailer could be paramount 
depending on other site location dynamics.
    Pervious concrete also has a number of other important benefits. 
Like conventional concrete it is a ``hard-riding'' surface that 
provides less resistance and therefore greater fuel efficiency. 
Pervious concrete can have a substantial effect on sound mitigation. 
Much of the sound of tires rolling on pavement relates to the way air 
is compressed and released ``as the rubber hits the road.'' The open 
graded surface of pervious concrete diminishes this sound effect as it 
does much to allow air not to become trapped beneath moving vehicle 
tires. Instead, air can move relatively easily within the upper layers 
of the pervious concrete void matrix thereby muffling any road noise. 
There is also strong evidence that in many places in the country 
subjected to snowfall, snowmelt actually leaves the surface of pervious 
concrete much faster than that of conventional pavement because the 
moisture has a place to go--directly down. This rapid removal of 
snowmelt greatly limits the likelihood of ice formation on pavement due 
to snowmelt refreezing when day time sun and ambient temperatures may 
convert snow to liquid but then subjects it to becoming ICE when night 
falls, temperatures drop and it refreezes.
Pervious Concrete Contributes to Environmental Protection
    A largely untapped and potentially huge opportunity exists for 
society to HARVEST STORMWATER. This could especially be of interest in 
the very dry climates of the far west and other areas of the country 
with increasing pressure on the water supply. While the strategy 
focused on green roof technology to harvest stormwater is sound and 
getting a large amount of attention, we are barely scratching the 
surface on the potential to broadly harvest stormwater through the 
technology pervious concrete represents. The amount of hardscape that 
is non-roof material offers vast potential. Taking the example of many 
retail shopping centers, the surface area of on-grade parking is 
generally considered to be three to four times that of the buildings it 
is serving. Why not use pervious concrete to harvest water for gray 
water re-use? The technology to do that already exists and is 
relatively simple. 12 years ago at Finely Stadium, a sports venue at 
the University of Tennessee (Chattanooga), a parking lot was 
constructed using pervious concrete in all the parking spaces. The 
water passing through the pervious concrete into the granular base 
reservoir is piped to an existing site adjacent building that was 
modified to become a cistern. The water that otherwise would have been 
pollutant carrying runoff 12 years ago has been used instead as gray 
water for watering not only the vegetation directly on the site but 
also a nearby baseball field.
    Other important environmental benefits supporting the use of 
pervious concrete include its potential to save energy. Like 
conventional concrete, portland cement and other supplementary 
cementitious materials are used in pervious concrete pavement and are 
much LIGHTER in color than the binder used by their respective 
petroleum based counterparts. Concrete is vastly superior in light 
reflectivity, increasingly evaluated by Solar Reflectance Index (SRI), 
so the amount of night illumination and its corresponding energy could 
be greatly reduced where some concrete pavements are deployed. 
Additionally, concrete's superior position as a pavement to enhance 
urban heat island mitigation is well documented by the EPA and other 
study groups. The decreased density of pervious concrete also has a 
positive effect on heat island dynamics because of the way it simply 
absorbs less heat in the first place, a quality that may not 
specifically relate only to its superior SRI. As it relates to 
temperature dynamics, and beyond that directed primarily at the cost of 
energy, the concern for stormwater runoff's thermal pollution is also 
benefited through the use of pervious concrete. Unlike other man-made 
pavements, pervious concrete does not share the heat retaining 
properties that contribute to thermal pollution Less than optimally 
controlled levels of stormwater runoff are known to increase the 
temperature of streams, rivers, lakes, and perhaps may have some effect 
on ocean temperatures. This thermal pollution of waterways negatively 
effects the survival of fish and various riparian life.
Energy Savings & Urban Heat Island Mitigation
    While energy savings and urban heat island mitigation are clearly 
not technologies, due to their critical roles in the battle to combat 
global warming, concrete's great potential to benefit in that battle 
must be addressed. While in the context of pervious concrete, energy 
savings was briefly discussed; conventional concrete may be even more 
underutilized as a means of providing impressive energy savings. The 
Solar Reflectance Index (SRI) data supporting the benefit conventional 
concrete provides due to its potential to lessen the need for night 
illumination is only one aspect of energy savings.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The U.S. Green Building Council's LEED green building rating system 
recognizes the value of the albedo or reflectivity dynamic and allows 
credit toward LEED certification relative to SRI capability. The 
differences in pavement materials in night lighting situations is even 
more pronounced in wet weather conditions when ``dark wet roads'' seem 
to absorb the light given off by vehicle headlights which are only 
compounded when ``puddles'' and pot holes also exist. At least one 
extensive study documents that a 35 percent reduction in the amount of 
lighting required is warranted where conventional concrete is used 
instead of the most commonly used pavement material. Another means of 
taking advantage of concrete's superior SRI would not save energy but 
would improve public safety. That is, allow for the use of concrete 
pavement's increased brightness while not eliminating the additional 
light poles required of the other type of pavement so as to provide 
better night driving conditions on roadways and parking lots, and to 
improve pedestrian safety through increased night visibility. The 
option also exists for improved security in high crime areas due to 
increased brightness. Possibly, the best option is to take advantage of 
concrete's reflectivity to seek the middle ground in energy reduction 
and safety consideration relative to the specific environment--the best 
of both worlds.
    The energy savings issue and conventional concrete's superior SRI 
are also closely linked to urban heat island mitigation dynamics. Where 
higher SRI materials are used, they are holding and generating less 
heat which in warmer climates would result in a corresponding energy 
savings especially as it relates to air conditioning utilization. Where 
some major urban areas are thought to have ambient temperature 
increases of up to eight degrees F. due to heat island effects, the 
potentials to mitigate with the expanded utilization of concrete 
pavements presents significant impact potentials not only on the 
immediate amount of energy consumption but as it relates to the 
negative health effects of ozone and smog, etc.

MEASURING ENVIRONMENTAL IMPACT

    Answering the question of what makes a product environmentally 
friendly is difficult and complex. It is important that there is a 
predictable and reliable process for answering this question because 
both citizens and their elected representatives are concerned about the 
environmental consequences of producing and using various materials and 
products and they are demanding ``green'' products. This is the result 
of a societal awareness that consumption of manufactured products have 
an effect on resources and the environment. These effects, which can be 
direct or indirect, occur at every stage in a product's life cycle--
from the extraction of the raw materials from the ground through the 
processing, manufacturing, and transportation phases, ending with use 
and disposal or recycling. One methodology increasingly in use today is 
life cycle assessment (LCA), which attempts to quantify these direct 
and indirect effects of products and processes.
    LCA has the potential to have a significant impact on determining 
the true ``greenness'' of a material. Standards organizations such as 
the American Society of Testing and Materials (ASTM) and the 
International Standards Organization (ISO) have worked to develop 
consistent LCA methods and procedures in order to quantify 
environmental impacts. Notwithstanding these efforts, LCA continues to 
receive both positive and negative comment on its utility as a process 
to evaluate environmental impact. Part of the difficulty rests in the 
inability to define a common methodology to determine the life cycle 
environmental cost of a material. Another difficulty lies in locating 
reliable data on the performance of the material and the associated 
maintenance costs that occur over time. Indeed, despite all the 
activity in standards organizations and elsewhere, there is still 
debate within the LCA practitioner community as to whether a scientific 
basis exists for applying impact assessment techniques to the data 
derived from an LCA process analysis. Nonetheless, many standards LCA 
processes demonstrate that concrete's thermal mass, combined with an 
optimal amount of insulation, saves energy over the life of a building, 
thus reducing energy consumption in the building sector which accounts 
over 40 percent of greenhouse gas emissions from fossil fuels. However, 
NRMCA is not aware of any rigorous applications of LCA pavements to 
concrete pavements, pervious or otherwise.
    However, environmental friendliness can be reasonably well 
determined through analysis and some level of reliance on existing 
green building rating systems such as the U.S. Green Building Council's 
LEED rating system, the Green Building Initiative's Green Globes 
program, or by EPA's Energy Star system. As it relates to general 
building, it could be noted that the U.S. General Services 
Administration and the Department of Defense (among other federal 
entities) have produced statements perceived as favorable toward LEED 
in particular. The basic focus areas of the LEED, Green Globes, and 
similar programs seem to be much the same. There is consistent emphasis 
on ``Sustainable Sites,'' ``Water Efficiency,'' Energy and Atmosphere'' 
and ``Indoor Environmental Quality.''
    It an open question as to whether LEED, Green Globes, or Energy 
Star are really suited to meet the needs of green pavement 
technologies. In this respect, leading members of the green community 
have concluded that the answer to the question of what is 
environmentally friendly is most apparent when actual use is 
considered. In the case of pervious concrete among the reasons it can 
be considered environmentally friendly is because it provides an 
effective means of improving overall water quality, it offers 
substantial support to Low Impact Development, it is included among the 
EPA's Recommended Best Management Practices as an element of stormwater 
management on a local/regional basis, and green building rating systems 
such as LEED and Green Globes clearly allow it to contribute to the 
credits registered projects can accumulate for certification.

BARRIERS TO BUILDING GREEN

    The barriers to the acceptance and utilization of both established 
and developing environmental technologies by private enterprise are 
many. While the improved public relations opportunities and other 
values associated with green building are increasingly of interest, 
off-setting the perceived increases in first costs are still greatly at 
issue. Owners and their consultants are frequently challenged in their 
awareness of green building technologies. While organizations like the 
EPA are working to educate designers and builders, the lack of 
understanding by various agencies and especially at the local and State 
levels does not encourage the process. It is not that agencies and 
regulators are so often taking a position that overtly denies the 
utilization of a technology like pervious concrete, or LID for that 
matter, it is more likely that their Best Management Practices (BMPs) 
just don't address such.
    NRMCA has a National Accounts program which I direct on a national 
basis and includes a team of technical/promotional professionals who 
operate primarily from various regional bases and are focused 
accordingly. Our mission is to provide technology transfer relative to 
the use of concrete to the entities both public and private that have 
the opportunity to influence the selection of particular building 
materials. Though primarily focused on private enterprise we attempt to 
cover the bases with federal agencies as well. Among the largest 
facilities owners we have established relationships with are the big 
box builders and the largest commercial developers otherwise, and a 
large number of consultant organizations to those builders and 
developers.
    A challenge for us comes in the ability to gain acceptance of a 
technology like pervious concrete and other technologies such as 
insulating concrete wall systems that have the potential to save as 
much as 35 percent in the cost of heating/cooling a home. While 
regulations and codes that simply do not address pervious concrete 
technology are certainly barriers to acceptance, some of the challenge 
is simply ``human.'' When presented with an unfamiliar LID technology, 
the difficulty that some people have with pervious concrete is not that 
it is LID, but that it is not an existing, established convention. The 
relatively simple concept of allowing moisture to fall to Earth, pass 
immediately through the filtration process pervious concrete provides 
and then infiltrated in most applications without additional conveyance 
and process is difficult for some to accept. That is not to say that 
there cannot be legitimate concerns about various soils related 
dynamics and other aspects of hydrology. However, numerous designers 
and acknowledged experts in the field such as Bruce Ferguson, Franklin 
Professor and former Director of the School of Environmental Design at 
the University of Georgia, and author of the book, Porous Pavements, 
suggests that it is usually within the capability of sound engineering 
and hydrological design professionals to overcome many of those 
perceived obstacles. Professor Ferguson goes on to say, ``The observed, 
measured, documented, scientific fact is that properly designed, 
installed, and maintained pervious concrete is structurally durable and 
environmentally beneficial. Proven facts allow us to discard blindly 
uniform convention, and to select the most appropriate technology for 
each separate site-specific situation.''

FEDERAL INCENTIVES TO BUILD GREEN

    Federal support to innovative building technologies can come 
through a variety of means. States and local governments are proving 
that modest tax credits can stimulate market interest in green building 
practices by offsetting any additional up-front costs such as energy 
modeling and commissioning. Tax credits should be tied to green 
building technologies that deliver promised results and speed overall 
market transformation. Such tax credits should apply to both the 
commercial and residential markets.
    Funding programs that are focused on increased awareness of 
existing data, most of which is highly supportive of the technology 
would not have to be very costly as perhaps the largest challenge is 
the awareness and acceptance of existing data. Empirical data already 
exists that is the result of research grants or was developed by a host 
of universities and other researchers across the country. Much of this 
data suffers from lack of circulation perhaps because it is generated 
primarily by private enterprise. The American Concrete Institute's 
Technical Committee--522--Pervious Concrete perhaps collates such data 
more than anyone else, but communication of this technology may not 
exist by any formal means to government agencies at any level. Federal 
funding to insure such data is transferred on an appropriate basis and 
broadly distributed would do much to move awareness of existing data 
forward.
    Funds specifically earmarked for agency personnel to attend 
national, regional, and local programs that are increasingly available 
on specific innovative technologies like pervious concrete would also 
be highly beneficial. In the spring of 2006, a major national symposium 
on pervious concrete took place in Nashville, TN, was sponsored by 
NRMCA with a call for technical papers widely advertised. While the 
private sector sent people from all parts of the country attendance by 
agency personnel was limited. On an on-going basis, NRMCA sponsors 
regional seminars (10 or more in 2007) charging moderate prices and are 
presented by some of the top technologists in the industry. These would 
be excellent venue for agency officials to pick-up existing technology 
on pervious concrete.
    Increased research grants and tax incentives for building that 
would deploy targeted new technologies would be of huge benefit. A 
positive model currently funded and under final development relates to 
the cooperative effort and partnership between EPA's Region III and 
NRMCA where strong leadership and support by Dominique Lueckenhoff, 
Associate Director for Water Quality, has led to a research grant for 
Villanova University to evaluate the water quality and other 
capabilities of competing porous pavement systems, in this case, 
pervious concrete and porous asphalt pavements. The grant funding has 
come from EPA and assistance from the RMC Research and Education 
Foundation.
    Positive programs supportive of new technology also exist at the 
State and local level that would be highly worthy of federal support. 
One fine example of such relates to Snohomish County, Washington's goal 
of implementing Low Impact Development. Snohomish County, WA, is one of 
a very few, and the first in the State of Washington to do so. Ref: 
Snohomish County Ordinance 06-044, adopted July, 2006. This ordinance 
creates staff leeway to approve methods which they determine to meet 
the County's storm water management goals, and provides incentives to 
developers who use LID methods and materials. These incentives are in 
the form of expedited permit processing, which results in real monetary 
incentive to the developer, who gets to shorten his development period, 
and get properties to market sooner. A technology like pervious 
concrete has a much better opportunity to be utilized in this 
environment and meets the environmental goals of a highly 
environmentally sensitive area such as the Puget Sound Area of 
Washington.
    NRMCA appreciates the opportunity to present this statement for the 
record.

                    Biography for Daniel J. Huffman
    Based in Portland, Oregon, Dan is the Managing Director of National 
Resources for the National Ready Mixed Concrete Assn. (NRMCA) a Silver 
Spring, MD, headquartered non-profit national trade association. For 
more than 25 years he has worked throughout the west and nationally 
with owners, designers, contractors, and concrete producers while 
employed by various concrete materials companies including those 
producing ready mixed concrete and aggregate, concrete paving, portland 
cement, fly ash pozzolan, and various admixtures for the modification 
of concrete.
    Dan is a member of the American Concrete Institute's (ACI) Board 
Advisory Committee on Sustainable Development, and is a voting member 
of ACI's technical committees on ``Pervious Concrete'' and ``Design & 
Construction with Insulating Concrete Forms.'' Most of Dan's focus is 
now on technology transfer relating to sustainable construction and the 
potential for advancement of ``green building with concrete'' 
technologies--and a national team of Resource Directors employed by 
NRMCA in every region of the country report to Dan.

    Chairman Wu. Thank you, Mr. Huffman. Mr. Kassoff, welcome 
to the Committee.

    STATEMENT OF MR. HAL KASSOFF, SENIOR VICE PRESIDENT FOR 
         SUSTAINABLE DEVELOPMENT, PARSONS BRINCKERHOFF

    Mr. Kassoff. Thank you, Mr. Chairman, Members of the 
Subcommittee. My name is Hal Kassoff, with PB, Parsons 
Brinckerhoff, a global engineering consulting firm, and I also 
served for 12 years as State Highway Administrator in the State 
of Maryland. I very much appreciate the opportunity to be here.
    Five years ago, while with PB, I was asked by a colleague, 
who was leading a company-wide sustainability initiative for 
buildings and transportation, whether I thought the case could 
be made for highways as a net contributor, rather than a net 
detractor, in terms of sustainable development. I took on the 
assignment, and began researching, writing, and speaking about 
what I called Sustainable Highways: Oxymoron or Opportunity.
    I define sustainable highways as improvements which achieve 
better than before outcomes, not only for highway purposes, 
such as safety, mobility, and structural integrity, but also 
for broader environmental and societal goals.
    While not as advanced in sustainable development as 
buildings, and not as inherently sustainable as public 
transportation, there are several underlying reasons why the 
concept of sustainable highways is an idea whose time has come. 
The first is that an increasingly demanding and politically 
active customer base, the people we serve, want improved 
transportation and a healthy environment. They are not willing 
to sacrifice one for the other.
    Second is that over 90 percent of highway improvements are 
on existing, rather than new facilities, a radical change from 
the recent era of interstate highway construction. This offers 
a unique opportunity to improve communities and the environment 
by virtue of a second generation of highway projects that must 
adhere to much more stringent requirements, such as for air 
quality, noise, wetlands, water quality, endangered species, 
historic preservation, just to name a few.
    The third factor is that for the past seven or eight years, 
AASHTO, the American Association of State Highway and 
Transportation Officials, has advanced the concept of 
environmental stewardship, accepting responsibility for the 
environment as affected by transportation improvements. Perhaps 
even more importantly, seeking practical and affordable ways to 
enhance it. By actively approaching and promoting an approach 
to project development called context sensitive solutions, 
AASHTO provides the single most important tool to fulfill 
environmental stewardship and sustainability goals. And more 
recently, AASHTO initiated a process to define and advance a 
vision for sustainable transportation throughout this country, 
with the assistance of a national panel of professionals, which 
I had the privilege and honor of chairing.
    A fourth factor is that sustainable highways makes good 
business and good economic sense from several perspectives. On 
a project level, they contribute to economic efficiency, since 
context sensitive and sustainable highway improvements are more 
likely to be supported and implemented much faster than less 
contextual and less sustainable alternatives, which are more 
likely to languish. Also, from a life cycle asset management 
perspective, investing in increased durability and preventive 
maintenance means lower life cycle costs, less consumption of 
nonrenewable resources, and reduced economic losses to shippers 
and travels, who are delayed less frequently by repairs and 
reconstruction. And let us not forget the role of highways in 
an ever expanding recycling industry, which is second to none.
    There are many opportunities for sustainable highway 
practices, from the earliest phases of planning, where land use 
and conservation and transportation decisions can be better 
coordinated, as encouraged by SAFETEA-LU legislation, to 
technologies for fast track construction, managing traffic, and 
reducing impacts during and after construction. These 
opportunities are articulated in a series of tools, with which 
we were associated, including a compendium of environmental 
stewardship practices in construction and maintenance, and a 
30-page highway sustainability checklist, which covers planning 
all the way to operations. These opportunities are underscored 
by the cooperative Green Highways Partnership that you have 
already heard about from EPA and Federal Highways.
    Perhaps the greatest barrier to sustainable highways lies 
with motor vehicles that use these highways, and in particular, 
the carbon footprint and related air quality and climate change 
issues that arise. A sustainable highways concept that ignores 
motor vehicle issues represents just part of the puzzle.
    The second barrier has to do with the land use decisions 
that can exploit and ultimately degrade highway service and the 
quality of life through strip development and sprawl, problems, 
by the way, that Portland, Oregon is noted for having overcome 
in your home district, and I congratulate Portland in that 
regard.
    Finally, as a way to simultaneously induce, as well as 
measure sustainability outcomes in infrastructure, we can apply 
a framework known throughout the world of sustainable 
development. Mostly outside the United States, as the Triple 
Bottom Line, a framework to set targets, measure progress, and 
evaluate whether and to what extent the so-called better than 
before outcomes are indeed achieved as we pursue a robust 
economy, a healthy natural environment, and an enhanced quality 
of life, which we all certainly want. The Triple Bottom Line 
has the potential to offer incentives and inducements to public 
as well as private sector decision-makers to pursue 
sustainability strategies and initiatives without mandating the 
details of how to achieve these desired outcomes. I would 
strongly recommend research into the best ways to apply this 
Triple Bottom Line tool in the United States.
    In sum, the goal of sustainable highways may, at first, 
sound like an oxymoron, but in reality, represents an 
opportunity whose time has come. Thank you.
    [The prepared statement of Mr. Kassoff follows:]
                   Prepared Statement of Hal Kassoff

             Sustainable Highways: Oxymoron or Opportunity

    Mr. Chairman and Members of the Committee, my name is Hal Kassoff. 
I am a Senior Vice President and Highway Market Leader with PB, a 
global infrastructure consulting firm with 200 offices worldwide. Thank 
you for the opportunity to share these thoughts with you today.
    Five years ago I was asked by a colleague who was leading a 
company-wide sustainability initiative for buildings and transportation 
whether I thought the case could be made for highways as a net 
contributor rather than a net detractor in terms of sustainable 
development. I took on the assignment and began researching, writing 
and speaking about what I called ``Sustainable Highways: Oxymoron or 
Opportunity.''
    I define sustainable highways as improvements which achieve 
``better than before'' outcomes, not only for highway purposes such as 
safety, mobility and structural integrity, but also for broader 
environmental and societal goals.
    While not as advanced in sustainable development as buildings, and 
not as inherently sustainable as public transportation, there are 
several underlying reasons why the concept of sustainable highways is 
an idea whose time has come.

        1)  The first is that an increasingly demanding and politically 
        active customer base is expecting more of us. Our customers 
        want improved transportation and a healthy environment. They 
        are not willing to sacrifice one for the other.

        2)  Second is that over 90 percent of highway improvements are 
        on existing rather than new facilities--a radical change from 
        the recent era of Interstate highway construction. This offers 
        a unique opportunity to improve communities and the environment 
        by virtue of a second generation of highway projects that must 
        adhere to more stringent requirements, such as for air quality, 
        noise, wetlands, water quality, endangered species, and 
        historic preservation, to name just a few.

        3)  The third factor is that for the past seven or eight years, 
        AASHTO (the American Association of State Highway and 
        Transportation Officials) has advanced the concept of 
        environmental stewardship--accepting responsibility for the 
        environment as affected by transportation improvements, and 
        seeking practical and affordable ways to enhance it. By 
        actively promoting an approach to project development called 
        Context Sensitive Solutions, AASHTO provides the single most 
        important tool to fulfill environmental stewardship and 
        sustainability goals. And more recently, AASHTO initiated a 
        process to define and advance a vision for sustainable 
        transportation with the assistance of a diverse panel of 
        professionals which I have had the honor of chairing.

        4)  A fourth factor is that sustainable highways make good 
        business and economic sense from several perspectives. On a 
        project level, they can contribute to economic efficiency in 
        that context sensitive, sustainable highway improvements are 
        more likely to be supported and implemented than less 
        contextual and less sustainable alternatives which are more 
        likely to languish in controversy. Also, from a life cycle 
        asset management perspective, investing in increased durability 
        and preventive maintenance means lower life cycle costs, 
        consumption of fewer non-renewable resources, and reduced 
        economic losses to shippers and travelers delayed by less 
        frequent repair and reconstruction cycles. And, it should not 
        be overlooked, the role of highways in an ever expanding 
        recycling industry is becoming second to none.

    Opportunities for sustainable highway practices abound, from the 
earliest phases of planning where land use, conservation, and 
transportation decisions can be better coordinated, as encouraged by 
SAFETEA-LU, to construction, maintenance and operations where new 
technologies for fast-track construction, managing traffic, reducing 
noise, controlling emissions, and suppressing dust offer an array of 
possibilities. These opportunities are articulated in a variety of 
tools such as the Compendium of Environmental Stewardship Practices in 
Construction and Maintenance to a 30-page highway sustainability 
checklist from planning to operations--in both of which I am proud to 
say PB, and I personally, have been involved.\1\ They are evidenced by 
the cooperative Green Highways Partnership advanced by EPA and FHWA as 
well as several State DOTs.
---------------------------------------------------------------------------
    \1\ The referenced compendium is a research report under the 
National Cooperative Highway Research Program (NCHRP 25-25 (4) ) and 
can be found on the website of AASHTO's Center for Environmental 
Excellence at: http://environment.transportation.org/
environmental<INF>-</INF>issues/
construct<INF>-</INF>maint<INF>-</INF>prac/compendium/manual/ The 
referenced checklist was developed by PB and recognized by AASHTO in 
its 2007 National Competition Award for Transportation Professionalism. 
The checklist may be accessed by contacting Hal Kassoff at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d5beb4a6a6bab3b395a5b7a2baa7b9b1fbb6bab8">[email&#160;protected]</a>
---------------------------------------------------------------------------
    Clearly the state-of-the-art is advancing at a rapid pace as 
demands for kinder and gentler infrastructure projects increasingly 
prevail.
    Perhaps the greatest barrier to sustainable highways lies with the 
motor vehicles that use them and in particular, the carbon foot print 
and related air quality and climate change issues that arise. A 
sustainable highways concept that ignores motor vehicle issues 
represents just part of the puzzle.
    A second barrier involves land use decisions that exploit and 
ultimately degrade highway service and quality of life through strip 
development and sprawl that discourage walking and use of alternative 
modes. Land use planning, zoning and utility location decisions must be 
made in conjunction with transportation to shape a more coherent and 
sustainable approach to growth.
    Finally, as a way to simultaneously induce as well as measure 
sustainability outcomes we can apply a framework known throughout the 
world of sustainable development (mostly outside the United States) as 
the ``Triple Bottom Line''--a framework to set targets, measure 
progress, and evaluate whether and to what extent better than before 
outcomes are indeed achieved as we pursue a robust economy, a healthy 
natural environment, and an enhanced quality of life. The triple bottom 
line has the potential to offer incentives and inducements to public as 
well as private sector decision-makers to pursue sustainability 
strategies and initiatives without mandating the details of how to 
achieve desired outcomes. I would strongly recommend research into the 
best ways to apply this tool in the United States.
    In sum the goal of sustainable highways may at first sound like an 
oxymoron, but in reality represents an opportunity whose time has come.

                       Biography for Hal Kassoff
    Hal Kassoff is a Senior Vice President with PB responsible for 
providing leadership in emerging highway-related practice areas. Mr. 
Kassoff has guided the development of a workshop on Sustainable 
Highways which he has delivered to clients and PB professionals 
worldwide. He also led the team that produced the NCHRP Compendium of 
Environmental Stewardship Practices in Construction and Maintenance, 
and was recognized by AASHTO with an award for developing a Highway 
Sustainability Checklist. Mr. Kassoff led a team that produced PB's 
reference guide for Concepts in Contextual Highway Design as well as a 
training seminar in Context Sensitive Solutions.
    Prior to joining PB, Hal spent 25 years with the Maryland 
Department of Transportation, including six years as Director of 
Planning and Preliminary Engineering and 12 years as State Highway 
Administrator. During Hal's tenure, the Environmental Design Division 
was established and SHA was recognized for its aesthetic and 
environmentally sensitive bridges and highway designs.
    Hal has been a frequent speaker and has published a number of 
articles on Context Sensitive Solutions and Sustainable Highways.

                               Discussion

    Chairman Wu. Thank you very much, Mr. Kassoff. Now comes 
the time for questions, and the Chair recognizes himself for 
five minutes.
    Commissioner Adams, you mentioned that there are several 
challenges faced by the City of Portland in implementing its 
green streets initiative, and I would like you to line out, or 
lay out for us what some of those challenges are, how the green 
streets initiative would interact with existing stormwater 
management systems, and that if the green streets initiative 
could have been fully implemented, what the impact would have 
been on stormwater runoff, both in terms of costs and 
effectiveness.
    Mr. Adams. Thank you, Mr. Chair, Members of the Committee. 
Starting in 1994, and for a series of years, including up to 
the last years that I have been Commissioner in charge of 
transportation and environmental services, we have sought 
partnerships with the EPA on a number of green stormwater-
related projects, and indeed, we have achieved some of those 
partnerships with EPA. But I would personally characterize the 
partnerships as, the green transportation partnerships as, in 
addition to the normal requirements of the grey pipe solutions.
    So, for instance, our sewer retrofit, which is a $1.4 
billion digging up of the sewers, big pipes, and everything 
else, when we asked them to supplement some of that grey pipe 
solution for some green stormwater solutions, they said no, and 
in fact, used that as the impetus, one of the impetuses for a 
six year investigation of the City that is still open and 
ongoing today. So, there are parts of EPA that I find to be 
very interested in the partnerships around green stormwater, 
especially related to streets, and there are other parts of the 
Agency where we have experienced quite the opposite.
    I understand the reluctance to put too much reliance on 
green stormwater solutions that don't have, you know, the stamp 
of approval of the EPA, but I would hope that the most recent 
good words that we have heard from the EPA on green stormwater 
would have happened sooner.
    Chairman Wu. Thank you. You referred in your testimony to 
an unclear regulatory environment, and that there might be a 
long series of steps, so that more municipalities or local 
jurisdictions would enact green streets approaches to 
stormwater. What are some of the steps that you think are 
necessary, and what are some of the clarifications, from a 
regulatory perspective, that you think are necessary to promote 
green technologies in stormwater treatment?
    Mr. Adams. Thank you, Mr. Chair, Members of the Committee. 
I think one key issue is, to get to those standards, is to 
support a national program of research and development around 
green infrastructure technology and specifically around green 
transportation stormwater technologies. A national technology 
development program, I think, builds on the EPA's recent green 
infrastructure statement of intent, and your Congressional 
statement of support for green infrastructure.
    Local governments, again, need to know what the measures of 
success are. Mr. Grumbles talked about we are not going. The 
EPA is not going to dictate the solutions, but we need to know, 
you know, what the measures of success are, the results that 
they are looking for, and projects that we can then go after.
    The other is that the specific green transportation 
stormwater tools for Portland should and will be different than 
the same tools in other parts of the United States that have 
different terrains, different climates, different weather 
patterns. So, as--if the EPA would help work with local 
governments and State governments to develop some standards and 
approaches, they need to, in my opinion, they need to do it 
based on the different kinds of terrains that exist in the 
United States.
    The other is, as mentioned by my fellow witnesses up here, 
and this is to really put some rigor to the costs and benefits 
around the green transportation technology. We would welcome 
that. We are seeing savings, and there are parts of our city, 
like a lot of the cities around the United States, where the 
existing sewer infrastructure, the pipes are too small, or 
where there is new development, or an expansion of the city, 
where new pipes have to be laid. What we are experiencing is 
significant savings by not having to go in and put in bigger 
pipes, but implement green stormwater solutions, that keep the 
stormwaters out of the pipe; therefore, we don't have to dig 
them, and we realize significant savings in terms of where the 
city is expanding and not having to put the pipes in under the 
street in the first place to deal with that stormwater runoff 
from the streets saves money for everybody.
    Again, we want to feel assured that what we are doing is 
going to meet with EPA's approval in the future. So, those 
standards, I think, are really key, and agreement among the 
Federal, State, and local governments around some cross benefit 
methodologies would be incredibly useful.
    Chairman Wu. Thank you, Commissioner. My time has expired, 
but at some point in the future, if there are records of, or 
estimates of what potential cost savings might be achieved, the 
Committee would be very, very interested in that information.
    And with that, I turn to the Ranking Member, Dr. Gingrey.
    Mr. Gingrey. Mr. Chairman, thank you. We touched on this a 
little bit before we had to break for votes, but this is, of 
course, extremely, extremely interesting testimony.
    And I think my question before was, pertained to best 
management practices, depending on the environment, and where 
you are, and how much rainfall, but not just the total quantity 
per year. I am not really sure that Oregon gets that much more, 
maybe Georgia has average rainfall is closer to 50 inches per 
year. So, it is more, I think you said 37 for Oregon. But it 
comes in a different way. I am sure we get a lot more 
thunderstorms, and you get a lot more gentle, steady rain that 
everybody likes, and likes to hear at night, particularly, if 
you have got a tin roof on your house. But Florida and Georgia 
are a little bit different.
    And so, I guess the point, and any one of the three of you 
can address this, because Mr. Huffman, obviously, is in the 
business, and Mr. Kassoff, in his testimony, is very 
knowledgeable about this as well, different strokes for 
different folks, I guess is what I am talking about. I know we 
were recently in Hamburg, Germany, looking at all these 
windmills, and the discussion was well, you know, this is 
great, and this is the Germans talking, German scientists, in 
regard to renewable energy sources, and they said well, these 
windmills are great up here in Hamburg on the North Sea, but 
they wouldn't do a whole lot of good on the equator, whereas 
the solar panels would probably be very, very efficient on the 
equator, but those windmills wouldn't get you a lot of bang for 
the buck.
    So, it is this issue of best management practices, 
depending on where you are, and clearly, one size will not fit 
all, and if the Federal Government, and our two previous 
witnesses, Ms. Shepherd and Mr. Grumbles, of course, of the EPA 
and the Federal Highway Department, the bureaucracy tends to 
want to try to squeeze a one size fits all mantra.
    Talk about that for us a little bit, and how we can 
approach it, and Mr. Huffman in particular, the pervious 
concrete, I think, is very interesting, the pictures or the 
slides that you showed, extremely interesting, and how, what 
does that do to the strength of the concrete, you know, over 
the old, traditional, rock solid concrete with rebars and all 
that stuff, and I am looking at something I have never seen 
before. Maybe you could explain that to us, and whether or not 
that would be applicable, also, to asphalt surfaces.
    Mr. Huffman. Thank you, Ranking Member Gingrey, and Members 
of the Committee.
    As it relates to concrete and the one size fits all, the 
bigger product area that is sometimes cast upon us relates to 
porous pavements generally, and within that, there is certainly 
a difference between pervious concrete and some other porous or 
pervious materials. For example, pervious concrete, like its 
counterpart on the asphalt side of the industry, takes large 
stone and sand from our conventional technologies of 
conventional concrete, that is also used with Portland cement 
binder, which provides a very rigid binding material. We take 
the sand out, and we create a void structure. The competing 
material, which is a petroleum-based product, which is 
frequently referred to by highway engineers as flexible 
pavement, uses asphalt as a binder. They have large rocks in 
their conventional product, and they also take the sand out, so 
basically, the products are much the same in terms of larger 
rocks and a binder, with little or no sand.
    The benefits of concrete in that situation, especially, to 
be distinguished from a competing material, is that the rigid 
binder is ideally situated, or positioned, to allow for a 
voided product, with 15 to 30 percent void factors, and stays 
rigid. In respect to your question about strength, yes, it is 
true, as we take the voids out, and allow for decreased 
density, the product does lose some compressive strength. We 
compensate for that by increasing the depth of the structure, 
typically by about a 50 percent factor. So in a parking lot, 
for example, typically, a conventional concrete parking lot is 
four inches in thickness, and with pervious concrete, because 
of the decreased density, we increase the thickness to six 
inches. So, that is the way the technology works.
    Mr. Gingrey. Is it cheaper, and I am not sure exactly how 
you measure it and how you price it, but is it more expensive, 
and I am assuming the answer is yes, to put in your product for 
the long-term benefit? A lot of times, you have got developers 
who are developing strip shopping centers and that sort of 
thing, and the cost is obviously a factor. Do you get 
resistance from that?
    Mr. Huffman. We get resistance because in first costs, 
certainly, the use of a product like pervious concrete, versus 
a conventional pavement material, is going to be somewhat 
higher. The offset, that it greatly advantages the environment 
and the concept of using this, is that because we will 
eliminate conventional stormwater detention on most 
applications, such as parking lots, we will actually save in 
the first costs of construction when we use a material like 
this. For that reason, many big box builders and major shopping 
mall developers, anybody building big parking lots, see this 
very favorably.
    Mr. Kassoff. Ranking Member Gingrey, I would like to 
address your point about the one size fits all issue, in terms 
of how the government might approach this issue of 
sustainability and sustainable highways.
    First, I think we have all learned over the years that 
specifying outcomes, desired end results, and then, leaving 
flexibility to other parties, states, local governments, 
private industry, to figure out how to achieve those outcomes, 
works better than specifying detailed methods, because we are 
such a diverse country, and what works in one place doesn't 
necessarily work in another.
    And then, extending that idea, and we have given an awful 
lot of thought to this idea, of whether you could legislate or 
regulate sustainability into effect. In the highway business, 
and I sense that you have some familiarity with how that works, 
you can call your commissioner, Former President of AASHTO by 
the way, and one of the leading transportation officials in the 
country.
    The principle that has been established for the past 20 to 
30 years under NEPA. NEPA is actually older than that, but what 
had evolved is this idea that when impacts are created by 
transportation facilities, the first order is try to avoid 
them, the second is to try to minimize them, and the third is 
with whatever impacts are minimally necessary, you must 
mitigate those impacts, which means a restoration idea. And it 
engenders an avoidance of harm, and then, a compensation for 
harm by trying to draw even through mitigation. What 
sustainability, and that, by the way, has found its way into 
regulation, and it is appropriate, if we--I like to use the 
term, if we create a mess, our obligation is to clean it up and 
fix it.
    There are serious questions whether that approach alone 
will move us towards sustainability, especially since we have 
started with, as you pointed out, some damage to the 
environment, just by the works we have accomplished over the 
years. We are very proud of these works, but there have been 
these unavoidable impacts.
    The sustainability idea, founded on environmental 
stewardship, which is better than before, transforms the 
mentality from avoiding a negatives approach into a create 
positives. And the create positives approach, I think, can come 
about through, more likely to come about through, a series of 
initiatives and steps that the Federal Government can take, 
other than regulation and hard legislation. It could be 
incentivized, for example. It can be recognized that as the 
Mid-Atlantic Region EPA Region has demonstrated through their 
green highways initiative, that through cooperation they are 
much more likely to achieve a faster turnaround and a better 
end result than by just riding the minimums.
    So, I think what we are looking for is performance outcomes 
rather than methods. In the first instance, a level playing 
field for minimum requirements to avoid, minimize, mitigate, 
and then, an incentivization through articulation of principles 
and policies, right down to some form of recognition that by 
going the extra step, there are benefits to be achieved.
    Mr. Gingrey. Thank you. Thank all of you.
    Chairman Wu. I would like to recognize Dr. Ehlers for five 
minutes.
    Mr. Ehlers. Thank you, Mr. Chairman, and I have to say it 
really warms my heart to hear the testimony. Many years ago, 
when I was a county commissioner, I also chaired the County 
Board of Public Works, and tried to introduce the ideas of 
sustainability in a number of ways, met tremendous resistance, 
particularly from the engineers, who said you know, just 
another do-gooder trying to mess up our profession. 
Fortunately, I am a physicist, so I could tend to argue them 
down sometimes, but not all the time.
    And also, Mr. Chairman, I have to note, since I am a 
scientist, I always try to correlate data I observe, and I have 
noticed something amazing about this committee. A very 
disproportionate number of the witnesses tend to come from 
Portland, Oregon.
    Chairman Wu. It is means as a forward thinking.
    Mr. Ehlers. Yeah. I am having trouble--I haven't quite 
determined the correlation yet, but I will figure it out.
    I just want to comment, the examples you have given are 
primarily from Portland, and Mr. Gingrey talked about Georgia 
and so forth, but what about the frozen North? Michigan has a 
particular problem, and I am from Michigan. We are even worse 
off than Minnesota and Wisconsin, which are to the west, 
because there, it freezes and it stays frozen for four months, 
and then thaws. In Michigan, it freezes and thaws every couple 
of weeks. We have an incredible amount of freeze-thaw cycle, 
which really weakens our systems, and leads to a lot of 
maintenance problems.
    How does pervious material work in a constant freeze-thaw 
cycle? And in particular, if you have a roadway get a lot of 
water in, it freezes very hard at night, and may stay that way 
for several days, what does that do to the permeable surface, 
or the pervious surface, I should say? Any comments?
    Mr. Huffman. I definitely have a comment, Congressman 
Ehlers, and Members of the Committee, thank you.
    The American Concrete Institute and other organizations 
have done extensive studies to determine the freeze-thaw 
durability of previous concrete, in particular, and we have 
mostly empirical data, but there are laboratories at 
universities across the country that are evaluating it also 
under laboratory conditions. And their findings are very 
supportive of its use for freeze-thaw durability climates.
    I can assure you that before major big box builders went in 
to a city like Denver, which they claim to have more cycling 
than anybody in the country, but there are some other places 
that would make the same claim, they looked very carefully at 
this technology, and with their consultants, they determined 
that the data that we presented was sufficient, and it is being 
well proven in the field in a number of, in all applications 
that we know of, and after probably more than ten years at 
various locations around the country, we are not aware of any 
suspected deterioration anywhere due to freeze-thaw cycling 
with pervious concrete.
    Mr. Ehlers. Up in Eastern Michigan?
    Mr. Huffman. I think on a very limited basis, that would be 
driveways and sidewalks and such, nothing that would be a well 
documented commercial application.
    Mr. Ehlers. I would be very interested to see. Denver, in 
spite of the fact they claim everything, certainly has big 
swings in the freeze-thaw cycle, but they have far less 
frequent freeze-thaw cycles than the Upper Midwest does, so 
well, when you find some data, or you find some people in 
Michigan, I would be very interested, if you encounter that 
some time in the future.
    Mr. Huffman. Yes, sir.
    Mr. Ehlers. With that, Mr. Chairman, I yield back.
    Chairman Wu. Thank you. Mr. Huffman, let me follow up on 
that research, or research and development question, and with 
respect to high traffic or high use areas. Are there further 
areas of research that are necessary before permeable pavements 
are used? The examples that you showed earlier are very 
impressive, but those tend to be in parking lot settings. What 
about high use environments like highways?
    Mr. Huffman. Yeah. You are absolutely right. There isn't 
yet enough data to support the use in highway applications, in 
particular. It is the speed of traffic, it is not necessarily 
the loads that are carried in terms of 18 wheelers and such. We 
have actually been able to handle those loads in parking lot 
applications well with pervious concrete. But more study is 
definitely required relative to highways.
    Chairman Wu. Thank you. And Mr. Huffman and Mr. Kassoff, 
are there some challenges in acceptance of this technology by 
buildings and, you know, the construction industry? Are there 
further steps that need to be taken, either in the public or 
private sector, for faster takedown of these technologies?
    Mr. Kassoff. The national organization that all of the 
State Departments of Transportation belong to, AASHTO, we have 
mentioned it several times, has a national testing program. 
Each state has its own laboratories, but they have a more 
efficient, integrated approach in recent years for industry to 
bring products for testing and evaluation, and I think as, 
again, we look for outcomes and we leave industry with 
flexibility, the need for those testing programs is even 
greater. The mechanisms are definitely there.
    There is no question that more research into the hard 
technology is needed, as well as the application of the 
institutional framework of Triple Bottom Line that we mentioned 
earlier. But yes, that would all contribute to advancing 
sustainability in infrastructure more rapidly.
    Mr. Huffman. Chairman Wu, thank you. I would like to add 
that the major owners in private enterprise are generally 
supportive of this technology, and what happens is when they 
move down to the regional and local level, they very often are 
faced with regulators who just are not yet aware of the 
technology, in spite of the fact that it is an EPA best 
management practice for first-flush pollution mitigation, and 
the EPA is very supportive. Many of these agencies don't have 
BMPs relating to low impact development, much less pervious 
concrete, and as they transition in that direction, we will 
expect that they will find the means to become knowledgeable 
enough to be positively responsive.
    Chairman Wu. So, that local level of regulation is also 
very important in the takedown of this technology.
    Mr. Huffman. Absolutely, sir.
    Mr. Kassoff. And I would just add, that in addition to 
regulation, I think part of what Mr. Huffman is talking about, 
and I would second, is education. It is a broadening of the 
horizons of what is possible, so that the engineers that 
Congressman Ehlers encountered in the future are engineers who 
are seeking out these alternatives and have places to go for 
referents to find that they do work.
    Chairman Wu. Commissioner Adams, you showed me some 
residential developments, which were truly outstanding, and the 
thoughtfulness with which they planned out the disposition and 
the flows of groundwater. Some developers do that, some 
developers don't do that. What are some of the factors that go 
into that private sector developer decision, and what can we do 
to encourage more residential development that uses green 
street concepts?
    Mr. Adams. Thank you Mr. Chair. I think we in the local 
level in Portland, as I touched on earlier, have been first 
doing our own research and development, so that we can prove to 
ourselves and the private sector that the green stormwater 
approach works, whether it is on the public right of way or on 
the private side.
    We also regulate. We have a stormwater development manual 
that, for new construction, establishes that minimum amount of 
a minimum green stormwater approach to new development or major 
renovation of existing buildings. But then, we also try to--we 
don't like to rely just on regulations. Our preference is to be 
partners with the private sector, because it can be a win-win.
    When a developer develops in a manner that takes existing 
stormwater off the system, that saves us money. In the short-
term it saves us money because many of our pipes are 80, 90 
years old, and therefore, inadequate or too small to handle the 
increased density of the City of Portland. We will also partner 
with developers by paying them a portion of the cost to do a 
green stormwater development or treatment of their parking lots 
and of the development that they are looking at, because we 
actually make it back in savings over a very defined and a 
pretty quick period of time.
    So, in some ways we have actuarial sort of experience now 
with how much we can incent the private sector to do the right 
thing, and when we will get, when the ratepayers, the city's 
ratepayers for the sewer agency actually will get that benefit 
back.
    Chairman Wu. Thank you very much. Dr. Ehlers, further 
questions.
    Mr. Ehlers. Just a follow up, and then, I think we will all 
be wrapped up here.
    Mr. Kassoff, you have gotten off relatively free so far. I 
just wanted to pick your brain about, since you have a lot of 
background in State DOTs and AASHTO. I would like some idea 
from about, first of all, what kind of barriers do you run into 
when advocating these new approaches? Can you also tell the 
Committee about how these group efforts that we are talking 
about here play into the green highway R&D and implementation 
efforts?
    Mr. Kassoff. I think the principal barrier is one of lack 
of awareness and, in some cases, leadership. When we have 
leadership that says we are going to be green, and we are 
moving in the direction of sustainability, and we are going to 
challenge you, the engineers in our agency, to come up with 
different ways to achieve that, the juices start flowing. 
Actually, people move out of their comfort zone and create 
solutions.
    And we have seen this in case after case. Oregon is a State 
that is a leader in this regard, as is Washington State, New 
York, and my home State of Maryland. So, it is very much a 
cultural and leadership type of issue. And it is a matter of 
comfort zone. It is a matter of where the central tendency is, 
as a physician, and you, as a physicist I should say, you 
understand that. If the central tendency is to just repeat what 
you have been doing in the past in your comfort zone, that is 
where you remain, but if the central tendency, because it is 
part of the organization's culture, is to experiment, to try to 
fulfill a broader purpose, such as sustainability outcomes, or 
green outcomes, then that is the way the engineers will want to 
move.
    Engineers are problem-solvers, and I think they thrive on 
challenges. Just going back to the same old manuals and the 
same old practices, which don't achieve these new expectations, 
is not the height of engineering to most professionals.
    Mr. Ehlers. My personal experience, most of the opposition 
came not so much from the engineers, once they understood what 
was happening to the field, but from local government leaders, 
who are afraid of headlines about this wonderful new project 
that came in 25 percent over budget, et cetera, and that is the 
big fear. And so, it tends to spread rather slowly, but the 
best thing is to have success, present papers at national 
conferences, the National Association of Counties, the 
Municipal League, et cetera, and that then convinces them.
    I have no further questions, Mr. Chairman.
    Chairman Wu. Well, I thank you for that comment, and I am 
glad that Commissioner Adams has had a platform to talk about 
some local successes. Unless Dr. Gingrey comes back from the 
Floor in the next few minutes, or unless Dr. Ehlers has any 
further questions, I only have one further inquiry, and that is 
for Mr. Huffman and Mr. Kassoff.
    What sources of federal support, if any, whether it is 
grants or technical assistance, or other forms, have been of 
assistance to you in developing green streets technology and 
permeable pavement technology, and how can we adjust those 
federal efforts to be best supportive? And Commissioner Adams, 
if you want to take a shot at that also, you are very welcome 
to.
    Mr. Huffman. I am not sure where I have seen the benefit 
directed directly from the funding, but what we do need, as Mr. 
Kassoff said earlier, is that it needs to focused on education, 
and the primary barrier is just that people don't understand. 
The regulators are not necessarily taking negative positions. 
They are just not aware of the technology, and so, the 
technology is unaddressed. So, for an owner making a proposal 
for a project, he sees it as a challenge to the permitting 
process to be allowed to use any new technology, and it is just 
easier not to submit.
    Mr. Kassoff. The Federal Highway Administration has a 
number of sources, and I have to say that in recent years, they 
have been in tune with this idea of environmental stewardship 
and context sensitive solutions, both of which are key 
components of what we are talking about here, green 
infrastructure.
    On the research end, they have supported research into this 
area. On the educational end, they work with universities. They 
have the Council of University Transportation Centers that they 
offer grants to. We would like to see the universities picking 
up more on what we call context sensitive solutions. Civil 
engineering programs around the country have definitely moved 
in the green direction, since someone as old as I am went to 
civil engineering school. So that has been a positive 
development. But this idea of contextual design, that the one 
size does not fit all, and we have to achieve these sustainable 
outcomes by applying our most creative engineering tools, that 
is something that needs to be educated.
    Finally, in the regular Federal Highway Program, the 
Federal Highway Administration, through initiatives like the 
Green Highway Partnership, is saying funding is available for 
this kind of thing. The Green Highways Partnership has adopted 
a pilot project, actually not 25 miles from where we are 
sitting. It happens to be U.S. 301 in Southern Maryland. It is 
a corridor in great need of some improvement and has now become 
the testbed for green highways and Green Highways Partnership 
to see if the State DOT, which in Maryland, has been extremely 
progressive. The EPA, which has been a leader in this regard, 
Federal Highways, who has put funding into this Green Highways 
Partnership and has been very supportive, and local 
governments, all in combination with the private sector, can 
make it work.
    So, we are keeping our fingers crossed that we will have a 
successful outcome in that regard, but they have made their 
funding available, and of course, there is not sufficient 
funding overall to accomplish all of these objectives. That is 
for sure.
    Chairman Wu. Thank you, Mr. Kassoff, and Commissioner 
Adams, you may have the last word, if you so choose.
    Mr. Adams. Thank you, Mr. Chair. Just to, I think, 
reiterate some points that were touched on in your opening 
comments, and that I sought to underscore in my testimony, and 
as well, has been mentioned by the other witnesses.
    The effort at green transportation infrastructure has 
really been in a research and development phase, a piloting 
phase, and that has been very necessary. What I hope happens is 
that we go from there to the strategies and the investment to 
make it as a way of doing business. In terms of local 
governments, what they really need to see from the federal 
regulators is very explicit green lights that this is not just 
okay to experiment with, but this is okay to begin to have as 
part of the way of doing business and managing the 
transportation system.
    Chairman Wu. Thank you very much, and I want to thank all 
the witnesses for your testimony, and also, for your 
forbearance with the interaction of the Committee schedule and 
the Floor schedule.
    The record will remain open for additional statements from 
the Members and for questions and answers to any follow-up 
questions the Committee may ask of the witnesses.
    The witnesses are excused, and the hearing is now 
adjourned.
    [Whereupon, at 4:45 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Gloria M. Shepherd, Associate Administrator, Office of 
        Planning, Environment, and Realty, Federal Highway 
        Administration, U.S. Department of Transportation

Questions submitted by Chairman David Wu

Q1.  How does FHWA coordinate with the EPA to ensure that new 
technologies fit into the existing regulatory framework for stormwater 
management? Does FHWA provide testing and evaluation results that can 
be used to demonstrate a technology's compliance with EPA's 
performance-based standards? Do you coordinate with EPA to identify 
research needs and information gaps?

A1. FHWA and EPA coordinate at the national level through initiatives, 
such as the International Best Management Practices (BMPs) Database, 
which contains carefully screened BMPs and information on the 
appropriate circumstances for their use. We are working with a 
coalition of organizations to fund and manage the database, providing 
data analysis, and developing protocols for integrating low impact 
development techniques into the database. The work is ongoing and the 
database is currently accessible at the web site: http://
www.bmpdatabase.org.
    At the State level, State departments of transportation (DOTs) 
coordinate with State water quality agencies, as well as EPA regional 
offices, to determine if newly developed technologies will meet 
regulatory standards. FHWA and the State DOT, in consultation with 
State and federal water quality regulators, determine if the technology 
will be appropriate for use in a highway setting. Safety and 
engineering considerations also help to determine whether a particular 
technology is appropriate for use on a project. For example, many 
current low-impact development technologies, such as rain gardens, may 
be appropriate for low volume residential streets, but cannot safely 
handle the requirements of stormwater removal for an urban highway.
    FHWA coordinates research needs at the national level with EPA 
through professional organizations, such as the Transportation Research 
Board (TRB) and the National Cooperative Highway Research Program 
(NCHRP). There are several studies done through NCHRP that are 
coordinated with EPA. One report of such a study is ``Evaluation and 
Best Management Practices for Highway Runoff Control, NCHRP 25-20(1).'' 
This report focuses on improving the scientific and technical knowledge 
base for the selection of BMPs through a better understanding of BMP 
performance and application. It documents the extensive research on the 
characterization of stormwater BMPs and the factors that influence 
runoff, such as land use practice, hydraulic characteristics, regional 
factors, and performance evaluation. Another report is entitled ``State 
Transportation Agency Strategies to Address NPDES Phase II 
Requirements, NCHRP 25-25(16).'' This report looks at how State 
transportation departments are addressing compliance with National 
Pollutant Discharge Elimination System (NPDES) Phase II requirements. 
The research looked at staffing and organizational structure throughout 
the entire agency regarding NPDES Phase II compliance for construction 
activities, as well as the stormwater management program, as regulated 
under the Municipal Separate Stormwater Sewer System (MS4). The report 
also examines inspection systems and environmental management systems, 
as well as recent trends concerning enforcement and methods for 
achieving compliance.
    We also coordinate our proposed research initiatives under the 
Surface Transportation Environment and Planning Cooperative Research 
Program (STEP) with other federal agencies, including EPA. Research 
comments from other federal agencies are given the highest priority in 
establishing our STEP research goals. FHWA is working with EPA on the 
Mid-Atlantic Green Highways Partnership and the Great Lakes Initiative, 
both of which have a stormwater research and technology component. FHWA 
also supports the work of the American Association of State Highway and 
Transportation Officials' (AASHTO) Transportation Environmental 
Research Ideas data base, which is a repository for ideas on needed 
environmental research. We are encouraging other federal agencies, 
including EPA, to contribute ideas to this data base.
    Another way that we are coordinating with EPA is through the Eco-
Logical grant. FHWA currently has an open solicitation that will 
provide $1,050,000 in grant funds to support pilot projects, which 
exemplify integrated planning and ecosystem-based approaches to 
developing transportation infrastructure. EPA will be participating in 
the technical review of the pilot project proposals, along with FHWA 
and representatives from other agencies that participated in writing 
the publication entitled Eco-Logical: An Ecosystem Approach to 
Developing Infrastructure Projects. It is anticipated that this joint 
review will identify additional research gaps and will provide 
incentive for other agencies to join FHWA in funding future Eco-Logical 
grants.

Q2.  Of the State Planning and Research program funding, how much is 
spent specifically on green transportation infrastructure R&D? Does 
FHWA work with states to help them identify potential research 
opportunities in the field of green transportation infrastructure?

A2. Section 505 of title 23, United States Code, requires that States 
set aside two percent of the apportionments they receive from the 
Interstate Maintenance, National Highway System, Surface 
Transportation, Highway Bridge, Congestion Mitigation and Air Quality 
Improvement, Highway Safety Improvement Program, and Equity Bonus 
programs for State planning and research (SP&R) activities. Of this 
amount, states must allocate 25 percent for research, development, and 
technology transfer activities relating to highway, public 
transportation, and intermodal transportation systems.
    States select research projects to be funded with SP&R funds to 
address State and local needs. However, FHWA Division Office staffs 
have a continuing relationship with State research staffs and may 
provide advice and guidance as they develop the projects and carry out 
their research program. FHWA encourages States to use some of their 
SP&R funds to participate in national research efforts, such as 
Transportation Research Board (TRB) workshops. In addition, FHWA also 
has helped to bring States together to address regional research needs. 
The Mid-Atlantic Green Highways Partnership (GHP) is one example of 
such FHWA coordination.
    State departments of transportation have used SP&R funds for 
substantial research into environmental issues, including regional 
stormwater issues and development of best management practices suitable 
for the particular issues in that locality or state. At least 20 states 
currently have active projects related to stormwater management. One 
example of ongoing research related to stormwater at the State level is 
an ``Investigation of Stormwater Quality Improvements Utilizing 
Permeable Pavement and/or Porous Friction Courses,'' which is being 
sponsored by the Texas DOT using SP&R funds. The Wisconsin Department 
of Transportation is engaged in a cooperative research project with the 
U.S. Geological Survey to evaluate stormwater treatment devices. The 
Oregon Department of Transportation is funding a project to develop 
water quality monitoring methods or testing protocols for different 
types of water quality facilities. Also, the District of Columbia DOT 
is also conducting an evaluation of best practices for the reduction of 
transportation-related stormwater pollution in Washington, DC.

Q3.  In your testimony, you discussed FHWA's Infrastructure Research 
and Technology program, which supports R&D for innovative highway 
technologies. For those technologies considered ``green,'' what 
criteria did you use to determine that the technology is 
environmentally friendly? How do life cycle environmental costs affect 
whether a technology is considered ``green''? What do you consider to 
be included in life cycle costs? What are FHWA's plans for future 
research in this area?

A3. FHWA characterizes infrastructure technologies as environmentally 
friendly, if the technology will mitigate environmental impacts or 
contribute to environmental improvements. For example, FHWA considers 
cantilever construction an environmentally friendly technology, because 
it can reduce the amount of ground, water, and river bed disturbance, 
as well as minimize noise, dust, and erosion. Cantilever construction 
also can reduce construction time, which minimizes the environmental 
impacts of a project.
    Life cycle cost analysis compares the life cycle costs of two or 
more alternatives for a project, enabling the lowest overall cost 
alternative to be identified. Under life cycle cost analysis, selection 
of a design alternative is not based solely on the lowest initial 
costs, but also considers all the future costs (appropriately 
discounted) over the project's usable life. Generally, the costs 
associated with construction, rehabilitation, and maintenance 
activities of each alternative being compared are identified, 
monetized, and then discounted to their present value. Life cycle cost 
analysis typically does not affect whether a particular technology is 
considered green.
    However, through the Highways for LIFE program, FHWA is seeking 
ways to build highways and bridges faster and safer (both design and 
construction), to improve quality, and to reduce costs. Decreasing the 
time a project takes to construct, while using environmentally 
sensitive methods and increasing the longevity of a section of highway 
or bridge, means there should be fewer adverse impacts to the 
environment resulting from construction or reconstruction work. In this 
way, FHWA is promoting longer lasting technologies, which in turn can 
reduce environmental impacts. Currently, there are 10 projects funded 
under Highways for LIFE.
    FHWA's infrastructure research and technology programs are 
examining a number of technologies with potential positive 
environmental benefits. For example, FHWA is studying numerous 
technologies to optimize pavement performance and improve the quality 
of system performance and surface characteristics that are likely to 
reduce adverse environmental impacts. This research includes innovative 
pavement technologies, long-term pavement performance, ``warm mix'' 
technologies, quieter pavement technology, and the use of recycled 
materials in pavement. We also are assessing prefabricated technologies 
and other accelerated construction technologies (such as cantilever 
construction), which reduce environmental impacts by moving much of the 
construction process to controlled environments and reducing the time 
of construction. Research on reducing the frequency and duration of 
construction work zones likely will have environmental benefits as 
well.

Questions submitted by Representative Phil Gingrey

Q1.  Can you describe FHWA's role in the Green Highway Partnership? How 
did your agency get involved in this activity and what do you expect 
your role to be in future years? Will FHWA request funding for this 
partnership beyond the current fiscal year?

A1. FHWA is one of the original partners in the development of the Mid-
Atlantic Green Highways Partnership, along with Region 3 of the EPA. 
FHWA provided the initial funding for the initiative. To date, we have 
dedicated $825,000 to this effort, along with staff participation in 
initial workshops and development of the concept. We also participate 
on the sub-teams of recycling and reuse, stormwater, and conservation 
planning. FHWA employees from both headquarters and Division Offices in 
the Mid-Atlantic region are engaged in the Green Highways Partnership.
    In 2004, EPA Region 3 and FHWA's Maryland Division Office began 
discussions about hosting a regional forum on streamlining, 
stewardship, and watershed protection. These discussions resulted in 
June 2005 executive planning meeting in Philadelphia, PA, where 50 
senior-level executives from the public and private sectors came 
together to define and establish a vision for Green Highways. The 
initial organizing efforts culminated with a Green Highways Forum held 
on November 8-10, 2005, in College Park, MD. The forum brought together 
several hundred federal, State, and local transportation and 
environmental officials, as well as professionals from the private 
sector and trade associations. A formal Green Highways Partnership 
resulted from the forum.
    FHWA expects to continue its co-leadership role in the Mid-Atlantic 
Green Highways Partnership. Our goal is to evaluate if such a 
partnership can improve both environmental review and project 
timeframes. The ongoing Green Highways Partnership pilot project on 
Maryland 301 should provide us with more information to determine if 
better integrated planning, improved recycling and reuse, and the use 
of the most current technologies on a project can lead to the 
regulatory flexibility needed to make a partnership of this nature a 
benefit to the transportation community, as well as to the environment. 
If the Mid-Atlantic Green Highways Partnership provides such a benefit, 
our future role may be to work with EPA to extend the partnership to 
other regions.
    FHWA intends to continue our financial and staff support of the 
Mid-Atlantic Green Highways Partnership in FY08 through the Surface 
Transportation Environment and Planning Cooperative Research Program 
(STEP).

Q2.  In his testimony, Mr. Kassoff urged federal officials to consider 
how they might promote a focus on improving environmental quality 
rather than mitigating potential damage. What incentives does FHWA have 
in place for projects to improve overall environmental quality rather 
than simply meet regulations meant to avoid harm?

A2. Environmental considerations beyond regulatory requirements are 
reflected in transportation plans and projects based on the interests 
of the community, coordination with environmental groups and State and 
federal agencies, and input from the public. FHWA has made a 
significant investment in programs to promote integrated planning and 
context sensitive solutions to both avoid impacts to sensitive 
resources and to design transportation facilities that are compatible 
with the important resource and community needs in an area.
    FHWA works to showcase important ecosystem-based mitigation and 
enhancement projects through initiatives such as the Exemplary 
Ecosystem Initiatives (EEI) program. FHWA currently has 43 designated 
EEIs, with a goal of 50 EEIs for 2007. EEIs clearly demonstrate how an 
ecosystem approach (e.g., watershed-based mitigation) will generate 
benefits, such as greater predictability in transportation project 
timelines, ability to address multiple project impacts in a 
comprehensive manner, more effective habitat conservation, and 
elimination of temporal loss of wetland and riparian areas. To be 
designated as an EEI, the scope of the ecosystem initiative must be 
clear with respect to:

        <bullet>  the resources in question and the need for innovative 
        solutions to preserve and enhance them;

        <bullet>  the overall goals, both from an ecosystem perspective 
        and a highway perspective, that were met by the solution; and

        <bullet>  the methodology used to bring about the solution 
        (e.g., effective use of stakeholder involvement, innovative 
        partnerships, and funding mechanisms).

    FHWA also sponsors the biennial Environmental Excellence Awards for 
ecosystem-based mitigation and conservation. Additionally, FHWA is 
funding the Eco-Logical pilot projects grant, the purpose of which is 
to support pilot projects that exemplify integrated planning and 
ecosystem-based approaches to developing transportation infrastructure.
                   Answers to Post-Hearing Questions
Responses by Benjamin H. Grumbles, Assistant Administrator for Water, 
        U.S. Environmental Protection Agency

Questions submitted by Chairman David Wu

Q1.  How does EPA determine if a technology fits into the definition of 
green transportation infrastructure? How do life cycle environmental 
costs affect whether a technology is considered ``green''? What do you 
consider to be included in the life cycle costs?

A1. ``Green Infrastructure'' is a relatively new and flexible term, and 
has been used by various speakers and writers in various contexts. EPA 
has recently defined green infrastructure as a way to protect surface 
waters and drinking water supplies, reduce drinking water and 
stormwater treatment costs, reduce urban heat island impacts, and 
provide more sustainable water resource management.
    Similarly, ``green transportation infrastructure'' is not yet a 
defined term of art. However, EPA's Green Highways Partnership has 
focused on projects that go beyond minimum standards set by 
environmental laws and regulations and integrates transportation 
functionality and ecological health to provide a net increase in 
environmental functions and values of a watershed, while improving upon 
sustainability for both the environment and transportation.
    Green highways may employ a number of practices towards achieving 
this outcome, including the use of permeable, low-impact practices that 
provide high performance in reducing stormwater impacts, thus 
preventing stream bed scouring, erosion and sedimentation and toxic 
pollutant runoff into streams and rivers; construction with recycled 
materials, thereby reducing landfill usage; and design using cutting-
edge technologies, such as wildlife corridors and strategic 
conservation to protect critical habitats and ecosystems from the 
encroachment of highway infrastructure.
    At this time EPA is working with several organizations to improve 
our understanding of the costs and benefits of these technologies, 
including their operation and maintenance needs and constraints due to 
local ordinances and building codes. While some of this work is being 
conducted through research opportunities, EPA is also participating in 
data gathering and analysis through demonstration pilots and 
benchmarking studies with our State and local government, non-
government, academic and industry partners. Some elements that are 
being examined include application, planning, production, operation, 
and maintenance costs for these technologies, as well as regulatory 
acceptance, market-based incentives and the benefits derived through 
cleaner water and air, reduction in energy consumption, and increased 
economic growth.

Q2.  How is data gathered on the effectiveness of particular 
transportation infrastructure technologies for protecting water quality 
or managing runoff? How does EPA use the data and information produced 
by the Federal Highway Administration to determine whether a technology 
is environmentally beneficial? What additional data is needed, and 
which organizations or agencies are best situated to perform additional 
testing and evaluation? How do these technologies contribute to the 
Administration's overall energy use reduction goals?

A2. Much of the data EPA has regarding the effectiveness of green 
technologies and green infrastructure practices has been the result of 
research and intensive monitoring conducted by a variety of Federal, 
State and local government agencies, academic institutions, non-profit 
and industry organizations and citizens. The data that is collected, by 
the Federal Highway Administration (FHWA) and other entities, is shared 
publicly through various mechanisms, including the International 
Stormwater Best Management Practices Database and assorted 
publications. Through sharing information and data on best practices, 
EPA is promoting the use of green technologies, where appropriate, 
throughout the country.
    EPA recognizes the importance of sound science in the decision-
making process, including the decision to use green technologies. We 
are supporting a robust research program to study the efficacy of many 
green practices in varied settings. As indicated above, EPA is working 
with several entities to improve our understanding of the costs and 
benefits of these technologies. We believe that the information derived 
from this, and other independent research efforts, will demonstrate the 
energy savings achieved from green infrastructure projects such as 
green roofs and increased tree cover, therefore placing even greater 
emphasis on the use of these technologies. In addition, EPA believes 
there is great potential for green infrastructure practices to reduce 
cooling costs and reduce pumping and treatment costs associated with 
managing stormwater. Still, there is always more that could be done and 
the role that other organizations can play in the development of this 
research is limitless.
    In order to achieve successful outcomes in the evaluation, 
application, and understanding of green transportation infrastructure 
technologies, significant collaboration is needed to piece together 
aspects of a wide variety of regulations, procedures, procurement 
methods, and specification requirements. A functioning partnership is 
essential to develop a myriad of timely solutions, particularly given 
the need for broader outreach and awareness. A current focus of the 
Green Highways Partnership is to implement pilot projects that 
demonstrate the concepts of green transportation infrastructure 
practices visibly and tangibly. Pilot projects will inform and inspire 
the implementation of practices and products that are innovative, 
efficient, cost effective, and environmentally sound. The anticipated 
outcome of the pilots is to demonstrate sustainable solutions. Pilots 
also will serve to improve partnerships and research efforts, while 
broadening the body of knowledge on green transportation technologies.

Ouestions submitted by Representative Phil Gingrey

Q1.  Can you describe EPA's role in the Green Highway Partnership? How 
did your agency get involved in this activity and what do you expect 
your role to be in future years? Will EPA request funding for this 
partnership beyond the current fiscal year?

A1. EPA is the primary sponsor of the Green Highways Partnership (GHP). 
The roots of the Green Highway Partnership run back to 2002, when the 
Federal Highway Administration (FHWA) named environmental stewardship 
and streamlining one of three ``vital few'' goals. This marked the 
beginning of a new era; substantial FHWA investments and improved 
coordination with EPA resulted in a wave of environmentally-focused 
programs and documents such as Context Sensitive Solutions, the 
Exemplary Ecosystem Initiative, and Ecological: An Ecosystem Approach 
to Developing Infrastructure Projects. Recognizing the need to 
consolidate the myriad of aspects involved in the ``greening'' of U.S. 
highways, EPA set out to forge a new and lasting partnership with FHWA 
and, thus, the Green Highways Partnership was formed.
    Providing much of the leadership, conceptual design, organizational 
support, and vision for this multi-disciplinary effort, EPA is 
committed to progress in the development of green highways, not only in 
the Mid-Atlantic but in other regions across the Nation. EPA has 
committed over $1.4 million to this innovative program. The success of 
the Partnership, however, has not been the result of any one individual 
effort. EPA has combined its resources with that of our partners to 
leverage approximately $20 million dollars to reach the program's goal 
of ``beyond compliance, better than before.'' Through EPA's green 
infrastructure and sustainable infrastructure strategies, we intend to 
continue focusing attention on greening our nation's highways. To this 
end, EPA will pursue all opportunities to support the advancement of 
this effort.

Q2.  In your testimony you emphasized the need for cooperation among 
academia, private industry, and the EPA Research Office to compile data 
regarding the efficacy of green technologies in various contexts. Does 
a coordinating mechanism currently exist to guide this research?

A2. Certainly there is a need for cooperation among the numerous 
entities with a stake in implementing green technologies. Through the 
GHP, EPA has been working cooperatively with a variety of public and 
private entities, including FHWA, to ensure that our research efforts 
complement one another. While EPA will make its research priorities 
known through our website, many times we reach out to our partners to 
seek their counsel and coordinate our efforts. In turn, agencies and 
organizations, such as FHWA and the American Association of State 
Highway Officials, provide EPA with notice to submit proposals for 
environmental research ideas and opportunities to collaborate on 
research needs. Generally, with EPA, much of this activity is conducted 
via the web. However, through the network of Green Highways partners, 
we have expanded data and information gathering efforts through which 
to share and evaluate green technologies and their performance in 
supporting water quality improvements and other environmental benefits. 
This venue includes, but is not limited to the following: monthly and 
quarterly conference calls and meetings, design charrettes, workshops, 
conferences, newsletters and other published articles, webcasts, web-
based training, student-supported programs and internships (college/
university), and jointly-funded studies.

Q3.  In his testimony, Mr. Adams asked federal regulators to provide 
``very explicit green lights that this is not just okay to experiment 
with, but this is okay to begin to have as part of the way of doing 
business.'' Your written testimony and the March 5th memo to the 
Regional Administrators assert EPA's acceptance of these approaches. 
Does the EPA plan further actions to increase awareness of green 
infrastructure approaches and there use?

A3. EPA is providing clarification to regional offices and State NPDES 
programs that green infrastructure technologies, may, in the 
appropriate circumstances, be used in lieu of more traditional 
wastewater treatment collection and control technologies for meeting 
water quality objectives in permits and settlements. As with any 
regulatory program, the necessary accountability provisions will be 
needed (e.g., Do models or data reasonably predict that standards will 
be met? Are appropriate monitoring or evaluation provisions in place?).
    In addition, EPA is developing model municipal separate storm sewer 
system (MS4) language that can be used to provide permitting 
authorities and permittees alternatives to traditional stormwater 
management measures. We are also documenting examples of permits, 
combined sewer overflow long-term control plans, and enforcement 
agreements that have included green infrastructure provisions. We are 
also drafting some general information on how the permitting and 
enforcement processes can more easily facilitate more wide-spread use 
of green infrastructure. EPA is actively encouraging all permitting and 
enforcement authorities to harness opportunities where green 
infrastructure approaches are appropriate and effective solutions to 
water quality issues.

Q4.  In his testimony, Mr. Kasoff urged federal officials to consider 
how they might promote a focus on improving environmental quality 
rather than mitigating potential damage. What incentives does EPA have 
for projects to improve overall environmental quality rather than 
simply meet regulations meant to avoid harm?

A4. EPA agrees with Mr. Kasoff that we should strive not only to 
mitigate potential damage but also to improve environmental quality. As 
EPA Assistant Administrator Grumbles explained in his March 5, 2007, 
memorandum, ``Using Green Infrastructure to Protect Water Quality in 
Stormwater, CSO, Non-point Source and Other Water Programs,'' green 
infrastructure provides many positive environmental and social 
benefits, including: cleaner water, enhanced water supplies (stormwater 
percolation through the soil to recharge the groundwater and the base 
flow for streams); cleaner air, reduced urban temperatures; increased 
energy efficiency; community livability and aesthetics; and cost 
savings. EPA supports local communities' efforts to achieve all of 
these goals.
    EPA has a number of programs that focus on the promotion of low 
impact development (LID) and other community greening techniques that 
help local communities to develop and redevelop in a more 
environmentally sustainable manner. Using Clean Water Act Section 319 
grants awarded by EPA, states have focused approximately $10 million on 
the implementation of projects including green roofs, rain gardens, and 
bioswales, as well as projects that protect and restore valued riparian 
and waterfront areas. Similar projects have been funded under the CWA's 
State Revolving Loan Fund. EPA's Brownfield's program has funded 
projects that incorporate green infrastructure into redevelopment 
activities that restore vitality to many urban neighborhoods.
    We believe that our efforts to date are bearing fruit, as we see 
more and more communities around the U.S. working to integrate green 
infrastructure into their programs and policies, such as Chicago's 
commitment to greening the city with green roofs and other green 
practices, and Kansas City's commitment to create 10,000 rain gardens. 
In addition, many cities and states are adopting new regulations and 
policies that require that any new development or redevelopment to 
consider the use of green infrastructure as the first option in 
addressing stormwater that would result from the development.
    EPA supports further acceleration of local communities' use of 
green infrastructure. On April 19, EPA Administrator Steve Johnson 
signed a commitment with a number of partnering organizations 
(including the Natural Resources Defense Council, the National 
Association of Clean Water Agencies, the Low Impact Development Center, 
and others) that expressed the signatories' mutual commitment to 
collaborate on efforts to encourage the use of green infrastructure. We 
are working together expeditiously to develop a joint agenda and to 
begin acting on various items, including developing a research agenda, 
providing guidance and tools that promote the expanded use of green 
infrastructure, analyzing and publicizing the economic and other 
benefits of green development, and other action items. We look forward 
to continuing to expand the number of states and communities throughout 
the country that incorporate LID and other green approaches as critical 
and fundamental components of their development and redevelopment 
policies and programs.
    Lastly, as we mentioned in our response to Question #2, although we 
are still in the data gathering phase with our Green Highways partners, 
we have used these collaborative research and demonstration pilot 
efforts to share and evaluate green technologies and their performance 
in supporting water quality improvements and other environmental 
benefits.
                   Answers to Post-Hearing Questions
Responses by Sam Adams, Commissioner of Public Utilities, City of 
        Portland, Oregon

Questions submitted by Chairman David Wu

Q1.  How has the City of Portland used information on green 
transportation infrastructure technologies provided by federal agencies 
to assist in developing the Green Streets Initiative? As a city 
executive, what strategies would you recommend to the EPA and FHWA for 
making their work on green infrastructure more accessible to local 
government officials?

A1. Portland hasn't had to rely on the assistance of federal agencies 
because the City's green transportation initiatives pre-dated federal 
efforts by several years. For example, our first parking lot swales 
were developed in the late 1980s. Our manual of stormwater technologies 
was first published in 1999. We have been developing and refining green 
transportation technologies continuously for more than a dozen years. 
We recognized, early on, that the City could employ natural systems to 
achieve multiple environmental goals at lower capital costs than 
traditional stormwater infrastructure. Since then, Portland has sought 
opportunities to green our infrastructure whenever practical. Early 
adoption of green technologies has been propelled by overlaying federal 
requirements to protect surface water and ground water resources, 
restore endangered fish populations and restore natural habitats.
    We recommend that EPA and FHWA work with NACWA, NRDC, State and 
local stormwater and transportation agencies, academic institutions and 
private parties to develop regionally-sensitive guides to green 
transportation technologies. These guides would be indispensable to 
communities that are at the early stages of developing stormwater 
management plans to comply with the Clean Water Act. Wherever possible, 
EPA and FHWA should build on the extensive work of existing stormwater 
utilities, actively engage State and local partners in the development 
of stormwater guides, and develop extensive training programs to ensure 
local use of green transportation infrastructure.

Q2.  What are the estimated life cycle cost savings for the City of 
Portland if green transportation infrastructure is used citywide? What 
factors are included in this estimate?

A2. We know that green transportation infrastructure can yield 
construction savings. We also know that green transportation 
technologies can be designed and constructed at savings of 20 percent 
to 63 percent when compared to traditional storm sewer solutions. Our 
most simple and efficient green street technology (curb extensions) 
appears to cost less than half of the cost of sewer separation projects 
in Portland combined sewer basin.
    On the operations side, we expect to see additional savings in 
long-term maintenance costs as our experience increases. We will fully 
document the added value of green technologies as we improve our 
ability to measure and value ecosystem benefits, such as improved air 
and water quality, increased natural habitat, lower energy costs, 
increased carbon sequestration and reduced heat island effects.

Q3.  You recommend in your testimony that the Federal Government should 
support R&D for new green technologies. In your opinion, what are the 
most pressing research needs in the field of green transportation 
infrastructure? Should Federal R&D programs focus more strongly on 
technology development or testing and evaluation? How would the City of 
Portland use the results of the R&D you recommend?

A3. As you are aware, green transportation infrastructure relies on 
natural processes to capture, treat, transport and dispose of 
stormwater runoff. Soils and plants are integral components of green 
technologies. While we are experienced in designing and constructing 
green facilities, we have much to learn about the interplay of soils 
and plants within these facilities.
    We recommend that Federal R&D programs focus on documenting the 
natural functions of green technologies, specifically the performance 
of plants and soils under varied conditions, in varied combinations, to 
achieve varied stormwater management objectives. Investment must be 
made in both testing and development to ensure successful 
implementation of green transportation infrastructure. Research 
undertaken nationally will substantiate the impacts of slope, soil, 
depth to groundwater, and other factors that determine effectiveness. 
Robust monitoring and testing conducted over an extended period of time 
will allow cities to determine the most effective locations, conditions 
and compositions of each type of green technology and provide 
meaningful performance information and guidance about effective 
maintenance regiments.
    Portland invests limited rate-payer resources to test and monitor 
the effectiveness of our green technologies. However, our results are 
specific to the geology, geography and hydrology in Portland. While 
this information maybe indicative of how facilities can be useful, 
success will not be assured without performance information from a 
variety of conditions. Portland will benefit from national research 
that engages State and local stormwater agencies, academic institutions 
and private stakeholders. A broad-based approach to the research will 
produce more comprehensive evaluations and deepen our collective 
knowledge of green technologies. We recommend that all research 
findings be made readily available to all interested parties as the 
research unfolds.

Question submitted by Representative Phil Gingrey

Q1.  During your testimony, you asked federal regulators to provide 
``very explicit green lights that this is not just okay to experiment 
with, but this is okay to begin to have as part of the way of doing 
business.'' Mr. Grumbles' written testimony states, ``EPA believes that 
green infrastructure approaches and practices can be a significant 
component of State's and cities' programs to reduce and control 
stormwater, combined sewer overflows, and non-point source pollution.'' 
This sentiment also appears in his March 5th memo to EPA regional 
administrators. What other actions do you suggest EPA take to meet your 
request?

A1. We applaud Mr. Grumbles' commitment to green infrastructure and 
stand ready to work with the EPA to develop any policies that further 
the use of these green technologies. Mr. Grumbles has given life to a 
fundamental change in the way we think about stormwater, the way we 
manage the built and natural landscapes, and the way we regulate 
watershed health and water quality.
    Portland's success in adopting and advancing green technologies 
depends on a fundamental rethinking of our laws, engineering 
principals, design standards, utility operations and public engagement. 
This rethinking must include EPA and extend to State and local 
governments. Without a close partnership with federal and State 
regulators, municipalities will not be able or willing to expend the 
time and resources to advance this initiative.
    EPA's green infrastructure policies must be guided by measurable 
federal, State and local performance goals. EPA should encourage 
adaptive management to convert learning into continuous improvements, 
and renew its commitment to green technologies through the periodic 
refinement of laws and regulations to eliminate uncertainty and 
obstacles to progress. For optimum success of green technologies, 
commitment to these innovations must be expressed and memorialized in 
laws, intergovernmental agreements and permits that can be sustained 
across federal, State and local administrations.
                   Answers to Post-Hearing Questions
Responses by Daniel J. Huffman, Managing Director, National Resources, 
        National Ready Mixed Concrete Association

Questions submitted by Chairman David Wu

Q1.  Please describe the type of maintenance pervious pavements 
require. With proper maintenance, how long will the pavement maintain 
optimal filtering performance? What are the effects on filtering if 
maintenance is not performed? At the end of the pavement's life cycle, 
can it be disposed of in a conventional manner?

A1. Pervious concrete pavements are infiltration-based systems. Water 
passing through the pavement will carry with it varying degrees of 
soluble and insoluble pollutants and debris. Most of this debris will 
be deposited on or near the surface of the pavement. Optimal 
performance of pervious concrete requires that the void structure be 
maintained to provide sufficient infiltration of stormwater. The 
majority of pervious concrete pavements function well with little or no 
maintenance.
    Maintenance of pervious concrete consists primarily of prevention 
of clogging of the void structure. This can be achieved by vacuum/
sweeping or pressure washing the pavement. Independent studies have 
shown each of these procedures to be effective in restoring the 
infiltration capabilities of the pervious concrete to accommodate 
design storms. Research conducted by the Florida Concrete and Products 
Association, and reported in the American Concrete Institute's 
Committee 522, Pervious Concrete Report, quantifies the extent of 
contaminant infiltration in pervious concrete pavement systems. Five 
existing pervious concrete parking lots were examined in the study, and 
the level of contaminant infiltration was found to be in the range of 
0.16 to 3.4 percent of the total void volume after eight years of 
service. Sweeping the surface of the pervious concrete immediately 
restored over 50 percent of the permeability of the clogged pavement.
    A University of Central Florida (UCF), report titled Construction 
and Maintenance of Pervious Concrete Pavement, published in January, 
2007 documents the findings of a study conducted on eight existing 
pervious concrete parking lots, ranging from six to 20 years of 
service. The sample lots were evaluated to determine the infiltration 
rates of pervious concrete systems that received relatively no 
maintenance. Infiltration rates were measured using an embedded single-
ring infiltrometer developed specifically for testing pervious concrete 
in an in-situ state. In-situ infiltration rates ranged from 2.1 to 75.4 
inches per hour, which indicates that sample lots though compromised, 
had retained functionality.
    From the eight parking lots, a total of 30 pervious concrete cores 
were extracted and evaluated for infiltration rates after various 
rehabilitation techniques were performed to improve the infiltration 
capability of the concrete. The techniques were pressure washing, 
vacuum sweeping and a combination of the two methods. Researchers found 
that the three methods of maintenance investigated in this study 
typically resulted in a 200 percent or greater increase over the pre-
treatment infiltration rates of the clogged pervious concrete cores. 
Thus, with respect to longevity, the UCF study indicates that even 
minimal maintenance will ensure long term pervious functionality.
    Frequency of maintenance is, in part, a function of the site and 
the pavement design. The pervious concrete system should be designed 
such that washout from adjacent soil areas is not allowed to drain onto 
the pavement. Periodic visual inspection of the pavement can determine 
when cleaning is necessary. The typical maintenance schedule, as 
included in the Environmental Protection Agency's (EPA) Best Management 
Practices for Stormwater Management: Porous Pavements Facts Sheet, 
calls for monthly visual inspection of the pavement to ensure that it 
is clean of debris and that it sufficiently dewaters between storms; 
vacuum/sweep or pressure wash on an ``as needed'' basis; and annual 
inspection of the surface for deterioration or spalling. Average costs 
for maintenance of pervious concrete can range widely, dependent on the 
amount of sediment and debris that is allowed to collect on the 
pavement. Common practice, however, shows these costs to be minimal, in 
most cases limited to similar costs for sweeper/vacuum of conventional 
pavement. One option is to include maintenance planning as part of the 
original project cost, which typically represents a very small 
percentage of that cost.
    In a 2003, the City of Olympia, Washington issued its Report on 
Cleaning of Porous Concrete Sidewalk. The sidewalk, installed in 1999, 
was 5.5 feet wide and 1,500 feet long and had maintenance performed for 
four years. The void structure was visibly clogged with debris from 
tree leaves and needles, and had moss growing in the most abundantly 
clogged areas. The city successfully used pressure washing to clean out 
the debris in a mere 41 man-hours. Following the washing, the surface 
pores were visibly clean and open.
    Pervious concrete, similar to conventional concrete, is 
manufactured using no hazardous materials. While the pervious concrete 
pavement system does filter certain chemicals, heavy metals, and other 
pollutants, these suspended solids occur within the filter bed and 
earthen sub-base below the actual pervious concrete. Therefore, 
pervious concrete that has reached the end of its life cycle can be 
recycled and/or disposed of by conventional means.

Q2.  What channels exist for industry to introduce green transportation 
technologies and show proof of concept to State and federal regulatory 
agencies? What actions should the Federal Government take to encourage 
both private development and private adoption of new technologies?

A2. NRMCA believes that one of the ways it can support the introduction 
of green pavement technologies is through advancement of highly 
developed standards combined with a robust construction training 
programs. NRMCA, along with the Portland Cement Association (PCA), are 
active in the development of guideline specifications for the design 
and use of pervious concrete through participation in the American 
Concrete Institute (ACI) standard setting committees. Currently, NRMCA 
and PCA are working through ACI Committee 522 towards the revision of 
ACI 522R-06 which addresses pervious concrete construction and 
maintenance. NRMCA and PCA are also finalizing a document on design of 
pervious concrete pavements for structural and hydrological 
requirements that will include software to assist in design 
applications.
    NRMCA is involved in a newly formed American Society for Testing 
and Materials (ASTM) subcommittee to develop standards for testing and 
evaluation of pervious concrete. An NRMCA staff member chairs this 
subcommittee. ASTM is an organization that develops consensus standards 
that are used globally for various materials and products. In addition, 
to enhance greater utilization of pervious technology, NRMCA has 
embarked on a national program for the certification of Pervious 
Concrete Contractors which has resulted in 1200 certifications in the 
last 18 months.
    Moreover, in order to provide a practical response to the growing 
interest in pervious concrete pavements for stormwater management, the 
American Concrete Pavement Association (ACPA) has released a new 
publication, ``Stormwater Management with Pervious Concrete Pavement.'' 
This user-friendly document details applications, considerations, 
limitations, and benefits of pervious concrete on stormwater 
management.
    The concrete industry's training efforts have been complimented by 
the EPA, which has accepted pervious concrete as a recommended Best 
Management Practice (BMP) for stormwater management on a local and 
regional basis. However, due to a lack of understanding of the efficacy 
of the BMP, many State and local planners still have failed to fully 
utilize pervious concrete and some have actually excluded pervious 
pavements from their own BMPs. It is clear that this is a problem that 
needs to be addressed on a regional basis by means of further education 
on the part of both EPA and industry.
    One vehicle for providing timely information about ``state-of-the-
art'' technologies and for accelerating their development and use are 
public-private partnerships. One such partnership is the Mid-Atlantic 
Green Highways Partnership (GHP) of which NRMCA and ACPA are active 
members. The GHP has diverse members including the Industrial Resources 
Council, the Conservation Fund and the Pennsylvania Department of 
Environmental Protection. The GHP is grounded in a commitment to 
developing ecologically advanced infrastructure projects. GHP seeks to 
transform the manner in which the Nation's transportation 
infrastructure is planned and constructed through a blending of 
integrated planning, regulatory flexibility, and market-based rewards. 
Included in this effort is the goal of achieving broader utilization of 
green pavement technologies that will help support superior watershed-
driven stormwater management. In this regard, the GHP provides a unique 
opportunity for industry to collaborate with Federal, State and local 
governments to introduce ``state-of-the-art'' technologies such as 
pervious concrete. In fact, the GHP has produced a cooperative 
partnership between EPA's Region III and NRMCA leading to a research 
grant for Villanova University to evaluate the water quality and other 
attributes of competing porous pavement systems. The grant has come 
from EPA with assistance from the RMC Research and Education Foundation 
and Villanova University.
    One of the principal benefits of the GHP is that it allows for the 
front-loading of the environmental review process through demonstration 
projects that can demonstrate proof of concept. NRMCA believes that 
proof of concept must involve an integrated planning approach that 
provides for early stakeholder involvement prior to initiation of the 
National Environmental Policy Act process. In order to secure 
regulatory acceptance of the technology and to streamline the 
permitting process it is often necessary to front-load consultation and 
coordination with citizens and local government agencies in order to 
fully educate them about the benefits of using green pavement 
technologies as a tool to comply with various environmental 
requirements. As part of the GHP, NRMCA has recently made a commitment 
to participate in the U.S. 301 Waldorf Maryland Transportation 
Improvements Project that will provide a forum early in the 
environmental impact assessment stage to meet with regulators and train 
them on utilizing pervious concrete as an alternative for meeting low-
impact development (LID) and stormwater management objectives. 
Similarly, NRMCA looks forward to working with EPA Region III and the 
FHWA as part of the Anacostia Restoration Project which supports LID 
and sustainable transportation systems in and around the Anacostia 
watershed in the District of Columbia and Maryland.

Q3.  What R&D, including testing and evaluation, is required to make 
pervious pavement more feasible for use in higher traffic areas, such 
as roads and highways? What are the costs and benefits of expanding the 
use of pervious pavement?

     How difficult is it to get construction contractors to use green 
transportation infrastructure technologies? What additional education 
is necessary to encourage builders and architects to specify green 
technologies in their design plans? Is there a role for the Federal 
Government in educating builders, architects, and other engineers?

A3. The federal tax code provides about $500 billion each year in 
incentives intended to encourage socially-valued activities, including 
homeownership, charitable contributions, health insurance, and 
education. NRMCA believes that adoption of green pavement technologies 
should be included as one of these socially-valued activities. By 
supporting new green technologies, the government can offer every 
American an opportunity to enjoy higher water quality and a better, 
more sustainable environment at lower costs.
    One model for rewarding socially-valued activity is the Energy 
Policy Act of 2005, which offers consumers and businesses federal tax 
credits for purchasing fuel-efficient hybrid-electric vehicles and 
energy-efficient appliances and products. The benefits to the 
environment in terms of reduced air pollution of buying and driving a 
fuel-efficient vehicle and purchasing and installing energy efficient 
appliances and home improvement products are obvious. Consumers who 
purchase and install specific products such as energy efficient 
windows, insulation, doors, roofs and heating and cooling equipment in 
the home can receive a tax credit of up to $500 for eligible purchases. 
In the same manner, homeowners that install a pervious concrete 
driveway should be eligible for a proportionate tax credit for helping 
to reduce stormwater runoff. Also, businesses that employ pervious 
concrete pavement around buildings (walkways, courtyards, etc.) and 
parking areas and low volume roads in housing subdivisions should be 
eligible for tax credits on both new construction as well as 
improvements to existing properties.
    Tax credits are generally a more valuable incentive than an 
equivalent tax deduction because a tax credit reduces tax dollar-for-
dollar, while a deduction only removes a percentage of the tax that is 
owed. Yet, there are also beneficial models for tax deductions that 
have proven to be effective in environmental clean-up. One example is 
the Brownfields Tax Incentive that was passed as part of the Taxpayer 
Relief Act of 1997. Brownfields are properties where reuse is 
complicated by environmental contamination concerns. The incentive 
allows a taxpayer to fully deduct the costs of environmental cleanups 
in the year the costs were incurred rather being capitalized and spread 
over a period of years. Its purpose is to spur the cleanup and 
redevelopment of brownfields. A similar tax incentive should be 
afforded to developers who replace antiquated conventional stormwater 
management systems in industrial and residential properties with an LID 
approach that combines a hydrologically functional site design with 
pavement technologies like pervious concrete to compensate for land 
development impacts on hydrology and water quality.
    Other examples of support for environmentally preferable products 
can be found in federal procurement policy. In 1983, EPA promulgated 
the first federal procurement guideline that required all federal and 
all State and local government agencies and contractors that use 
federal funds to implement a preference program favoring the purchase 
of cement and concrete containing fly ash. EPA published a summary of 
information pertaining to coal combustion products use in an 
environmental fact sheet, Guideline for Purchasing Cement and Concrete 
Containing Fly Ash (EPA530-SW-91-086, January 1992). In addition, 
Executive Order (E.O.) 12873, Federal Acquisition, Recycling, and Waste 
Prevention, signed on October 20, 1993, directs federal agencies to 
develop affirmative procurement programs for environmentally preferable 
products. With respect to the cement and concrete containing fly-ash, 
E.O. 12873 requires that 100 percent of the purchases meet or exceed 
the EPA guideline standards unless written justification is provided 
that a product is not available competitively within a reasonable time 
frame, does not meet appropriate performance standards, or is only 
available at an unreasonable price. These same types of procurement 
requirements would be highly effective drivers of green pavement 
technologies in federally supported combined sewer overflow projects as 
well as in surface transportation projects that present stormwater 
management challenges.
    Congress has also recognized the importance of using innovative 
technologies in water quality management, both in terms of funding 
research into possible new technologies and in demonstrating existing 
(but relatively new) technologies. In the 1977 Clean Water Act 
amendments, Congress established a three-year innovative and 
alternative technologies (known as ``I/A'') program. The I/A program 
helped successfully move technologies such as land treatment of 
wastewater, sludge composting and alternative collection systems from 
relative obscurity to widespread acceptance. For example, the I/A 
program documented successes and problems with ultraviolet 
disinfection. This method is now routinely accepted as an alternative 
to chlorination, especially where there are concerns about security or 
toxic effects of residual chlorine and chlorine byproducts. The program 
also demonstrated that I/A technologies can reduce costs while 
increasing environmental performance.
    To further encourage research into innovative green pavement 
technology, it is critical that EPA establish both a research and 
development program and a demonstration grant program. The research 
program should be aimed at: (1) increasing the effectiveness and 
efficiency of water supply systems (including source water protection, 
stormwater reuse, and protection of the hydrology of wetlands, streams 
and sub-surface waters); (2) encouraging the use of innovative or 
alternative approaches relating to reduction of impervious surfaces; 
and (3) increasing the effectiveness of waste water systems through 
incorporation of impervious pavements, nonstructural alternatives, 
water efficiency, and methods of dispersing, reusing, reclaiming and 
recycling wastewater.
    The demonstration grant program should target water quality 
management and enhancement by promoting innovations in technology and 
alternative approaches with the goal of reducing municipal costs of 
complying with the Clean Water Act. Communities selected for grants 
must describe a strategy by which the demonstration grants could 
achieve similar goals as (1) those mandated by the Clean Water Act 
(e.g., requirements of stormwater permits under the National Pollution 
Discharge Elimination System) or (2) those that could be achieved by 
traditional stormwater management methods. The Administrator should 
provide grants for water supply or water quality matters relating to 
urban or suburban population pressure; difficulties in water 
conservation and efficiency; non-point source pollution; sanitary or 
combined sewer overflows; or a lack of an alternative water supply.
    Precedent for a recommended EPA demonstration grant programs that 
would support green pavement technologies can be found in the Surface 
Transportation Environment and Planning Cooperative Research Program 
(STEP), administered by the Federal Highway Administration (FHWA). The 
general objective of STEP, which was created by SAFETEA-LU in Section 
5207, is to improve understanding through research of the complex 
relationship between surface transportation, planning and the 
environment. STEP is the sole source of SAFETEA-LU funds available to 
conduct FHWA research on planning and environmental issues. It has 
already addressed specific high utility stormwater initiatives 
including the International Stormwater Best Management Practices 
Database, Evaluation and Update of FHWA Pollutant Loadings Model for 
Highway Stormwater Runoff, and Synthesis on the Fate and Effects of 
Chloride from Road Salt Applied to Highways for Deicing.
    Ultimately, to ensure that green pavement technologies are actually 
deployed, State and local planners and agencies responsible for 
administering of the Nation's water quality program have to have 
confidence that all proven technologies are fully available to them to 
meet the Clean Water Act's goals and requirements. As such, it is 
recommended that Section 603(c) of the Clean Water Act be amended to 
identify that financial assistance is available from the State 
Revolving Loan Fund program for stormwater management projects, to 
include the use of pervious pavement technologies.
    NRMCA appreciates the opportunity to answer questions submitted for 
the record by Members of the Subcommittee. If you need additional 
information, please feel free to contact Robert L. Sullivan, NRMCA's 
Senior Vice President of Government & Legal Affairs at (240) 485-1148 
or at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d7f7e786161647b6c634d637f606e6c23627f6a23">[email&#160;protected]</a>
                   Answers to Post-Hearing Questions
Responses by Hal Kassoff, Senior Vice President for Sustainable 
        Development, Parsons Brinckerhoff

Questions submitted by Chairman David Wu

Q1.  What State or federal regulations have affected your company's 
green infrastructure practices?

A1. With transportation representing the largest part of our business, 
federal regulations relating to NEPA, Clean Water, Clean Air, Historic 
Preservation, Rare and Endangered Species, Storm Water Management, and 
Noise all have a profound impact on the projects that we work on for 
our clients. While each area has its own legislation and regulations, 
and this in and of itself can be problematic, the prevailing approach 
among them when it comes to the potential impacts associated with 
projects can perhaps best be described as ``avoid, minimize, 
mitigate.'' This concept is reasonable as a regulatory foundation for 
achieving green infrastructure. A minimum bar must be set to protect 
our resources and that bar is, in essence, defined by those three 
words--first do no harm if that is possible, and if some degree of harm 
is unavoidable then the next rung on the ladder is to minimize that 
harm with all reasonable measures, as well as mitigate the harm by 
somehow replacing the functional value of what was lost--this could 
mean anything from wetland creation to enhancing an historic district. 
The ``affect'' of these regulations is to allow many projects to 
proceed but to do so in as green a manner is possible.
    However, there is often even more that can be done if our mindset 
is advanced one more notch from avoid, minimize and mitigate harm to 
creating a positive (better than before) net outcome with respect to 
the natural, social and built environments. This simply means that in 
addition to meeting regulatory standards for avoiding, minimizing and 
mitigating harm, transportation and environmental resource 
professionals might seek outcomes in which at little or no additional 
cost, measures might be taken to improve upon the environmental 
footprint that pre-existed the project. Such opportunities most often 
arise from the fact that the vast majority of projects--certainly in 
the highway business--involve upgrading existing facilities, few of 
which were built to current standards of environmental protection.
    The problem is that to do more than regulations require, by 
definition is impossible to regulate. So when we ask what can be done 
from a regulatory perspective to improve the likelihood of achieving 
``green infrastructure'' the answer has to be nothing beyond the avoid, 
minimize and mitigate harm ``standard'' and then everything to 
encourage voluntary efforts to find reasonable and affordable ways to 
go beyond regulatory minimums as a normal matter of doing business--
with the attendant benefits of an improved natural, social and built 
environment, and improved relationships and greater trust between 
project sponsors and resource regulators.

Q2.  In your opinion, what are the most pressing research needs in the 
field of green transportation infrastructure? Should federal R&D 
programs focus more strongly on technology development or testing and 
evaluation? How would Parsons Brinckerhoff use the results of that R&D?

A2. A particularly pressing need involving research is to improve the 
ability of resource agencies to have access to and to apply the 
science, and a factual foundation, behind what are perceived, but are 
not in fact always proven to be, the real harmful effects of projects, 
as well as the real benefits of mitigation and enhancement measures. 
This point is perhaps best illustrated with a story about one of the 
most significant environmental challenges I had encountered in my 40 
plus years in this business.
    We had completed and received federal approval of the Environmental 
Impact Statement for a long-awaited highway project and after an 
additional two years to complete final design and acquire right-of-way, 
we were stopped in our tracks at the wetland permitting stage when 
federal resource agencies told us that notwithstanding the approved 
EIS, the project would not receive necessary wetland permits. The 
reason cited was that during the permit review stage it was determined 
that the wetland impacts were too severe and that design changes would 
be needed, even though they would delay the project by over a year and 
add $20 million in cost.
    After engaging a renowned wetland expert to assess the situation we 
learned from him the good news was that the resource agencies were 
mistaken and were, in fact, reacting literally to surface appearances 
in attempting to protect a pristine looking wetland area that was 
actually created by poor drainage from an adjacent project. The other 
somewhat ironic news we were given was that while the area the resource 
agencies wanted to protect could not be backed up by a factual 
analysis, there was indeed another area that had been dismissed as 
being of low value--again largely due to surface appearances--which had 
a very significant function as a wetland due to its sub-surface 
connection to important aquifers. So in the end we suffered the delay 
and most of the additional cost, but had the satisfaction of knowing 
that the harm we prevented was real.
    Related to the need to get the information to practitioners and 
ensure that it is used, is the need for better information about what 
mitigation measures are most effective and which ones are marginal. 
Again, using wetlands as an example, how effective have the many 
thousands of very small, on site, difficult to maintain mitigation 
sites proven to be compared to some of the larger, off-site and even 
out-of-watershed measures, such as wetland banking.
    Finally, is it possible to develop cross functional green 
infrastructure mitigation to address situations where the resource 
affected is not particularly scarce and replacing the loss would have 
marginal, if any benefit, but on the other hand another resource, which 
was perhaps not affected, is threatened. So instead of replacing five 
acres of wetland adjacent to a 50,000 acre wetland system would it be 
of greater value to use mitigation funding for upland habitat 
preservation in connection with an endangered mammal? What are the 
tradeoffs. How are they quantified? What are the institutional barriers 
and how can they be overcome?

Questions submitted by Representative Phil Gingrey

Q1.  Does current research successfully encapsulate the local 
environmental factors that affect Best Management Practices which are 
appropriate for different environments? Does for instance, the 
International Stormwater Best Management Practices Database include all 
of the relevant performance data? And if not, are the gaps known and 
being addressed by State or federal research programs?

A1. While I am unable to respond to these questions I have asked 
members of our firm who might be able to address them to do so. (Their 
response follows.)

    Many excellent studies have been conducted to evaluate the 
performance, pollutant removal efficiency and cost of various types of 
storm water BMPs. Of these research projects, however, only a few were 
specifically designed to study geographic variation. EPA has published 
some information regarding site specific BMP information, regional 
limitation and operation and maintenance burdens of these BMPs, but not 
in great and practical details sufficient to guide selection and 
installation. Cooperative research efforts such as the International 
Stormwater BMP Database project have done an excellent job in reaching 
out and collecting storm water BMP data. The sites contained in the 
database to date, however, are not yet geographically diverse. A large 
amount of data has come from a small number of states, such as 
California, Texas, and Florida. Not many BMP data represent the 
Northeast, Mid-Atlantic and Midwest. For the State of Maryland, for 
example, only two BMP data sets were presented despite the numerous 
storm water BMPs that have been applied in the past two decades. This 
poor geographic distribution of the data set makes study of the 
geographic variation in BMP performance statistically difficult.
    Another gap in research is the type of BMPs being studied. For 
example, one can more readily find detention pond-based BMPs 
performance data, mainly due to its long history of implementation. One 
can also find many proprietary BMPs, such as hydrodynamic devices, on 
the Internet particularly due to commercial interests. By comparison, 
there is limited information and research related to low impact 
development (LID) BMP techniques such as bioretention, grass swales, 
and infiltration.

Q2.  What recommendations do you have for improving university 
awareness and education of green infrastructure practices?

A2. Clearly our universities as well as our agencies and businesses 
that employ practitioners would benefit from greater cross 
fertilization of ideas--through internships among students, continuing 
education for practitioners, conferences, and the like. The notion of 
green infrastructure in the U.S. is still relatively new but interest 
in it is growing very rapidly. Certainly if Congress expressed its 
interest in and provided additional funding for research and 
educational programs centered upon green infrastructure (hopefully with 
earmarks), that would send a powerful message.

Q3.  How can federal agencies such as FHWA and EPA create incentives 
for projects to improve environmental quality rather than simply meet 
regulations to avoid harm?

A3. The most important aspect of this question is the implied 
recognition that regulations will not succeed in going beyond the 
``avoid, minimize and mitigate harm'' standard. Simply put, what we 
need is ensure success of the current Green Highways Partnership 
``experiment'' in the Mid-Atlantic.
    Transportation agencies which become convinced that a ``better than 
before'' environmental stewardship ethic is not only the right thing to 
do but yields practical benefits in gaining the trust and confidence of 
resource agencies will clearly move in that direction. Similar movement 
is needed among resource agencies to see that win-win outcomes are 
possible with their pro-active support and that a track record of poor 
relationships and frequent appeals means that they may not be working 
hard enough to find win-win solutions.
    While doing more than meeting minimum requirements to improve the 
environment will not happen through legislation, programs to identify, 
recognize, celebrate and spread the word about green infrastructure 
successes in the U.S. and elsewhere can and should be defined.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

       Statement of The Interlocking Concrete Pavement Institute
    Mr. Chairman, my name is Randall G. Pence, Capitol Hill Advocates, 
Inc. I am pleased to offer testimony on behalf of ICPI, the 
Interlocking Concrete Pavement Institute with offices at 1444 I St., 
NW, Washington, DC 20005.
    ICPI represents producers and installers of segmental interlocking 
concrete pavers in the United States, Canada and elsewhere. ICPI is the 
voice of the segmental interlocking concrete pavement industry and is 
the leader in efforts to develop the industry in the Americas through 
technological research, engineering, product development and 
innovation, marketing, government relations and public relations.
    Segmental interlocking concrete pavements provide multiple benefits 
of interest in public policy. For the purposes of today's hearing, I 
will focus on the characteristics of paver surfaces as permeable 
interlocking concrete pavements (PICP).
    PICP are comprised of a layer of concrete pavers placed in layers 
of small stones and separated by joints filled with even smaller 
stones. Permeable pavements provide tremendous stormwater runoff 
advantages. The concrete paving units are not permeable, but the joints 
between them, typically 5-10 mm wide, provide permeability. They allow 
water to percolate through the base materials to be absorbed in local 
soils rather than flow across non-pervious pavements, carrying surface 
pollutants to the Nation's rivers. Further, there is a filtration 
benefit as stormwater travels though the permeable pavements and the in 
situ soils.
    PICPs are highly effective in providing infiltration, detention and 
treatment of storm water pollution. The base can be designed to filter, 
treat and slowly release water into a storm sewer or water course while 
providing a walking and driving surface. PICPs answer the call from 
municipal regulations to limit impervious covers and runoff into storm 
drains working at capacity, or when sites have limited space for 
detention ponds. The U.S. Environmental Protection Agency and several 
State agencies consider PICPs an infiltration Best Management Practice 
(BMP). An increasing number of cities, counties and states are 
incorporating them into land development and runoff standards, low-
impact development guidelines and design manuals on stormwater control.
    With proper design, material selection, construction and routine 
maintenance, PICP is a sustainable low-impact BMP used by landscape 
architects, architects, engineers, developers and public agency staff. 
PICPs have been widely used across Europe, especially Germany since the 
early 1990s. The paving products shown in the exhibit attached to this 
testimony demonstrate runoff reduction and improved water quality in a 
range of climates, soils, hydrological and regulatory environments.
    As urbanization increases, so does the concentration of pavements, 
buildings and other impervious surfaces. These surfaces generate 
additional runoff and pollutants during rainstorms causing stream-bank 
erosion, as well as degenerating lakes and polluting sources of 
drinking water. Increased runoff also deprives groundwater from being 
recharged, decreasing the amount of available drinking water in many 
communities. Recreational opportunities from lakes, streams and rivers 
decline from the impacts of urban runoff. Commercial fishing 
productivity can decline in estuaries and bays thereby negatively 
impacting regional economies. In response to environmental and economic 
impacts from stormwater runoff, U.S. federal law mandates that states 
control water pollution in runoff through the National Pollutant 
Discharge Elimination System (NPDES). Among many things, the law 
requires that states and localities implement best management practices 
BMPs to control non-point source pollution in runoff from development. 
BMPs can include storage, filtration and infiltration land development 
practices. Infiltration practices capture runoff and rely on 
infiltration through soils, vegetation, or aggregates for the reduction 
of pollutants. Detention ponds are a common BMP example used to hold, 
infiltrate, and release stormwater. Infiltration trenches are another 
that reduce stormwater runoff and pollution, and replenish groundwater. 
All of these BMPs provide some treatment and reduction of runoff 
pollutants.
    In preparation for this hearing, Subcommittee staff have asked ICPI 
to address these issues:

1.  What environmentally-friendly transportation infrastructure 
technologies are available to private developers? What are the costs 
and benefits associated with these technologies? How do these 
technologies contribute to environmental protection, including 
pollution control and energy efficiency?

2.  How do you determine if a technology is environmentally-friendly? 
How do life cycle environmental costs affect whether a technology is 
considered ``green''?

3.  What are the barriers preventing widespread use of these 
technologies by private entities?

4.  What actions can the Federal Government take to encourage use of 
these technologies by private entities?

    The first two questions may be attended in brief. Clearly, PICP are 
a prime example of an environmentally-friendly transportation 
infrastructure technology that is available to all developers--private, 
public, institutional, suitable at small and larger scales for 
residential, commercial, government, military construction and more. 
Costs vary by several factors including location, design complexity and 
more but PICP are cost-competitive with other paving surfaces. The 
environmental benefits are as set forth above in the introduction to 
PICP: effective stormwater management due to the permeable qualities of 
the product, improved water quality due to filtration and flood 
control. The energy efficiency benefits may not be a distinguishing 
factor.
    In determining if a technology is environmentally friendly, we 
would suggest that a good test would be to assess whether a given 
technology tends to bring about environmental conditions more like the 
conditions that would exist if there were no development in the 
location in question. PICP meet this standard by providing a permeable 
surface that can provide substantial in situ absorption and 
infiltration as would be expected without development. Life cycle 
costing is always a factor for consideration, but finding a valid cost 
comparison for a life cycle analysis could be a challenge. For example, 
life cycle costs at a specific job site might be relatively easy to 
estimate in the long term, it might be more difficult to estimate the 
out-year costs of failing to implement green technologies because those 
costs could occur downstream of the job site.
    Further, any life cycle cost analysis should address infrequent but 
potentially overwhelming catastrophic events that are more likely to 
occur downstream if innovative technologies are not supported upstream.

Barriers and Solutions

    Questions 3 and 4 describe issues that could suggest remedial 
action to be supported by the Subcommittee and are best answered 
together.
    The prime barriers to widespread adoption of green technologies in 
transportation, and other construction sectors as well, are initial 
construction costs and the general issue of local custom--that which is 
familiar and safe in the thinking of local architects, designers and 
engineers.

A. The construction industry is well known for intense pressures to 
build as quickly and as inexpensively as the legislative, regulatory 
and codes schemes will allow. Assuming that most environmentally 
friendly construction options that are not being widely used are not 
being used because they are not the least costly options for initial 
construction, the solution would seem to be for government to provide 
financial incentives for green construction. This could take the form 
of tax incentives such as targeted tax credits for using approved 
technologies. Perhaps accelerated depreciation would be attractive to 
private sector entities that would intend to build and own properties. 
It may well be the case that such tax incentives would be less 
expensive than the costs of catastrophic event responses in the future, 
but clearly, tax incentives would be costly and controversial for that 
reason, though ICPI would support the concept.

B. Another cost-related barrier is that associated with setting aside 
valuable land area for open space to provide infiltration of 
stormwater. Open areas can provide strong environmental benefits but 
carry large costs which are a prime impediment to their use. Innovative 
techniques like PICP can obviate this barrier if they can provide a 
dual use of the area, for example, meeting the needs for parking areas 
and simultaneously providing infiltration opportunity in the same space 
because the parking area is a permeable pavement. As Congress considers 
means to move green construction technologies to the mainstream, it 
should recognize and provide incentives for efficient use of the land 
that allow for development and good environmental impacts without 
relying solely on undeveloped open spaces, catch basins and other 
costly space-consumptive sole-use techniques. We should assume that 
those green technologies that have lower costs in terms of dedicated 
land set-asides will be more attractive to developers and face lesser 
barriers to adoption on this basis.

C. Perhaps the more pervasive barrier, and one which Congress might 
help surmount for small commitments of funding, is the vexing problem 
of attracting to deviate from prior practice and custom and to adopt 
new technologies. Local governments and local markets have the primary 
impact on codes, regulations and customs for construction. The 
construction industry tends to stay with what is safe, what is 
familiar, and what has been done before.
    Congress can have positive impacts in overcoming this barrier by 
providing relatively modest funding for innovative technology research, 
engineering and demonstration projects to be conducted at the local 
level, helping develop local familiarity, local applications, local 
reference data, local experience and expertise. Recipients of federal 
grant funding for this purpose should be made available to State water 
pollution control agencies, interstate agencies, other public or 
nonprofit private agencies, institutions, organizations, and 
individuals. The purpose would be to conduct and promote the 
coordination and acceleration of, research, investigations, 
experiments, training, demonstrations, surveys, and studies relating to 
the causes, effects, extent, prevention, reduction, and elimination of 
pollution, with special emphasis on demonstrating uses of low-impact, 
decentralized stormwater control technologies and applications using 
permeable pavements, including interlocking concrete pavements, to 
prevent and control stormwater run-off at the source.
    EPA has such a program in place. Unfortunately, it has not been 
funded consistently enough to reach critical mass with the construction 
community. ICPI would recommend that the Subcommittee support full 
funding for currently authorized EPA programs to award such grants. 
What is needed is more funding, especially to demonstrate the 
feasibility of technologies like PICP to local government authorities 
who determine which technologies are recognized at the local level as 
BMPs for stormwater management. This is crucial to widespread adoption 
of innovative new BMPs.
    ICPI is urging the House Interior Appropriations Subcommittee to 
direct funding of $2 million in FY 2008 to fund grant programs 
authorized under 33 USC  1254(B)(3) to research and demonstrate 
stormwater mitigation demonstration projects nationwide, many of which 
will include use of concrete paver technology. We urge this 
subcommittee to support funding for these EPA grant programs.

D. As part of its stormwater mandate, EPA maintains the most 
comprehensive database of BMPs in the world for the management and 
reduction of stormwater runoff. EPA uses the database to make policy 
decisions and impact grant funding for stormwater projects. But the 
database's impact goes far beyond EPA. Other agencies use the EPA 
database to make their stormwater design decisions. Private companies, 
designers, architects, and engineers across the world use the database.
    The BMP database needs to be updated to reflect a substantial body 
of new BMP research. Yet, in the most recent fiscal years, funding for 
the Clean Water Act's Section 104(b)(3) funds which EPA would use to 
conduct the update have been reduced and eliminated. The BMP update 
would significantly add to information regarding the use of concrete 
pavers and permeable pavement systems for stormwater mitigation.
    Congress could jump-start the BMP update by restoring modest 
funding for both the BMP update and the grant program for to ensure 
that the construction and design communities worldwide could access the 
latest data for their stormwater mitigation strategies. Industries 
would offer new data that would focus on the stormwater potential of 
making routine use of permeable interlocking concrete pavers to capture 
important environment benefits.
    ICPI is currently recommending to the House Interior Appropriations 
Subcommittee that is renew funding of up to $200,000 in FY 2008 for the 
CWA Section 104(b)(3) programs to conduct a major overhaul and update 
of the EPA stormwater BMP database, which is likely to include a 
substantial upgrade and enhancement of the data describing how concrete 
paver technology can be used very effectively to mitigate stormwater 
runoff. We recommend that this subcommittee support the recommendation.

E. It is noted in the hearing background documents that a regulatory 
barrier to widespread adoption of innovative technologies may be due to 
EPA regional offices taking different positions on whether permeable 
pavements that inject into the ground should be considered point 
sources subject to permitting under the NPDES. Clearly, Congress could 
act to remove this barrier by passing legislation to clearly define 
permeable pavements that inject into the ground are either not defined 
as point sources or are point sources exempt from permitting 
requirements under NPDES. EPA should be tasked to standardize 
regulatory responses among the regional offices with regard to 
permeable pavements.

    Mr. Chairman, thank you for this opportunity to provide the views 
of ICPI. We look forward to working with you as the Subcommittee 
considers policy responses to enhance adoption of these technologies 
and would be happy to address the Subcommittee's questions.

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
